<html>
<title> - REVIEW OF THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR FUTURE DRAFT RECOMMENDATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       REVIEW OF THE BLUE RIBBON
                 COMMISSION ON AMERICA'S NUCLEAR FUTURE
                         DRAFT RECOMMENDATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT
                             JOINT WITH THE
                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, OCTOBER 27, 2011

                               __________

                           Serial No. 112-47

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
70-801                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                       Thursday, October 27, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    22
    Written Statement............................................    24

Statement by Representative Paul Tonko, Ranking Minority Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    25
    Written Statement............................................    27

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    28
    Written Statement............................................    29

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    30
    Written Statement............................................    32

                               Witnesses:

Mr. Jack Spencer, Research Fellow, Nuclear Energy Policy, 
  Heritage Foundation
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Peter Swift, Distinguished Member of the Technical Staff, 
  Sandia National Laboratory
    Oral Statement...............................................    43
    Written Statement............................................    44

Dr. Roger Kasperson, Professor and Distinguished Scientist, Clark 
  University
    Oral Statement...............................................    46
    Written Statement............................................    48

Mr. Gary Hollis, Chairman, Nye County Board of County 
  Commissioners
    Oral Statement...............................................    62
    Written Statement............................................    63

Mr. Rick McLeod, Executive Director, Savannah River Site 
  Community Reuse Organization
    Oral Statement...............................................    65
    Written Statement............................................    66

Dr. Mark Peters, Deputy Laboratory Director for Programs, Argonne 
  National Laboratory                                                  
    Oral Statement...............................................    69
    Written Statement............................................    71

Discussion
  ...............................................................    80

              Appendix: Answers to Post-Hearing Questions

Mr. Jack Spencer, Research Fellow, Nuclear Energy Policy, 
  Heritage Foundation............................................    94

Dr. Peter Swift, Distinguished Member of the Technical Staff, 
  Sandia National Laboratory.....................................    99

.................................................................
  r. Roger Kasperson, Professor and Distinguished Scientist, 
    Clark University.............................................   109

Mr. Gary Hollis, Chairman, Nye County Board of County 
  Commissioners..................................................   110

Mr. Rick McLeod, Executive Director, Savannah River Site 
  Community Reuse Organization...................................   113
Dr. Mark Peters, Deputy Laboratory Director for Programs, Argonne 
  National Laboratory............................................   118

             Appendix 2: Additional Material for the Record

Report by the Majority Staff of the House Science, Space, and 
  Technology Committee: Yucca Mountain: The Administration's 
  Impact on U.S. Nuclear Waste Management Policy, June 2011......   122

Documentation from Nye County....................................   167

What's Next for Nuclear Waste? A New Strategy for the CSRA.......   179

Letter from the Department of Energy Pertaining to Yucca Mountain 
  Repository License Application.................................   208

Federal Report: ``Nuclear Waste: Can Nevada Keep America's 
  Sizzling Nuclear Waste Out of Its Backyard?'' Governing 
  Magazine, April 1990...........................................   213

Testimony of Martin G. Malsch, Special Deputy Attorney General 
  for the State of Nevada........................................   220

``Nuclear Waste Program Faces Political Burial,'' Science, 22 
  August 1986....................................................   232



                       REVIEW OF THE BLUE RIBBON
                 COMMISSION ON AMERICA'S NUCLEAR FUTURE
                         DRAFT RECOMMENDATIONS

                              ----------                              


                       THURSDAY, OCTOBER 27, 2011

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                                     joint with the
            Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Investigations and Oversight] 
presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. The Subcommittee on Investigations and 
Oversight as well as the Subcommittee on Energy and Environment 
will come to order.
    Good morning. Welcome to today's hearing entitled ``Review 
of the Blue Ribbon Commission on America's Nuclear Future Draft 
Recommendations.'' In front of you are packets containing the 
written testimony, biographies and Truth in Testimony 
disclosures for today's witness panel. Before we get started, 
since this is a joint hearing involving two Subcommittees, I 
want to explain how we will operate procedurally so that all 
Members understand how the question-and-answer period will be 
handled. As always, we will alternate between the majority and 
minority Members, and allow all Members an opportunity for 
questioning before recognizing a Member for a second round of 
questions if we have time for those second rounds. We will 
recognize those Members of either Subcommittee present at the 
gavel in order of seniority on full Committee and those that 
come in after the gavel will be recognized in order of their 
arrival. I now recognize myself for five minutes for an opening 
statement.
    On January 29, 2010, the President directed the Secretary 
of Energy to establish a Blue Ribbon Commission to ``conduct a 
comprehensive review of policies for managing the back of the 
nuclear fuel cycle, including all alternatives for the storage, 
processing and disposal of civilian and defense use nuclear 
fuel and nuclear waste.''
    Over the last year and a half, the Commission held numerous 
meetings and site visits around the country in a transparent 
and open manner, to hear a wide array of stakeholder input. I 
was pleased that the Commission recognized the importance of 
this issue in my community and came down to Georgia and South 
Carolina last winter and listened to the concerns held by a 
variety of organizations. On July 29th, the Commission released 
its draft recommendations, announced it will seek comments on 
that draft until October 31, and indicated that it will meet 
its deadline to deliver a final report by January 29, 2012. 
That is a novel idea, meeting a deadline. This hearing allows 
the Committee to hear expert opinions on the Commission's draft 
report and weigh in accordingly.
    At the same time the Administration formed the BRC, the 
Department of Energy announced its intention to withdraw the 
Yucca Mountain license application before the Nuclear 
Regulatory Commission. Shortly thereafter, Secretary Chu 
promised that the BRC would have the authority to explore a 
``full range of scientific and technical options.'' 
Unfortunately it appears that promise was broken. Co-Chair Lee 
Hamilton said Secretary Chu made it ``quite clear that nuclear 
waste storage at Yucca Mountain is not an option, and that the 
Blue Ribbon Commission will be looking at better 
alternatives.''
    While the BRC charter does not expressly prohibit the 
consideration of Yucca Mountain, it is not surprising that the 
BRC draft recommendations ignore the 900-pound gorilla in the 
room. That 900-pound gorilla, not 800-pound but 900-pound 
gorilla, or more appropriately the $15 billion gorilla, was 
actually recommended by Secretary Chu months before he joined 
this recommendation. He made the recommendation of Yucca 
Mountain. Given the longstanding acknowledgement of the need 
for a permanent deep geological repository, it should come as 
no surprise that the BRC still called for a geological 
repository to be expeditiously developed.
    Many of the Commission's other recommendations, such as the 
development of a quasi-governmental organization and the manner 
in which the Nuclear Waste Fund, which finances activities to 
store spent nuclear fuel, is administered are very interesting. 
I look forward to working with the Commission and the 
Administration on these recommendations, particularly the 
research, development and demonstration provisions that fall 
within this Committee's jurisdiction.
    Ensuring a sustained, viable and safe nuclear sector is an 
important part of a balanced energy portfolio, and that is 
enabled by responsible public and private investments in 
research and development. In Georgia alone, almost a quarter, 
24.7 percent, of its electricity generation comes from nuclear 
energy. Two power stations, Hatch and Vogtle, have the capacity 
to generate over 4,000 megawatts of emissions-free energy.
    That nuclear power production also produces spent fuel. 
There is already a significant amount, 2,410 metric tons, of 
commercial spent fuel currently stored in Georgia awaiting 
disposition, fuel that the people of Georgia have already paid 
over $700 million to dispose of. On top of the fees paid by 
ratepayers, the American taxpayers are on the hook for $12 
billion in liabilities, due to the Federal Government's 
inability to meet their legal obligation to accept spent 
nuclear fuel. This liability is likely to skyrocket in future 
years in the absence of federal action.
    In addition to the fuel stored at Georgia's nuclear 
reactors, the Savannah River Site also houses a great deal of 
radioactive material as a result of its contributions to our 
Nation's nuclear weapons program. I am concerned that the BRC 
interim storage recommendations will be used to make the 
Savannah River Site a de facto repository without any of the 
scientific study that Yucca Mountain has undergone. This 
concern has long been recognized and was the reason why in 1987 
Congress prohibited the construction of such a facility prior 
to a license being issued for a permanent geological 
repository.
    This distrust brings me to another point. This 
Administration has long claimed that it makes its decisions 
based on science. In 2008, the President stated that he would 
``restore the basic principle that government decisions should 
be based on the best available, scientifically valid evidence, 
not on the ideological predispositions of agency officials or 
political appointees.'' Also, just last year, the President's 
Press Secretary stated this: ``I think what has taken Yucca 
Mountain off the table in terms of a long-term solution for a 
repository for our nuclear waste is the science. The science 
ought to make these decisions.''
    After reviewing the NRC's evaluation of whether Yucca 
Mountain meets regulatory standards, I have trouble reconciling 
those two statements.
    At this point, I would like to enter into the record a 
majority staff report titled Yucca Mountain: The 
Administration's Impact on U.S. Nuclear Waste Management 
Policy. Without objection, so ordered.
    [The information may be found in Appendix 2.]
    Chairman Broun. The report pointedly highlights the NRC's 
independent evaluation of Yucca Mountain determined the 
proposed repository meets all applicable safety requirements, 
including those related to human health and groundwater 
protection, and the scientific performance goals set forth by 
the regulatory agencies.
    While I believe the Commission's draft recommendations 
offer an opportunity to explore innovative policy options, the 
fact that the Commission was precluded from addressing Yucca 
Mountain limits the usefulness of the report. Any serious 
review of spent fuel management has to recognize the decades of 
research and billions of dollars, taxpayers' dollars, in 
investment to ready Yucca Mountain to accept spent nuclear 
fuel. Let us also not forget that Yucca Mountain is designated 
by law as the Nation's spent fuel repository. I hope that the 
Commission members take this into consideration as they prepare 
their final report.
    [The prepared statement of Mr. Broun follows:]

     Prepared Statement of Representative Paul C. Broun, Chairman,
              Subcommittee on Investigations and Oversight

    On January 29, 2010, The President directed the Secretary of Energy 
to establish a Blue Ribbon Commission to ``conduct a comprehensive 
review of policies for managing the back of the nuclear fuel cycle, 
including all alternatives for the storage, processing, and disposal of 
civilian and defense used nuclear fuel and nuclear waste.''
    Over the last year and a half, the Commission held numerous 
meetings and site visits around the country in a transparent and open 
manner, to hear a wide array of stakeholder input. I was pleased that 
the Commission recognized the importance of this issue in my community 
and came down to Georgia and South Carolina last winter and listened to 
the concerns held by a variety of organizations. On July 29, the 
Commission released its draft recommendations, announced it will seek 
comments on that draft until October 31, and indicated that it will 
meet its deadline to deliver a final report by January 29, 2012. This 
hearing allows the Committee to hear expert opinions on the 
Commission's Draft Report and weigh in accordingly.
    At the same time the Administration formed the BRC, the Department 
of Energy announced that its intention to withdraw the Yucca Mountain 
license application before the Nuclear Regulatory Commission. Shortly 
thereafter, Secretary Chu promised that the BRC would have the 
authority to explore a ``full range of scientific and technical 
options.'' Unfortunately it appears that promise was broken. Co-Chair 
Lee Hamilton said Secretary Chu made it ``quite clear that nuclear 
waste storage at Yucca Mountain is not an option, and that the Blue 
Ribbon Commission will be looking at better alternatives.'' While the 
BRC charter does not expressly prohibited the consideration of Yucca 
Mountain, it is not surprising that the BRC draft recommendations 
ignore the 900-pound gorilla in the room. That 900-pound gorilla, or 
more appropriately the $15 billion gorilla, was actually recommended by 
Secretary Chu months before he joined the Administration. Given the 
long-standing acknowledgement of the need for a permanent deep 
geological repository, it should come as no surprise that the BRC still 
called for a geological repository to be expeditiously developed.
    Many of the Commission's other recommendations, such as the 
development of a quasi-governmental organization and the manner in 
which the Nuclear Waste Fund, which finances activities to store spent 
nuclear fuel, is administered are very interesting. I look forward to 
working with the Commission and the Administration on these 
recommendations, particularly the Research, Development, and 
Demonstration provisions that fall within this Committee's 
jurisdiction. Ensuring a sustained, viable, and safe nuclear sector is 
an important part of a balanced energy portfolio, and that is enabled 
by responsible public and private investments in research and 
development. In Georgia alone, almost a quarter (24.7%) of its 
electricity generation comes from nuclear energy. Two power stations--
Hatch and Vogtle--have the capacity to generate over 4,000 megawatts of 
emission-free energy.
    That nuclear power production also produces spent fuel. There is 
already a significant amount (2,410 metric tons) of commercial spent 
fuel currently stored in Georgia awaiting disposition--fuel that the 
people of Georgia have already paid over $700 million to dispose of. On 
top of the fees paid by ratepayers, the American taxpayers are on the 
hook for $12 billion in liabilities, due to the Federal Government's 
inability to meet their legal obligation to accept spent nuclear fuel. 
This liability is likely to skyrocket in future years in the absence of 
federal action.
    In addition to the fuel stored at Georgia's nuclear reactors, the 
Savannah River Site also houses a great deal of radioactive material as 
a result of its contributions to our Nation's nuclear weapons program. 
I am concerned that the BRC interim storage recommendations will be 
used to make the Savannah River Site a de facto repository without any 
of the scientific study that Yucca Mountain has undergone. This concern 
has long been recognized and was the reason why in 1987 Congress 
prohibited the construction of such a facility prior to a license being 
issued for a permanent geological repository.
    This distrust brings me to another point. This Administration has 
long claimed that it makes its decisions based on science. In 2008, the 
President stated that he would ``restore the basic principle that 
government decisions should be based on the best-available, 
scientifically valid evidence and not on the ideological 
predispositions of agency officials or political appointees.'' Also, 
just last year, the President's Press Secretary stated, ``I think what 
has taken Yucca Mountain off the table in terms of a long-term solution 
for a repository for our nuclear waste is the science. The science 
ought to make these decisions.'' After reviewing the NRC's evaluation 
of whether Yucca Mountain meets regulatory standards, I have trouble 
reconciling those two statements. At this point, I would like to enter 
into the record a majority staff report titled Yucca Mountain: The 
Administration's Impact on U.S. Nuclear Waste Management Policy. The 
report pointedly highlights the NRC's independent evaluation of Yucca 
Mountain that determined the proposed repository meets all applicable 
safety requirements, including those related to human health and 
groundwater protection, and the specific performance goals set forth by 
the regulatory agencies.
    While I believe the Commission's draft recommendations offer an 
opportunity to explore innovative policy options, the fact that the 
Commission was precluded from addressing Yucca Mountain limits the 
usefulness of the report. Any serious review of spent fuel management 
has to recognize the decades of research and billions of dollars in 
investment to ready Yucca Mountain to accept spent nuclear fuel. Let's 
also not forget that Yucca Mountain is designated by law as the 
Nation's spent fuel repository.
    I hope that the Commission Members take this into consideration as 
they prepare their final report.

    Chairman Broun. With that, now I will recognize--and I 
welcome our new Ranking Member, Mr. Tonko, and I recognize you, 
my friend, for five minutes. I look forward to working with you 
on this Committee.
    Mr. Tonko. Thank you. Thank you, Chairman. I appreciate the 
trust shown by the Democrats of the Committee to have me serve 
as their Ranking Minority Member for the Subcommittee on 
Investigations and Oversight, and I do look forward to a 
productive working relationship.
    On November 4, 2008, the citizens of this country chose 
then-Senator Barack Obama to serve as President of these United 
States. He received 53 percent of the popular vote and the 
largest absolute number of votes of any candidate in our 
country's history.
    As a candidate, he had promised very clearly that Yucca 
Mountain would not be used as a nuclear waste repository. After 
taking office he took steps to keep that promise. That is 
politics, but that is the kind of politics that lies at the 
heart of a functioning democracy. Apparently, President Obama's 
position on Yucca will not be reversed even in the unlikely 
event that Congressman Paul or Governor Romney or Governor 
Perry wins the 2012 Presidential election. In the Republican 
candidates' debate in Nevada last week, all three of them said 
that they would not open Yucca either.
    The decision to close Yucca Mountain was not driven by 
science, and it is a fiction to pretend that it was. The change 
that this--the charge, rather, that this is an example of a 
lack of scientific integrity only stands as an argument one 
way, if you can sell the idea that somehow the decision-making 
on Yucca always hinged on science, and that the new 
Administration abandoned that path or somehow skewed the 
science to support a favored outcome.
    The truth is that the actual decision process surrounding 
Yucca has always been political. The Administration's decision 
to close Yucca was a position advocated by a Presidential 
candidate and then supported by a majority of American voters. 
In the United States democratic system, we also call that a 
mandate for change.
    How was Yucca selected to become the Nation's permanent 
nuclear waste repository in the first place? You can look at 
the entire body of the majority's report, almost 40 pages long, 
but one critical term is missing. It was popularly referred to 
in more colloquial terms but we might otherwise call it the 
``Forget Nevada'' amendment. The majority's report does not 
mention this Amendment that came back from a House-Senate 
Conference Committee in 1987.
    In 1987, two of the leading alternative sites had powerful 
political patrons. Texas had a site in Speaker Wright's 
district. Washington State had a site in Majority Leader 
Foley's district. It may not be too much of a shock to learn 
that those sites were pulled out of the competition by 
Congress, thereby leaving Yucca Mountain as the only 
alternative. At the time, Harry Reid, a former member of the 
I&O Subcommittee, was in his first year as a Senator from 
Nevada. Two decades later, the situation has changed in 
remarkable ways, but with predictable consequences.
    Let me be clear: it was not science that led Yucca to be 
selected, but rather political muscle exercised by highly 
influential Members of this House and the Senate. However, none 
of this is in the Majority Staff's report.
    After the 1987 Amendments to the Nuclear Waste Policy Act, 
the only site that DOE was authorized to characterize and 
develop was Yucca Mountain. Politicians told scientists where 
they could look. The State of Nevada, aside from a very small 
number of people, never accepted this imposition by Washington, 
DC. The State has always felt it was unfair to the people of 
Nevada. In the face of a claim of injustice, questions about 
science seem small.
    Candidate Obama recognized the procedural failings in 
trying to force a waste repository on the State. His statement 
on Yucca speaks of science, but the core of his position was 
about fairness, justice and equity. His statement reads, in 
relevant part, ``States should not be unfairly burdened with 
waste from other States.''
    The Majority Staff report does not quote this portion of 
Mr. Obama's position. By ignoring this foundational claim, the 
Majority Staff report distorts a key problem with Yucca: that 
49 States ganged up on one State. In such a situation, the most 
important quality of the site is not its geology and it is not 
its hydrology, but the fairness of how the site was selected in 
the first place. In other words, this is a partially--this is 
partially a States' rights issue.
    Science can provide facts about a changing world, but 
making policy is about weighing the anticipated consequences of 
policy options against a complex set of values and interests. 
To try to claim that Yucca is solely about science defaces the 
history of that site, the motives of President Obama, and even 
the positions of leading Republican Presidential candidates 
such as Governor Romney, Governor Perry and Congressman Paul.
    Nevada has successfully pushed back and now has a political 
weight that they lacked back in 1987. I don't want to say that 
Yucca will never be used as a repository for waste, but if it 
is opened, it should be because Nevadans are willing to take 
the waste, not because 49 States have forced it on them.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Tonko follows:]

            Prepared Statement of Representative Paul Tonko,
                        Ranking Minority Member,
              Subcommittee on Investigations and Oversight

    Mr. Chairman, I thank you for your welcome, and I look forward to a 
productive working relationship.
    On November 4, 2008, the citizens of the United States chose Barack 
Obama to serve as our President. He received 53% of the popular vote 
and the largest absolute number of votes of any candidate in the 
country's history.
    As a candidate he had promised, very clearly, that Yucca Mountain 
would not be used as a nuclear waste repository. After taking office he 
took steps to keep that promise. That is politics, but that is the kind 
of politics that lies at the heart of a functioning democracy.
    Apparently, Mr. Obama's position on Yucca will not be reversed even 
in the unlikely event that Mr. Paul or Mr. Romney or Mr. Perry wins the 
2012 Presidential election. In the Republican candidates' debate in 
Nevada last week, all three of them said that they would not open Yucca 
either.
    The decision to close Yucca Mountain was not driven by science, and 
it is a fiction to pretend that it was. The charge that this is an 
example of a lack of scientific integrity only stands as an argument 
one way--if you can sell the idea that somehow the decision making on 
Yucca always hinged on science, and that the new Administration 
abandoned that path or somehow skewed the science to support a favored 
outcome.
    The truth is that the actual decision process surrounding Yucca has 
always been political. The Administration's decision to close Yucca was 
a position advocated by a Presidential candidate and then supported by 
a majority of American voters. We might otherwise call that a mandate 
for change.
    How was Yucca selected to become the Nation's permanent nuclear 
waste repository in the first place? You can look at the entire body of 
the Majority's report--almost 40 pages long--but one critical term is 
missing. Please excuse the colloquial nature of my comment, but the 
Majority's report does not even mention the ``Screw Nevada'' amendment, 
as it was popularly known, that came back from a House-Senate 
Conference Committee in 1987.
    In 1987, two of the leading alternative sites had powerful 
political patrons. Texas had a site in Speaker Wright's district. 
Washington had a site in Majority Leader Foley's district. It may not 
be too much of a shock to learn that those sites were pulled out of the 
competition by Congress, thereby leaving Yucca Mountain as the only 
alternative. At the time, Harry Reid, a former Member of this I&O 
Subcommittee, was in his first year as a Senator from Nevada. Two 
decades later, the situation has changed in remarkable ways, but with 
predictable consequences.
    Let me be clear, it was not science that led Yucca to be selected, 
but political muscle exercised by highly influential Members of the 
House and the Senate. However, none of this is in the Majority Staff's 
report.
    After the 1987 Amendments to the Nuclear Waste Policy Act, the only 
site that DOE was authorized to characterize and develop was Yucca 
Mountain. Politicians told scientists where they could look.
    The State of Nevada, aside from a very small number of people, 
never accepted this imposition by Washington, DC. The State has always 
felt it was unfair to the people of Nevada. In the face of a claim of 
injustice, questions about science seem small. Candidate Obama 
recognized the procedural failings in trying to force a waste 
repository on the State. His statement on Yucca speaks of science, but 
the core of his position was about fairness, justice and equity. His 
statement reads, in relevant part, ``States should not be unfairly 
burdened with waste from other states.''
    The Majority staff report does not quote this portion of Mr. 
Obama's position. By ignoring this foundational claim, the Majority 
staff report distorts a key problem with Yucca: that 49 States ganged 
up on one State. In such a situation, the most important quality of the 
site is not its geology or hydrology, but the fairness of how the site 
was selected in the first place.
    In other words, this is a States' rights issue.
    Science can provide facts about a changing world, but making policy 
is about weighing the anticipated consequences of policy options 
against a complex set of values and interests. To try to claim that 
Yucca is solely about science defaces the history of the site, the 
motives of President Obama and even the positions of leading Republican 
Presidential candidates such as Mr. Romney, Mr. Perry and Mr. Paul.
    Procedural justice represents one of those qualities that 
distinguishes democracy from despotism. When you ignore fairness, 
people push back, as the representatives of the people of Nevada have 
done.
    Nevada has successfully pushed back and now has a political weight 
that they lacked in 1987. I don't want to say that Yucca will never be 
used as a repository for waste, but if it is opened, it should be 
because Nevadans are willing to take the waste, not because 49 States 
have forced it on them.
    With that, Mr. Chairman, I yield back.

    Chairman Broun. Thank you, Mr. Tonko.
    I would like to ask unanimous consent that the gentleman 
from California, Mr. Garamendi, be allowed to sit on the dais 
with the Committee and participate in the hearings. Hearing no 
objection, so ordered.
    Now I recognize Dr. Harris for his opening statement. 
Doctor, you are recognized for five minutes.
    Mr. Harris. Thank you very much, Mr. Chairman.
    I first want to thank our witnesses for being here this 
morning as the Subcommittees review the draft recommendations 
of the Blue Ribbon Commission on America's Nuclear Future.
    Nuclear energy is an integral component of America's energy 
portfolio. One hundred four currently operating commercial 
nuclear reactors deliver a clean, affordable and reliable 
energy source that supplies 20 percent of America's 
electricity. That electricity generation, along with America's 
nuclear weapons programs, produces radioactive waste that the 
Federal Government has a longstanding statutory responsibility 
to accept and permanently dispose of.
    It is important to recognize how we arrived at this point. 
For more than 30 years, Yucca Mountain, Nevada, has been 
extensively studied to determine if a permanent, geologic 
repository for high-level radioactive waste can safely be 
constructed and operated. Taxpayers spent approximately $15 
billion on this effort, and in 2008, the Department of Energy 
submitted an 8,600-page application to the Nuclear Regulatory 
Commission proposing that it could indeed be done safely. NRC 
scientific and technical staff reviewed this application in 
equally excruciating detail, and agreed with the Department of 
Energy.
    Yet, despite this investment and decades of scientific 
work, the DOE has sought to withdraw its application on 
political, not technical grounds, asserting only that Yucca 
Mountain ``isn't a workable option'' and the NRC Chairman has 
halted all work on the application review and refused to allow 
for finalization of the technical review.
    Now, the argument that campaign promises and politics 
should always trump sound policy is belied by Guantanamo Bay, 
for instance. This is the Science Committee, not the Politics 
Committee, and this hearing is not only justified but owed to 
the American public who longs for solutions not beholden to 
politics.
    President Obama's unilateral decision to discard decades of 
the scientific community's hard work and ignore the current law 
on the books has thrown United States nuclear waste management 
policy into disarray.
    This brings us to the Blue Ribbon Commission, established 
by President Obama in concurrence with his dismantling of 
existing nuclear waste management structure. The BRC is 
specifically tasked to review policies associated with managing 
the back end of the nuclear fuel cycle and related issues of 
storage, processing and disposal of both civilian and defense 
nuclear waste.
    In July, the BRC issued its draft report to the Secretary 
of Energy and will release its final report by the end of 
January 2012. I would first like to recognize the good work put 
in by the members of the Commission in drafting this report. It 
contains valuable ideas that Congress should consider and work 
to be a thoughtful partner in advancing.
    For example, I support the BRC's interest in long-term 
support for research, development and demonstration of advanced 
reactor and fuel cycle technologies that could reduce the 
amount of high-level radioactive waste produced and change how 
that waste is managed.
    The potential contributions of the BRC, however, appear to 
be limited by politics. Upon initiating the panel's work, 
Commission Co-Chair Lee Hamilton said that Secretary of Energy 
Chu ``made it quite clear that nuclear waste storage at Yucca 
Mountain is not an option, and that the Blue Ribbon Commission 
should be looking at better alternatives.'' This action by the 
Administration is striking not only in its audacity; it is also 
simply irrational to suggest a ``better alternative'' can be 
identified without a direct comparison to the current plan for 
which an alternative is being sought.
    To its credit, the Commission calls for expeditious 
development of a permanent geologic repository, but turning a 
blind eye to the elephant in the room that is Yucca Mountain 
will render all its efforts fundamentally flawed. Unless and 
until the Federal Government honors its legal obligation to 
proceed in good faith with disposal of high-level radioactive 
waste, the long-term viability of nuclear energy to meet 
growing electricity demands remains in doubt.
    The Blue Ribbon Commission still has an opportunity to 
impact this future direction, and I hope today's hearing 
provides it with informative and useful guidance toward that 
end.
    Today I welcome hearing evaluations of and recommendations 
on the Commission's draft report, and Mr. Chairman, I yield 
back the balance of my time.
    [The prepared statement of Mr. Harris follows:]

      Prepared Statement of Representative Andy Harris, Chairman,
                 Subcommittee on Energy and Environment

    I want to thank our witnesses for being here this morning as the 
Subcommittees review the draft recommendations of the Blue Ribbon 
Commission on America's Nuclear Future.
    Nuclear energy is an integral component of America's energy 
portfolio. One hundred four currently operating commercial nuclear 
reactors deliver a clean, affordable, and reliable energy source that 
supplies 20 percent of America's electricity. That electricity 
generation, along with America's nuclear weapons programs, produces 
radioactive waste that the Federal Government has a longstanding 
statutory responsibility to accept and permanently dispose of.
    It is important to recognize how we arrived at this point. For more 
than 30 years, Yucca Mountain, Nevada, has been extensively studied to 
determine if a permanent, geologic repository for high-level 
radioactive waste can safely be constructed and operated. Taxpayers 
spent approximately $15 billion on this effort, and in 2008 the 
Department of Energy submitted an 8,600 page application to the Nuclear 
Regulatory Commission proposing that it could indeed be done safely. 
NRC scientific and technical staff reviewed this application in equally 
excruciating detail, and agreed with DOE.
    Yet, despite this investment and decades of scientific work, the 
DOE has sought to withdraw its application on political, not technical 
grounds--asserting only that Yucca Mountain ``isn't a workable 
option''--and the NRC Chairman has halted all work on the application 
review and refused to allow for finalization of the technical review. 
These actions come from political appointees of a President who entered 
office touting his commitment to ``restore the basic principle that 
government decisions should be based on the best-available, 
scientifically valid evidence and not on the ideological 
predispositions of agency officials or political appointees.''
    President Obama's unilateral decision to discard decades of the 
scientific community's hard work and ignore the current law on the 
books has thrown United States nuclear waste management policy into 
disarray.
    This brings us to the Blue Ribbon Commission, established by 
President Obama in concurrence with his dismantling of existing nuclear 
waste management structure. The BRC is specifically tasked to review 
policies associated with managing the back end of the nuclear fuel 
cycle and related issues of storage, processing, and disposal of 
civilian and defense nuclear waste.
    In July, the BRC issued its Draft Report to the Secretary of Energy 
and will release its final report by the end of January 2012. I would 
like to recognize the good work the Members of the Commission put into 
drafting this report. It contains valuable ideas that Congress should 
consider and work to be a thoughtful partner in advancing.
    For example, I support the BRC's interest in long-term support for 
research, development, and demonstration on advanced reactor and fuel 
cycle technologies that could reduce the amount of high-level 
radioactive waste produced and change how that waste is managed.
    The potential contributions of the BRC, however, appear to be 
limited by politics. Upon initiating the panel's work, Commission Co-
Chair Lee Hamilton said that Secretary of Energy Chu ``made it quite 
clear that nuclear waste storage at Yucca Mountain is not an option, 
and that the Blue Ribbon Commission will be looking at better 
alternatives.''
    The action by the Administration is striking not only in its 
audacity; it is also simply irrational to suggest a ``better 
alternative'' can be identified without a direct comparison to the 
current plan for which an alternative is being sought. To its credit, 
the Commission calls for expeditious development of a permanent 
geologic repository, but turning a blind eye to the elephant in the 
room that is Yucca Mountain will render its efforts fundamentally 
flawed.
    Unless and until the Federal Government honors its legal obligation 
to proceed with disposal of high-level radioactive waste, the long-term 
viability of nuclear energy to meet growing electricity demands remains 
in doubt. The Blue Ribbon Commission still has an opportunity to impact 
this future direction, and I hope today's hearing provides it with 
informative and useful guidance toward that end.
    I welcome the witnesses' evaluation and recommendations on the 
Commission's draft report and I yield back the balance of my time.

    Chairman Broun. Thank you, Dr. Harris.
    The Chairman now recognizes Mr. Miller, the Ranking Member 
of the Energy and Environment Subcommittee from North Carolina 
for your statement.
    Mr. Miller. Thank you, Mr. Chairman.
    This is a very odd hearing. We are considering the draft 
report of a Blue Ribbon Commission with no witnesses from the 
Commission to explain their tentative findings. They are, to 
their credit, seeking comments, presumably some from 
scientists. To their credit, apparently they want to consider 
those findings before they issue a final report, and it 
certainly would be useful for this Committee to hear those 
comments too, again, many presumably from scientists.
    It is very likely, as the Chairs have said, that we will 
need to rely more on nuclear power in the future. It is kind of 
hard to imagine an energy future in the next couple generations 
that does not include more nuclear power. But it is still far 
more expensive. It is not affordable compared to natural gas, 
for instance. It is far more expensive than other forms of 
energy, even with the massive subsidies that it does get from 
the Federal Government, and with the construction of more 
nuclear power plants requiring the capital investment of many 
billions of dollars, which investors have been understandably 
reluctant to put down, it is not at all clear why we could not 
wait until the end of January to see the final report of the 
Commission, comments and all.
    And there are still many reasons to be concerned, despite 
the fact that we obviously are going to have to rely upon 
nuclear power more in the future, there are many reasons for 
caution. The experience in Fukushima should underscore that 
pretty dramatically.
    And undoubtedly, one of the unresolved issues is what to do 
with high-level nuclear waste. We already have 80,000 tons of 
it, and that figure is growing, that nuclear power plants will 
continue to produce, and it has to be stored safely somewhere 
for 10,000 years. That is a long time. But even more important, 
it doesn't just appear magically at the storage site. We have 
to get it there. We have to transport it from all over the 
country, and while it is true, I know, that there is a witness 
from Nye County who would welcome the economic activity of 
storing the waste at Yucca Mountain, the people of the nearby 
town/city of Las Vegas, who know that the bulk of the nuclear 
waste, high-level nuclear waste, will come through or very near 
Las Vegas, whether it is transported by rail or by truck, are 
adamantly opposed to it. The opposition of the people of Nevada 
is pretty well shown by the adamant opposition of their 
Congressional delegation, by President Obama's opposition, by 
the opposition of, as Mr. Tonko has said, three of the leading 
Republican candidates for President when they were asked in 
Nevada about it. It is good to be an early primary State and a 
State that in a general election is now a swing State. You do 
get a lot of attention as a result. People in national politics 
care what you think.
    And it is also understandable that the people of Nevada are 
more than a little skeptical about the supposed science that 
supports this. That has not been the history of the decision to 
site a high-level nuclear repository in Yucca Mountain. As Mr. 
Tonko has already said, 25 years ago there were three sites 
proposed: one in the district of the Speaker of the House, one 
in the district of the Majority Leader of the House, and then 
Yucca Mountain. Senator Reid now has a great deal of political 
influence, but at the time he was in his first year in the 
Senate. And as Mr. Tonko has said, actually he said the phase, 
the colloquial phrase at the time was ``forget Nevada.'' We all 
know what that really was. It wasn't ``forget.'' I had a 
somewhat more sanitized version in my materials, which was 
``screw Nevada,'' but it was not a real scientifically pristine 
decision. It was always a decision that was filled with 
politics.
    So yes, we do need to have more science and less politics 
in this decision. I hope we will get some of that in our 
Committee's deliberations on this issue, but there is little to 
suggest it in today's hearing, which seems to be taking place 
at a very odd time for a decision that will really consider 
closely the science behind this decision.
    I yield back the balance of my time.
    [The prepared statement of Mr. Miller follows:]

           Prepared Statement of Representative Brad Miller,
         Ranking Member, Subcommittee on Energy and Environment

    This is a very odd hearing. We are considering the draft report of 
a Blue Ribbon Commission with no witnesses from the Commission to 
explain even their tentative findings.
    It is very likely that we will need to rely on nuclear power more 
in the future, but with nuclear power still far more expensive than 
other forms of energy, even with massive subsidies from the Federal 
Govermnent, and with the construction of nuclear power plants requiring 
the capital investment of many billions of dollars, which investors 
have been understandably reluctant to put down, it is not at all clear 
why we did not wait at least until the Commission issued a final 
report.
    And while it is hard to imagine an energy future for the next 
couple of generations that does not include more nuclear power, there 
are still many reasons for caution, as the experience in Fukishuma 
should underscore.
    One ofthe unresolved issues is what to do with the high-level 
radioactive waste, already 80,000 tons and growing, that nuclear power 
plants produce. The high-level waste will need to be stored safely for 
10,000 years. That's a long time. And we have to figure out how to 
transport the waste safely to wherever we store it.
    Unfortunately, the question of storage of nuclear has always been 
driven more by politics than by science. We will hear today from local 
leaders in Nye County, Nevada, who would welcome the economic boost of 
storing nuclear waste at the proposed Yucca Mountain facility. But the 
communities that the waste would go through, notably Las Vegas, are 
adamantly opposed to the proposed Yucca Mountain facility.
    The prevailing view of Nevadans is reflected in the Nevada 
Congressional delegation's opposition, President Obama's opposition, 
and the opposition of three Republican Presidential candidates when 
asked in Nevada. It's good to be both an early primary and a swing 
State in the fall.
    And the resentment of Nevadans to the siting of the facility in 
their State is more than understandable. A quarter century ago, there 
were at least three proposed sites: one in the district ofthe Speaker 
of the House, another in the district of the House Majority Leader, and 
Yucca Mountain. Senator Reid is powerful now, but at the time he was in 
his first year of service in the Senate. The Amendment to site the 
facility in Nevada was colloquially called the ``screw Nevada'' 
amendment at the time.
    We do need more science and less politics in this decision, but 
there is little to suggest today's hearing is a move towards science, 
away from politics.

    Chairman Broun. Thank you, Mr. Miller. I think we have a 
unanimous consent request from Mr. Tonko.
    Mr. Tonko. Yes, Mr. Chairman, if you would please yield a 
moment of time.
    Chairman Broun. Without objection.
    Mr. Tonko. Thank you very much, Mr. Chair.
    As I am sure you are aware, the Washington Post is 
reporting that former Member of Congress Howard Wolpe passed 
away on Tuesday. Mr. Wolpe was a Representative from the State 
of Michigan who served as Chair of the I&O Subcommittee back in 
1991 and 1992. He held many landmarks hearings, and his 
investigative staff was topnotch. Probably the one item that 
the Representative was very fondest of and best remembered for 
was his work to stop the Superconducting Super Collider 
project. Representative Wolpe worked hard and hand in hand with 
his Ranking Minority Member to stop that project, and their 
efforts saved taxpayers, in their opinion, at least $10 billion 
in construction costs and billions more in operating expenses.
    His record as I&O Chair stands among the strongest of any 
Chair to serve in that role. In my new capacity on this 
Subcommittee, Mr. Chair, I look forward to emulating his 
bipartisan spirit and productive working relationship that both 
he and Mr. Boehlert, Representative Boehlert from my region, 
conducted, and I appreciate you yielding me that time, and we 
call to mind and to memory the service of Representative Howard 
Wolpe.
    Chairman Broun. Thank you, Mr. Tonko, and we pray for his 
family also.
    At this time I would like to introduce our panel of 
witnesses. Our first witness is Mr. Jack Spencer, Research 
Fellow in Nuclear Energy Policy at the Heritage Foundation. Our 
second witness is Dr. Peter Swift, Distinguished Member of the 
Technical Staff at Sandia National Laboratory. Dr. Swift has 
worked on geological disposal of radioactive waste since 1989. 
He worked on the Waste Isolation Pilot Project--that is hard 
for a Southerner to say all those Ps--from 1989 to 1998, and on 
the Yucca Mountain project since 1998, serving as the Yucca 
Mountain Lead Laboratory's Chief Scientist since 2006. Our 
third witness is Dr. Roger Kasperson, Research Professor and 
Distinguished Scientist at Clark University. Our fourth witness 
is Mr. Gary Hollis, who is Chairman of the Nye County Board of 
County Commissioners. Yucca Mountain is located in his county 
in Nevada. Our fifth witness is Mr. Rick McLeod, Executive 
Director of the Savannah River Site Community Reuse 
Organization. SRS currently stores the second-highest amount of 
high-level radioactive material in the country. Our final 
witness is Dr. Mark Peters, Deputy Laboratory Director for 
Programs at the Argonne National Laboratory. Dr. Peters 
previously served as Senior Scientific Adviser in the former 
Applied Science and Technology Directorate, where he supported 
the Director of the Office of Civilian Radioactive Waste 
Management. Dr. Peters also served as the Director of Program 
Development for nuclear waste management technical work at the 
laboratory's former Chemical Engineering Division. Prior to 
joining Argonne, he was the Yucca Mountain Project Science and 
Engineering Testing Project Manager.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. Your written 
testimony will be included in the record of this hearing.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have any objection to taking an oath? Anybody, please? Shake 
your head from side to side or up and down so I can see. Dr. 
Kasperson, do you have an objection? I don't see your head 
moving. Okay. Let the record reveal that all witnesses are 
willing to take an oath. You may be represented by counsel. Do 
any of you have counsel here today? Anybody have counsel? Mr. 
Hollis? Dr. Kasperson? Mr. Hollis? No? Okay. Let the record 
reflect that none of the witnesses has counsel.
    Now, if all of you would please now stand and raise your 
right hand. Do you solemnly swear or affirm to tell the whole 
truth and nothing but the truth, so help you God? Let the 
record reflect that all the witnesses participating have taken 
the oath. Please be seated.
    Those bells that you just heard is the sign to us that we 
just started a vote. For Members' edification, we will go 
through as many opening statements as we can. We will recess to 
go for votes. We will recess at about five minutes so that 
everybody has time to get to the Floor to vote, and we will 
reconvene at 10 minutes after the last vote is called. So 
please hurry back so we can get this hearing finished and 
accomplished and hear from our witnesses and get to questions.
    I now recognize our first witness, Mr. Spencer. You are 
recognized for five minutes. Please keep it within five 
minutes, and then if you can make it shorter, please do. Your 
full testimony will be included in the record.

                 STATEMENT OF MR. JACK SPENCER,

            RESEARCH FELLOW, NUCLEAR ENERGY POLICY,

                      HERITAGE FOUNDATION

    Mr. Spencer. All right. We will do what we can.
    Chairmen Broun and Harris, Ranking Members Tonko and 
Miller, and Members of the Subcommittees, my name is Jack 
Spencer. I am the Research Fellow for Nuclear Energy Policy at 
the Heritage Foundation. The views expressed in this testimony 
are my own and should not be construed as representing the 
official position of the Heritage Foundation.
    The Nuclear Waste Policy Act of 1982 attempted to establish 
a comprehensive disposal strategy for high-level nuclear waste. 
This strategy has failed. The government has spent billions of 
dollars without opening a repository, has yet to receive any 
waste and is amassing billions of dollars in liability. The 
strategy codified in the Nuclear Waste Policy Act seemed 
straightforward and economically sound when it was developed in 
the early 1980s. It charged the Federal Government with 
disposing used nuclear fuel in Yucca Mountain and created a 
structure through which users of nuclear energy would pay a fee 
for that service. These payments would go to the Nuclear Waste 
Fund, which the Federal Government could access through 
Congressional appropriations. What has become clear over time, 
however, is that this approach was wrought with problems. 
Nonetheless, it continued to inch forward, providing some 
confidence that the Nation was moving toward a nuclear waste 
management solution.
    The Obama Administration's anti-Yucca policy, however, had 
destroyed any such notion. The combination of the Federal 
Government's historical ineptness and this Administration's 
actions has undermined all confidence in Washington's ability 
to meet its legal nuclear waste obligations. To restore this 
confidence, the Obama Administration established the Blue 
Ribbon Commission on America's Nuclear Future to develop a new 
strategy. Though the Administration's actions had added 
substantial uncertainty to an already unpredictable federal 
policy on nuclear waste, it does provide an opportunity to 
bring about the reform necessary to get America's nuclear waste 
policy on track.
    Unfortunately, the BRC's recommendations as currently 
drafted will not achieve this because it accepts the basic 
tenets of the current system; that is that the Federal 
Government should be responsible for nuclear waste management 
and that these activities should be financed through a flat 
fee, largely disconnected from any actual service. Accepting 
this leads to recommendations that focus more on symptoms than 
on the underlying flaws. These basic flaws are that, one, waste 
producers are relieved of their responsibility for waste 
management. This structure misaligns incentives, 
responsibilities and authorities. And secondly, that there is 
no specific price for specific services rendered. Accurate 
pricing is critical to any efficient marketplace. Nonetheless, 
the BRC does provide a framework that, with modification, could 
yield long-term solutions.
    For example, the BRC proposes that a federal corporation be 
responsible for nuclear waste management. Simply moving a 
function from one government agency to another only perpetuates 
existing deficiencies. This approach essentially blames current 
problems on the federal bureaucracy when the actual problem is 
relegating a commercial activity to a government entity. A 
better approach is to use the federal corporation to facilitate 
the transfer of responsibility for nuclear waste management to 
the private sector. To achieve this, the corporation's 
responsibilities should be limited to disposing of existing 
nuclear waste and should get access to the approximately $25 
billion paid into the Nuclear Waste Fund to fund its 
activities. Once this is complete, the corporation should be 
dissolved or privatized.
    Moving forward, the waste disposal fee should be repealed 
and waste producers should manage their own waste. Utilities 
would then bear the responsibility and have the freedom to 
choose how to best manage their waste. This could include 
direct disposal, reprocessing or some combination thereof. The 
federal role would be to set and enforce regulatory standards.
    Next, I would like to talk a little bit about nuclear waste 
finance. The BRC correctly spent significant effort on how to 
finance nuclear waste management. It recommended paying nuclear 
waste fees into escrow accounts. Only that amount appropriated 
by Congress would be paid to the Treasury. Though this would 
protect fees from being used to fund other government 
priorities, currently a major problem, it falls short of the 
reform necessary.
    A better approach would mandate that nuclear utilities 
place in escrow adequate funds to dispose of waste stored on 
site. This would eliminate the federal role in waste financing, 
ensure that utilities have access to the funds that they have 
set aside for waste disposal, and protect taxpayers by 
guaranteeing adequate disposal funds will be available if a 
plant ever goes out of business.
    The final area I would like to address is geologic storage. 
Unfortunately, the Secretary of Energy directed the BRC to rule 
out any consideration of Yucca Mountain. Luckily, the BRC 
charter makes no such prohibitions. Indeed, it does the 
opposite by directing the BRC to consider all options.
    The reality is, is that neither the BRC nor anyone else can 
make a truly informed decision on Yucca because the NRC has 
stopped work on the DOE's application to construct a repository 
and refuses to release the NRC technical staff's findings 
regarding the application. Therefore, the most important 
recommendation the BRC should make is to demand that the NRC 
complete the Yucca application and publicly release all data 
generated by the application process. Whether or not the Yucca 
repository is ever built, the NRC's completed review process 
will yield unique information that has important future 
relevance.
    That concludes my testimony. I look forward to your 
questions.
    [The prepared statement of Mr. Spencer follows:]

                Prepared Statement of Mr. Jack Spencer,
                            Research Fellow,
               Nuclear Energy Policy, Heritage Foundation

    Chairmen Broun and Harris, Ranking Members Tonko and Miller and 
Members of the Subcommittees: My name is Jack Spencer. I am the 
Research Fellow for Nuclear Energy Policy at The Heritage Foundation. 
The views I express in this testimony are my own, and should not be 
construed as representing any official position of The Heritage 
Foundation.
    Thank you for inviting me to testify before the Energy & 
Environment and Investigations & Oversight subcommittees regarding the 
very important draft recommendations of the Blue Ribbon Commission on 
America's Nuclear Future.
    As we sit here today, there are approximately 440 commercial 
nuclear reactors operating around the world. One hundred four of them 
are operating in this country alone. With the exception of a few highly 
publicized and, I might add, often misunderstood accidents, these 
reactors have operated safely, cleanly, and to the benefit of society.
    This is not to suggest that no problems have ever arisen as the 
accident in Fukushima, Japan, makes abundantly clear. It is merely to 
acknowledge the good track record of nuclear power.

Strong, Predictable Policy Is Needed for Nuclear Expansion

    Nuclear energy is among America's least expensive electricity 
sources, emits nothing into the atmosphere, and has a safety record 
that includes no injuries, much less fatalities. Despite these facts, 
no new plants have been ordered in the U.S. for three decades.
    Given what we know about nuclear energy, there must be some 
underlying problems that would make investment in this proven 
technology so scarce. Indeed, today, despite all of the benefits of 
nuclear power, the industry insists that it will not build new plants 
without backing from the U.S. taxpayer.
    Providing taxpayer support has been the approach of most 
politicians in recent years. They recognize that nuclear energy has 
many benefits, and to show their support they propose subsidies. In 
fact, looking at most of the proposals in recent years, one might 
conclude that Washington thinks that it can subsidize nuclear energy 
into commercial viability. Essentially, doing so was the basic premise 
behind the Energy Policy Act of 2005 (EPACT) proposals. That 
legislation put forth a series of subsidies to build five or so nuclear 
plants. That was supposed to help the industry get off the ground so 
that they could begin privately building plants. While the legislation 
instigated a series of permit applications to build new plants and even 
site work at two locations, it has not brought about the advertised 
nuclear renaissance. Indeed, since the 2005 law passed, quite the 
opposite has occurred.
    Instead of helping the nuclear industry to reestablish itself in 
the marketplace, the law has merely led to a proliferation of requests 
for additional taxpayer support. Since EPACT 2005, Congress has 
introduced a virtual parade of legislation to broaden the Federal 
Government's support for the nuclear industry. These proposals would 
increase capital subsidies, use taxpayer money for such activities as 
workforce development and manufacturing improvements, empower the 
Department of Energy to decide which technologies should move forward, 
and create mandates that essentially dictate that nuclear power is 
used.
    One of the basic problems with using subsidies to promote an 
industry is that it allows both industry and government to ignore the 
underlying problems, from a business or government standpoint, that 
give rise to the need for subsidies to begin with. This perpetuates 
those structural issues and creates a cycle where industry becomes 
dependent on Federal Government--and that is where the nuclear industry 
is today.
    I believe that this dependence is not a financial one. Commercial 
nuclear reactors and the businesses that support them operate 
profitably in the United States, largely subsidy free, despite an 
enormous and growing regulatory burden and an organized anti-nuclear 
opposition. Instead, the U.S. nuclear industry depends on the U.S. 
government for strong, predictable, and rational policies that govern 
how the industry operates. It is the lack of these policies that 
increase the financial risk of new nuclear investment and drives the 
pursuit of subsidies to counter it.
    This dearth of policy falls into two major categories: nuclear 
waste management and disposal and an antiquated, unpredictable 
regulatory approach. The Blue Ribbon Commission on America's Nuclear 
Future attempts to address one of these problems: nuclear waste.

Reforming Spent Nuclear Fuel Management and Disposal

    Despite growing political and public support for nuclear power, 
progress toward actually building any new plants has been a struggle. 
While the blame for this stagnation often goes to inefficient 
government subsidy programs, the real problem lies in why those 
subsidies are necessary to begin with. Chief among these structural 
problems is the nation's incoherent nuclear waste policy. Ultimately, 
the lack of a pathway to waste disposal creates substantial 
unpredictability for nuclear investors. That risk must be offset to 
allow investment to move forward.
    This was a problem prior to the Obama Administration. The Federal 
Government was legally obliged, according to the Nuclear Waste Policy 
Act (NWPA) of 1982, as amended, to begin collecting nuclear waste in 
1998. Despite collecting approximately $30 billion (fees plus interest) 
from electricity ratepayers and spending nearly $15 billion (ratepayer 
and taxpayer funds), it has not collected one atom of nuclear waste. 
The one bright spot was the progress on Yucca Mountain made by 
President George W. Bush's Department of Energy (DOE).
    The Obama Administration's anti-Yucca policy destroyed this 
progress. It ignored existing statute, such as the NWPA and the Yucca 
Mountain Development Act of 2002, which stated clearly that Yucca 
Mountain shall be the location of the nation's nuclear materials 
repository. It unilaterally requested the withdrawal of the DOE's 
permit application for Yucca to the Nuclear Regulatory Commission 
(NRC). Questions over the legality of this policy are currently under 
review by the courts.
    Meanwhile, in October 2010, former advisor to Senator Harry Reid 
and current NRC Chairman Gregory Jaczko ordered a stop to all Yucca-
related NRC activities. He argued that his authority to close out the 
Yucca program was derived from President Obama's 2011 budget request. 
The problem is that neither the House nor the Senate had passed that 
proposed budget. Further, the order ignores the fact that the NRC's own 
Atomic Licensing and Safety Board agreed unanimously that the DOE 
lacked authority to withdraw the application. The Chairman's actions 
were so unusual and contentious that fellow NRC Commissioners were 
compelled to publicly denounce the decision.
    The combination of federal promises to store nuclear waste, the 
Obama Administration's policy, and the NRC's actions has resulted in a 
complete lack of direction on nuclear waste management and a 
dereliction of responsibility on the part of the Federal Government. 
This creates substantial government-imposed risk on the nuclear 
industry, which is the primary obstacle to an expansion of U.S. nuclear 
power.

The Blue Ribbon Commission on America's Nuclear Future

    Understanding that his policy to end the Yucca program without a 
backup plan would essentially end the American nuclear renaissance 
before it started, the Obama Administration established the Blue Ribbon 
Commission on America's Nuclear Future to develop with a plan to manage 
and dispose of America's nuclear waste.
    Unfortunately, the draft recommendations in President Barack 
Obama's Blue Ribbon Commission on America's Nuclear Future (BRC) \1\ 
fall short of fixing America's nuclear waste policy dilemma. Though 
some of the recommendations were positive, they would, if implemented, 
not result in the fundamental reforms necessary for an economically 
sustainable and technologically diverse approach to nuclear power to 
emerge. \2\
---------------------------------------------------------------------------
    \1\  Blue Ribbon Commission on America's Nuclear Future, ``Draft 
Report to the Secretary of Energy,'' July 29, 2011, at http://brc.gov/
sites/default/files/documents/
brc<INF>-</INF>draft<INF>-</INF>report<INF>-</INF>29jul2011<INF>-</INF>0
.pdf (August 10, 2011).
    \2\  Jack Spencer, ``Introducing Market Forces into Nuclear Waste 
Management Policy,'' Statement to the Reactor and Fuel Cycle Technology 
Subcommittee of the Blue Ribbon Commission on America's Nuclear Future, 
Heritage Foundation Testimony, August 30, 2010, http://
www.heritage.org/research/testimony/introducing-market-forces-into-
nuclear-waste-management-policy.
---------------------------------------------------------------------------
    While acknowledging the many challenges and failures of America's 
nuclear waste management and disposal program, the BRC unwisely accepts 
that the basic structure of the system is sound. This acceptance leads 
to recommendations that focus more on symptoms than on underlying 
flaws. Real progress requires first identifying the real problems.
    There are three fundamental problems with nuclear waste management 
in the United States:

    <bullet>  No long-term geologic storage. Deep geologic storage like 
that proposed for Yucca Mountain, Nevada, provides a safe, long-term 
solution and thus is critical to any comprehensive nuclear waste 
management plan. To date, despite having spent approximately $15 
billion in electricity rate payers' and taxpayers' money on Yucca 
Mountain and a statutory mandate to do so, the U.S. still has no 
functional geologic repository for nuclear waste.

    <bullet>  Waste producers are relieved of their responsibility for 
waste management. Private nuclear plant operators produce waste, but 
under current law the Federal Government is responsible for managing 
it. This removes the incentive for those who financially depend on 
waste production, the nuclear utilities, to have any interest in how 
the waste is managed because the Federal Government is wholly 
responsible. Washington, however, has proven unable to implement 
anything close to a workable solution. This outcome is predictable 
given a structure that fundamentally misaligns incentives, 
responsibilities, and authorities. The nuclear industry, which is fully 
capable of running safe nuclear power plants, is likewise fully capable 
of managing its own waste and should have the responsibility to do so.

    <bullet>  No specific price for specific services rendered. Under 
the current system, nuclear utilities produce waste, then pay the 
Federal Government a flat fee for an undefined, not-rendered service. 
Accurate pricing is critical to any efficient market place. Prices 
provide suppliers and purchasers a critical data point to determine the 
attractiveness of a product or service, and give potential competitors 
the information they need to introduce new alternatives.

    Although the BRC is missing an opportunity to address major 
underlying issues, it does provide a framework that, with some 
modification, could yield a long-term solution. To achieve it, the 
BRC's final draft should consider the following recommendations.

Nuclear Waste Management Responsibility

    The centerpiece of the BRC's recommendations is its proposal to 
establish a federal corporation ``dedicated solely to implementing the 
waste management program and empowered with the authority and resources 
to succeed.'' While the general proposition could help transition the 
United States toward a more market-based system, the BRC's version will 
not work because it maintains the current system's basic underpinnings. 
A government-based entity, separate from waste production, will remain 
responsible for waste management and disposal, relieving producers of 
all responsibility, and there would remain no direct connection between 
services rendered and pricing.
    Though the BRC goes to great lengths to define the responsibilities 
of the new organization, these responsibilities are similar to those of 
the Department of Energy under the current system. In both cases, the 
Federal Government is fully responsible for all nuclear waste 
management and disposal responsibilities. Simply moving a function from 
one government agency to another (even if the new agency is called a 
federal corporation) without changing the system fundamentals only 
perpetuates existing deficiencies while creating the perception of 
action.
    This approach assumes that the basic premise of the current system 
is correct--that nuclear waste management and disposal falls ideally 
within the purview of the Federal Government. It essentially blames the 
current problems on a misplaced federal bureaucracy when the actual 
problem is relegating a commercial activity to a government 
bureaucracy. Instead of trying to modify a fundamentally flawed system, 
the BRC's final report should recommend transferring the responsibility 
for nuclear waste management and disposal away from Washington and 
toward the private sector.
    The BRC's recommendation to create a federal corporation could 
facilitate that transition to private-sector responsibility. Though the 
objective should be to remove federal responsibility for nuclear waste 
management and disposal, near-term privatization is likely not 
practical. This is because the Federal Government is obligated by 
virtue of signed contracts to take responsibility for the disposal of 
nuclear waste produced at existing plants and the nuclear industry, 
through fees levied on nuclear power users, has already paid $38.5 
billion (about $750 million annually) for that service. \3\ The result 
is that the Federal Government is currently responsible for disposing 
of a total of about 70,000 tons of waste. A federal corporation, 
limited in scope, could be the correct entity to take responsibility 
for disposing of that waste.
---------------------------------------------------------------------------
    \3\  Nuclear Energy Institute, ``Costs: Fuel, Operation, and Waste 
Disposal,'' at http://www.nei.org/resourcesandstats/
nuclear<INF>-</INF>statistics/costs/ (August 10, 2011).
---------------------------------------------------------------------------
    In preparing its final recommendations, the BRC should emphasize 
closely realigning incentives, responsibilities, and authorities in 
nuclear waste management. These recommendations should include:

    <bullet>  Creating a federal corporation with a limited scope of 
responsibility, limited duration, and access to the Nuclear Waste Fund. 
The federal corporation should have two basic responsibilities. First, 
it should site a geologic repository. If the repository is located at 
Yucca Mountain, as current law stipulates, then the federal corporation 
should assume the Department of Energy's responsibilities of completing 
the Yucca construction and operation permit application. Once issued, 
the permit to operate Yucca should be transferred to a non-federal 
entity to construct and operate the facility. If the Yucca location is 
deemed technically deficient, the corporation should be responsible for 
overseeing the selection of a new location. However, the permit 
application should be prepared by whichever entity will eventually 
construct and operate the facility.

    The corporation's second responsibility should be to assure proper 
disposal of the existing nuclear waste for which the Federal Government 
is currently responsible and it should get access to the approximately 
$25 billion in the Nuclear Waste Fund to finance its activities. This 
would allow the Federal Government to meet its existing contractual and 
regulatory waste disposal responsibility while allowing an eventual 
transfer of waste management responsibility to the private sector. It 
would also allow the Nuclear Waste Fund to be used for its intended 
purpose. Most important, however, it would create a significant market 
demand for privately offered waste management services like storage, 
transportation, and processing. Businesses would naturally emerge to 
meet this demand that would then be available for future private waste 
management operations.
    Finally, the transitional federal corporation must be mission 
specific and its creation must be accompanied by a dissolution plan. 
Once its two responsibilities are met, it should either be privatized 
or abolished.

    <bullet>  Removing the federal role in geologic repository 
operations. All geologic repositories should be operated by non-federal 
entities. The management organizations could be private, for-profit, 
non-profit, state-based, or a combination thereof. Among their most 
basic responsibilities would be to set market-driven prices for waste 
emplacement. Market-driven prices would take waste characteristics, 
such as heat load, toxicity, and volume as well as repository space 
into consideration. Waste producers would then have different variables 
to consider when deciding which fuels to purchase and what nuclear 
technologies to use as these decisions would affect how they would 
ultimately manage their waste. It could be most cost effective to place 
waste directly in the repository for some utilities, while others might 
find interim storage or another processes to be more economical. 
Market-based price signals would encourage new technologies, such as 
small nuclear reactors that have a different waste streams, and 
services, such as reprocessing, to be introduced as new market demands 
emerge.

    <bullet>  Transferring responsibility for management of new waste 
to waste producers. As noted above, the Federal Government through the 
corporation should meet its responsibility to dispose of existing 
waste. But moving forward, nuclear utilities should be made responsible 
for waste they produce. This responsibility should be accompanied by a 
repeal of the fee--1/10 of 1 cent per kilowatt hour of electricity 
produced at nuclear power plants--paid to the Federal Government for 
waste disposal. Utilities would then bear the responsibility and also 
have the freedom to choose how best to manage their waste. The federal 
role would be to ensure that private waste management activities meet 
adequate regulatory standards. In essence, waste management would be 
treated the same way the rest of the nuclear industry is treated. The 
Federal Government is not responsible for getting the fuel to the 
reactor and it should not be responsible for removing it.

    <bullet>  Allowing the federal corporation to broker waste 
management services. To further ensure that nuclear waste producers 
have access to waste management services, the federal corporation could 
be permitted, for a fee, to broker waste management services for 
private industry. Transportation, reprocessing or repository 
emplacement could be offered separately or as a bundled, comprehensive 
service. This would allow waste producers to hire the federal 
corporation to contract for waste management services on their behalf. 
It may be the case as the corporation gains experience and establishes 
relationships with waste management providers, it can negotiate better 
terms based on volume, or other variables, for specific services. Or 
waste producers may simply find the convenience of contracting with the 
federal corporation to manage its waste is worth a premium. Waste 
producers would not be obligated to seek waste management services 
through the federal corporation. This brokering service would only be 
available as long as the federal corporation is carrying out its 
chartered mission, and would not justify its existence beyond those 
specified responsibilities. However, one can imagine a business case 
where brokering such services could provide the basis for future 
privatization. Ultimately, while such an arrangement is not necessary, 
it does provide an additional transition step toward the new, market-
based system.

    <bullet>  Limiting the Federal Government's long-term role to 
setting broad regulatory guidelines and taking final title of 
decommissioned repository sites. Once the federal corporation carries 
out its mission and is dissolved, the Federal Government should have 
two roles. First, it should set the broad regulatory guidelines for 
waste management just as it does for other parts of the nuclear 
industry. Second, the Federal Government should take final legal 
possession, what is commonly referred to as ``title,'' of geologic 
repositories and their contents as they are decommissioned. While 
private actors should manage nuclear waste and finance its final 
disposal, including long-term maintenance, only the Federal Government 
has the guaranteed longevity to credibly take long-term possession and 
liability for whatever elements of waste end up in geologic 
repositories after decommissioning, when the repository would be 
permanently sealed.

Geologic Storage

    Of the seven key elements addressed by the BRC, two are dedicated 
to geologic storage. One calls for a new, consent-based approach to 
searching out future nuclear waste management facilities, while the 
other calls for a prompt effort to develop one or more geologic 
repositories. While clearly stating the need for geologic storage is 
important, the BRC's charge from the Secretary of Energy to rule out 
any consideration of the Yucca Mountain facility weakens the utility of 
its otherwise reasonable recommendations. For this reason, the BRC 
should address Yucca in its final recommendations, which is allowable 
per the BRC's charter that gives no direction to preclude Yucca. 
Indeed, it does the opposite, by directing the BRC to consider all 
options. It states that the Secretary of Energy established to 
commission at the direction of the President to:

    <bullet>  conduct a comprehensive review of policies for managing 
the back end of the nuclear fuel cycle, including all alternatives for 
the storage, processing, and disposal of civilian and defense used 
nuclear fuel, high-level waste, and materials derived from nuclear 
activities. \4\
---------------------------------------------------------------------------
    \4\  Blue Ribbon Commission on America's Nuclear Future, 
``Charter,'' March 1, 2010, at http://brc.gov/index.php?q=page/charter 
(August 10, 2011).

    Furthermore, the BRC's recommendations on geologic storage reflect 
its more general flaw--that nuclear waste management should remain 
within the purview of the Federal Government. These problems can be 
---------------------------------------------------------------------------
addressed in the final report by the following actions:

    <bullet>  Address Yucca Mountain head on. The BRC should state what 
it believes should happen with Yucca Mountain based on the best science 
and evidence available. If its members believe Yucca should be shut 
down, it should state why and provide a recommendation for disengaging 
from Yucca. If, on the other hand, it finds that Yucca should be 
pursued, perhaps as one of a number of options, then the Commission 
should provide recommendations on how to move forward. Such a 
conclusion could reject the current Yucca program while proposing an 
alternative. Such an alternative could embody the recommendations of 
the BRC's consent-based approach where the people of Nevada are given 
control over the future of the Yucca facility. Even though the 
Secretary of Energy directed the BRC to pretend Yucca Mountain does not 
exist, nothing in the BRC's charter prevents it from facing facts. For 
the sake of the Commission's credibility, it must honestly and directly 
address Yucca in its final conclusions.

    <bullet>  Demand that the Nuclear Regulatory Commission complete 
its review of the Department of Energy's Yucca Mountain application. 
The reality is that the Blue Ribbon Commission can likely not make a 
truly informed decision on Yucca Mountain because the Nuclear 
Regulatory Commission has stopped work on the Department of Energy's 
application to construct the repository and refuses to release the NRC 
technical staff's findings regarding the application. Therefore, the 
single most important recommendation that the BRC could make would be 
to demand that the NRC complete the Yucca application and publicly 
release all data generated by the application process. Whether anyone 
ever builds a repository at Yucca or not, the NRC's completed review 
process will yield unique information that will have important future 
relevance. Furthermore, the public and electricity ratepayers deserve 
to have the application review completed given its $15 billion 
investment.

    <bullet>  Limit the Federal Government's responsibility to siting 
and permitting one geologic repository. Whether at Yucca or elsewhere, 
the Federal Government's role should be limited to developing a single 
geologic repository. This repository should be located at Yucca 
Mountain unless the NRC deems that site to be technically deficient. 
Should that be the case, the new site must at least match the capacity 
of Yucca Mountain, which is sufficient to hold all of the waste 
produced by America's existing commercial reactors over their expected 
lifetimes. Once sited and permitted, a non-federal entity should 
operate the repository. Developing future repositories should be the 
responsibility of non-federal actors.

    <bullet>  Rescind recommendation to develop one or more interim 
storage facilities. The BRC is correct that interim storage of nuclear 
waste, like geologic storage, is a critical part of any comprehensive 
nuclear waste management system. Further, it correctly points out a 
myriad of reasons why interim storage makes sense, such as allowing for 
fuel removal from shutdown plants. However, the Federal Government 
should neither construct such a facility nor mandate that one be built. 
Instead, private-sector interim storage facilities would emerge to meet 
the demand for such services in a market-based system. The Federal 
Government's role should be to ensure that those willing and able to 
develop appropriate interim storage facilities have an efficient and 
predictable regulatory environment. The BRC makes very sound 
recommendations toward this end.

Financing Nuclear Waste Management and Disposal

    The BRC correctly spent significant effort on making 
recommendations on how nuclear waste management should be financed. 
Indeed, it correctly identifies many of the problems with the current 
system, namely that it does not work as intended and that continuing to 
collect fees for services not rendered is patently unfair. It also 
correctly recognizes that government accounting rules make gaining 
access to collected funds extraordinarily difficult. Finally, it 
recognizes that building a sustainable nuclear waste policy program is 
nearly impossible so long as it relies on the inherently inefficient 
and unpredictable congressional appropriations process.
    Separating finance issues from larger organizational issues is 
impossible. The two are inherently related. How nuclear waste 
activities are financed will ultimately depend on who is responsible 
for its disposal. Therefore, any rational financing scheme must be 
developed congruently with larger organizational reform. So if one 
accepts the BRC's general proposition that the Federal Government 
should remain responsible for nuclear waste management, its 
recommendations on finance reform make sense. However, since its 
recommended actions would do little to change the underlying system 
fundamentals, the same inefficiencies that result from federal control 
would ultimately resurface.
    Similar to its larger organizational recommendations, the BRC does 
provide a framework from which a more market-based, economically 
rational system could be constructed. Indeed, the BRC introduces some 
elements that are critical to a sustainable waste management system. 
Instead of attempting to modify the current system, the BRC should 
develop recommendations to allow the United States to transition to a 
new model for financing nuclear waste management while ensuring that 
existing resources are used for their intended purposes. To achieve 
this transition, the BRC's final recommendations should include the 
following:

    <bullet>  Congress should immediately begin transferring the 
Nuclear Waste Fund to the new organization. The BRC acknowledges that 
whoever is ultimately responsible for waste management and disposal 
must gain access to the $25 billion in the Nuclear Waste Fund, and puts 
forth a basic plan to achieve this. The plan would allow limited access 
to those funds 10 years after the new organization is established. 
Near-term operations would be funded through ongoing fee payments. This 
approach, however, assumes that the new organization would maintain 
ongoing responsibility for waste management and disposal. Under the 
modifications proposed in this analysis, the new organization would 
only be responsible for waste produced to date, and should be funded 
through fees already paid. Thus, the new organization would need 
immediate access to the Nuclear Waste Fund, although dispersal could 
take place over time.

    <bullet>  Congress should mandate the creation of utility- or 
plant-specific escrow accounts to fund waste management activities. An 
innovative concept in the BRC report is to create escrow accounts held 
by an independent third party into which nuclear waste fees are paid. 
Only that amount appropriated by Congress for waste disposal activities 
would be paid to the U.S. Treasury out of the escrow accounts. This 
would ensure that only those funds actually being spent on waste 
disposal would go to the government, thus preventing additional funds 
from being placed into the Nuclear Waste Fund.

    This specific idea is not consistent with the overall reform that 
is necessary, but the introduction of waste management financed through 
escrow accounts is consistent with fundamental reform. A better model 
would mandate that nuclear utilities place in escrow adequate funds to 
dispose of whatever waste is being stored on site. No funds would ever 
go to the U.S. Treasury, and congressional appropriators would have no 
role. Utilities would simply pay for waste management and disposal 
services on an as-needed basis. This approach would benefit nuclear 
utilities by ensuring they have access to the funds set aside for waste 
disposal and it would protect the American taxpayer by making sure 
adequate disposal funds will be available even if a plant owner goes 
out of business.

    <bullet>  Congress should repeal the fee paid to the Federal 
Government for future waste disposal services. Since, under these 
reforms, existing nuclear waste disposal would be financed through 
existing nuclear waste fund fees, and future disposal through the 
privately held escrow accounts, there would be no need to continue 
paying the nuclear waste fee to the Federal Government.

Building on the BRC's Recommendations

    The Blue Ribbon Commission on America's Nuclear Future has an 
opportunity to resolve America's nuclear waste policy dilemma. While it 
has provided a credible analysis and introduced some new ideas, it has 
focused more on the symptoms of America's failed approach to nuclear 
waste management than addressing the system's structural deficiencies. 
Nonetheless, its recommendations provide a starting framework that 
could be modified to address these difficult issues. Moving the 
responsibility for nuclear waste management away from the Federal 
Government will be difficult, but it is necessary to for an 
economically rational, technologically diverse, and sustainable 
resolution to America's nuclear waste dilemma.
    That concludes my testimony.
    I look forward to your questions.

The Heritage Foundation

    The Heritage Foundation is a public policy, research, and 
educational organization recognized as exempt under section 501(c)(3) 
of the Internal Revenue Code. It is privately supported and receives no 
funds from any government at any level, nor does it perform any 
government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2010, it had 710,000 individual, foundation, 
and corporate supporters representing every state in the U.S. Its 2010 
income came from the following sources:

    <bullet>  Individuals: 78%

    <bullet>  Foundations: 17%

    <bullet>  Corporations: 5%

    The top five corporate givers provided The Heritage Foundation with 
2% of its 2010 income. The Heritage Foundation's books are audited 
annually by the national accounting firm of McGladrey & Pullen. A list 
of major donors is available from The Heritage Foundation upon request.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own and do not reflect an institutional position for The Heritage 
Foundation or its board of trustees.

    Chairman Broun. Thank you, Mr. Spencer.
    Dr. Swift, I understand you have fairly short testimony. We 
need to get to the floor, so go ahead, if you would, with your 
oral testimony. You are recognized.

                 STATEMENT OF DR. PETER SWIFT,

          DISTINGUISHED MEMBER OF THE TECHNICAL STAFF,

                   SANDIA NATIONAL LABORATORY

    Dr. Swift. Thank you. Chairman Broun, Chairman Harris, 
Ranking Members Tonko and Miller, and the distinguished Members 
of the Committee, thank you. I am Dr. Peter Swift from Sandia 
National Laboratories.
    In your letter requesting my testimony, you asked me to 
address three topics. First, you asked me to provide my views 
on the draft recommendations of the Blue Ribbon Commission 
regarding the need for a permanent geological repository. 
Second, you asked me to describe my role as the Chief Scientist 
for the Yucca Mountain Lead Laboratory. And third, you asked me 
to describe the various scientific issues and technical 
conclusions in the Department of Energy's license application 
for the proposed Yucca Mountain repository.
    I will start with the second and third questions, and I 
will close with my views on the Blue Ribbon Commission's draft 
recommendations. I am speaking only for myself. Anything I say 
here today represents my own personal beliefs and does not 
necessarily represent the position of Sandia National 
Laboratories or the U.S. Department of Energy. Specifically, I 
am not here to amend or add to Sandia's technical position with 
respect to the Yucca Mountain license application. That 
position remains unchanged from its documentation in the 
application.
    I am a geologist by training, and I have worked for the 
last 22 years studying how deep geologic repositories for 
radioactive waste will perform over hundreds of thousands of 
years. In my role as the Chief Scientist for the Yucca Mountain 
Lead Laboratory team, I focused on ensuring the integrity and 
credibility of the scientific basis for the postclosure 
portions of the license application that the DOE submitted in 
June 2008. I was extensively involved in interactions with 
external and internal technical review and oversight groups, 
and I had a significant role in preparing the application and 
presenting it to the NRC.
    The development of the technical basis for the repository 
was the work of hundreds of scientists and engineers, spread 
over decades. When I speak about the work contained in the 
license application, I am summarizing the contributions of 
multiple experts who prepared those sections.
    What types of political--sorry--of postclosure scientific 
issues does the application consider? The detailed analyses 
presented in the application focus on those processes that have 
a significant potential to affect long-term performance of the 
repository, but all relevant events and processes, including 
those that are highly unlikely and those that are shown to have 
little or no impact on the system, are summarized in the 
application and evaluated in detail in supporting documents.
    Subsections of the application address each of the major 
processes affecting the repository, including, for example, 
climate change, groundwater flow, long-term degradation of the 
waste packages. As required by EPA and NRC regulations, 
analyses provide an estimate of the mean annual radiation dose 
that a person living in the vicinity might receive at any time 
in the next million years. One of the main conclusions of these 
analyses is that estimated releases and radiation doses to 
hypothetical future humans are well below the EPA and NRC 
standards. Overall, the application concludes that there is a 
significant--sorry--a sufficient technical basis for the NRC to 
issue a license authorizing construction of the facility. This 
conclusion was a fundamental basis for the 2008 submittal of 
the application to the NRC for review.
    This brings me to my views on the Blue Ribbon Commission's 
draft recommendation regarding the need for a permanent 
geological repository. The Commission observed in their draft 
report that ``every foreseeable approach to the nuclear fuel 
cycle still requires a means of disposal that assures the very 
long-term isolation of radioactive wastes.'' I agree with this 
observation. Alternative approaches to the nuclear fuel cycle 
that involve separating and recycling fissile material in 
irradiated fuel can change the type and character of waste 
requiring geologic disposal, but they will not eliminate the 
need. The Commission also concluded in its draft report that 
``deep geological disposal is the most promising and accepted 
method currently available.'' The Commission further noted that 
disposal could occur either in mined repositories or 
potentially in deep boreholes. Again, I agree. Research to date 
in the United States and elsewhere provides confidence that 
safe and effective disposal facilities could be designed and 
operated in a range of geologic settings.
    Recognizing that there is much to be done to establish the 
scientific and technical basis for licensing any of the 
disposal concepts available to us, and also recognizing that 
the regulatory process essential to ensuring public health and 
safety may be time-consuming, I strongly support the Blue 
Ribbon Commission's draft recommendation for ``prompt efforts 
to develop one or more geologic disposal facilities.''
    Thank you.
    [The prepared statement of Dr. Swift follows:]

                 Prepared Statement of Dr. Peter Swift,
              Distinguished Member of the Technical Staff,
                       Sandia National Laboratory

    Chairman Harris, Chairman Broun, Ranking Members Miller and Tonko, 
and the distinguished Members of the Committee; thank you for the 
opportunity to testify. I am Dr. Peter Swift, a Distinguished Member of 
the Technical Staff at Sandia National Laboratories. \1\
---------------------------------------------------------------------------
    \1\  Sandia is a multiprogram national security laboratory owned by 
the United States Government and operated by Sandia Corporation for the 
National Nuclear Security Administration. Sandia Corporation is a 
subsidiary of the Lockheed Martin Corporation under Department of 
Energy prime contract no. DE-AC04-94AL85000.
---------------------------------------------------------------------------
    In your letter requesting my testimony, you asked me to address 
three topics. First, you asked me to provide my views on the draft 
recommendations of the Blue Ribbon Commission on America's Nuclear 
Future regarding the need for a permanent geological repository. 
Second, you asked me to describe my role as the Chief Scientist for the 
Yucca Mountain Lead Laboratory. Third, you asked me to describe the 
various scientific issues and technical conclusions in the Department 
of Energy's License Application for the proposed Yucca Mountain 
repository.
    I'd like to start with the second and third questions, and I'll 
close with my views on the Blue Ribbon Commission's draft 
recommendation.
    I'm speaking only for myself; anything I say here today represents 
my own personal beliefs and does not necessarily represent the position 
of Sandia National Laboratories or the U.S. Department of Energy. 
Specifically, I am not here to amend or add to Sandia's technical 
position with respect to the Yucca Mountain License Application. That 
position remains unchanged from its documentation in the License 
Application.
    I'm a geologist by training, and I've worked for the past 22 years 
studying how deep geologic repositories for radioactive waste will 
perform over hundreds of thousands of years. In my role as Chief 
Scientist for the Yucca Mountain Lead Laboratory team, I focused on 
ensuring the integrity and credibility of the scientific basis for the 
postclosure portions of the License Application that the DOE submitted 
to the Nuclear Regulatory Commission in June 2008. I was extensively 
involved in interactions with external and internal technical review 
and oversight groups, and I had a significant role in preparing the 
application and presenting it to the NRC.
    The development of the technical basis for the Yucca Mountain 
repository was the work of hundreds of scientists and engineers, spread 
over decades. When I speak about the scientific and technical work 
contained in the License Application, I'm summarizing the contributions 
of the multiple experts who prepared the individual sections.
    What types of postclosure scientific issues does the application 
consider? The detailed analyses presented in the application focus on 
those processes that have a significant potential to affect long-term 
performance of the repository, but all relevant events and processes, 
including those that are highly unlikely and those that are shown to 
have little or no impact on the system, are summarized in the 
application and evaluated in detail in supporting documents.
    Subsections of the application address each of the major processes 
affecting the repository, including, for example, climate change, 
groundwater flow, and long-term degradation of the waste packages. As 
required by EPA and NRC regulations, analyses provide an estimate of 
the mean annual radiation dose that a person living in the vicinity of 
the repository might receive at any time in the next million years. One 
of the main conclusions of these analyses is that estimated releases 
and radiation doses to hypothetical future humans are well below the 
EPA and NRC standards. Overall, the application concludes that there is 
a sufficient technical basis for the NRC to issue a license authorizing 
construction of the facility. This conclusion was a fundamental basis 
for the 2008 submittal of the application to the NRC for review.
    This brings me to my views on the Blue Ribbon Commission's draft 
recommendation regarding the need for a permanent geological 
repository. The Commission observed in their draft report that ``every 
foreseeable approach to the nuclear fuel cycle still requires a means 
of disposal that assures the very long-term isolation of radioactive 
wastes from the environment.'' I agree with this observation. 
Alternative approaches to the nuclear fuel cycle that involve 
separating and recycling fissile material in irradiated fuel can change 
the type and character of waste requiring geologic disposal, but they 
will not eliminate the need. The Commission also concluded in its draft 
report that ``deep geological disposal is the most promising and 
accepted method currently available,'' and the Commission further noted 
that disposal could occur either in mined repositories or potentially 
in deep boreholes. Again, I agree. Research to date in the United 
States and elsewhere provides confidence that safe and effective 
disposal facilities could be designed and operated in a range of 
geologic settings.
    Recognizing that there is much to be done to establish the 
scientific and technical basis for licensing any of the disposal 
concepts available to us, and also recognizing that the regulatory 
process essential to ensuring public health and safety may be time-
consuming, I strongly support the Blue Ribbon Commission's draft 
recommendation for ``prompt efforts to develop one or more geologic 
disposal facilities.``
    Thank you.

Summary

    I am speaking for myself, and this statement does not necessarily 
represent the positions of Sandia National Laboratories \1\ or the U.S. 
Department of Energy. My statement neither amends nor adds to Sandia's 
position regarding the Yucca Mountain License Application, which 
remains unchanged from its documentation in the License Application.
---------------------------------------------------------------------------
    \1\  Sandia is a multiprogram national security laboratory owned by 
the United States Government and operated by Sandia Corporation for the 
National Nuclear Security Administration. Sandia Corporation is a 
subsidiary of the Lockheed Martin Corporation under Department of 
Energy prime contract no. DE-AC04-94AL85000.
---------------------------------------------------------------------------
    In my role as Chief Scientist for the Yucca Mountain Lead 
Laboratory team, I focused on ensuring the integrity and credibility of 
the scientific basis for the postclosure portions of the License 
Application that the DOE submitted to the Nuclear Regulatory Commission 
in June 2008.
    The detailed analyses presented in the application focus on the 
processes that have a significant potential to affect long-term 
performance of the repository, but all relevant events and processes, 
including those that are highly unlikely and those that are shown to 
have little or no impact on the system, are summarized in the 
application and evaluated in detail in supporting documents. As 
required by EPA and NRC regulations, analyses provide an estimate of 
the mean annual radiation dose that a person living in the vicinity of 
the repository might receive at any time in the next million years.
    These analyses conclude that estimated releases and radiation doses 
to hypothetical future humans are well below the EPA and NRC standards, 
and that there is a sufficient technical basis for the NRC to issue a 
license authorizing construction of the facility.
    The Blue Ribbon Commission on America's Nuclear Future draft report 
recommends ``prompt efforts to develop one or more geologic disposal 
facilities.'' The draft report concludes that ``deep geological 
disposal is the most promising and accepted method currently 
available'' for isolating high-level radioactive wastes, and that 
disposal could occur either in mined repositories or potentially in 
deep boreholes. I agree. Research to date in the United States and 
elsewhere provides confidence that safe and effective disposal 
facilities could be designed and operated in a range of geologic 
settings.

    Chairman Broun. Thank you, Dr. Swift.
    We have got to go to the floor to vote, so the Committee 
will now stand in recess until 10 minutes after the last vote.
    [Recess.]
    Chairman Broun. We will reconvene the joint Committee 
meeting.
    I now recognize our next witness. Thank you, all of you, 
for your indulgence in this vote series and appreciate you all 
staying around. Our next witness is Dr. Kasperson. Doctor, you 
are recognized for five minutes.

               STATEMENT OF DR. ROGER KASPERSON,

             PROFESSOR AND DISTINGUISHED SCIENTIST,

                        CLARK UNIVERSITY

    Dr. Kasperson. In 2001, the National Academy of Sciences 
published a major report that represented both an unusually 
large committee for the academy and also a rather substantial 
period of time with international representation of leading 
world scientists as well as prominent engineers and scientists 
in the United States, and I want to indicate what all that work 
resulted in, an observation by the panel in its report that 
despite the conversations we may have here today and what will 
go on about Yucca Mountain and so forth, the major issues are 
really not geology. There are a number of geological options 
that would probably work quite well, and the failures and 
challenges that we are seeing are really connected as the 
Academy noted in achieving the sort of people-related problems, 
the societal nature of the issues that are involved. And so 
while you all have the responsibility of designing the next 
steps in our national efforts to deal with radioactive waste, 
you are going to need to give a lot of attention to issues that 
have been quite neglected in the past.
    I might remind you, I have been around long enough to know 
that Alvin Weinberg, who was a very prominent scientist 
involved in the early history of radioactive waste management, 
noted that the problems that he had most underestimated were 
connected with waste storage and waste disposal and 
particularly the public interactions that occurred.
    Now, there is--if we are honest about it, there are some 
pretty serious problems to be dealt with in trying to come up 
with a new program for radioactive waste, and I have noted some 
of them here. They are what some of us might call deep 
uncertainty problems that when you are talking about situations 
where you have really long time frames like 10,000 and 100,000 
years, and we don't know what the future of technology and 
society is going to look at, that there are site-specific 
problems connected with any site that can be reviewed and 
considered as a repository site, and so there are things 
connected with future populations, lifestyles and values, 
health and medical issues and even the political context itself 
where we really can't predict very well what is going to 
happen, and that has implications, I think, for whatever 
Administration takes this problem on. They are going to have to 
deal with some of these, some of these issues, and they are not 
easy issues.
    Also, we might note that we have never done, you know, a 
really high-level waste or spent fuel repository before, so it 
will be a first-of-a-kind facility. There are also not 
facilities that exist anywhere in the world at the moment, so 
our experience is limited, and so we need to understand that 
somehow the management process is going to need to be 
evolutionary because that will be the nature of knowledge, will 
be evolutionary and these uncertainties are going to change 
over time.
    Now, what I do want to focus on particularly is the problem 
of social trust. Some of you may have seen in yesterday's New 
York Times on the front page that a new New York Times/CBS 
national poll has discovered that social trust has reached--it 
has been--we have been experiencing long-term erosion in social 
trust in our country, and in the last few weeks it has hit the 
low point that has existed at any time in the last 20 or 30 
years. The loss of trust is particularly pronounced in the 
nuclear area, but we must understand that it really cuts across 
and it is generally responsible and found elsewhere in many 
other institutions. In other words, the social trust problem is 
not just a matter of getting the nuclear things right because 
it is a general problem in our society, and there has been a 
loss of social trust in institutions, in corporations, in 
Congress, regrettably, in the Presidency, and so forth, and 
those things are--and it is not one particular poll because we 
now have evidence drawn from a number of different surveys that 
basically indicate that, and I am just about out of time.
    Just to indicate, I can probably give you only one piece of 
social science research. We actually have a large body of 
evidence which has been accumulated among scientists and 
researchers over the past 20 years. This is one example drawn 
from work by psychologists, and you will see in the upper part 
of this diagram, those are a whole--don't worry about reading 
all those things. They are a whole list of actions that can be 
taken that ought to build trust, and the lower part of the 
diagram is actions that are taken and events that happen that 
lose trust. Look at the size of the bars involved. And what we 
have found, and I will just state it and maybe I will end 
there, that what we think is that social trust is easily lost 
and very difficult to recover. And so one of the things that is 
going to be facing Yucca Mountain or in the next phase of the 
radioactive waste problem is how do we deal with social trust, 
and if you are dealing with very feared hazard and one that 
concerns the public and the social trust in managers is very 
low, you have got a real problem to deal with, and we are going 
to need to give that a lot of thought in designing the process 
of moving forward for radioactive waste.
    Thank you.
    [The prepared statement of Dr. Kasperson follows:]

               Prepared Statement of Dr. Roger Kasperson,
                 Professor and Distinguished Scientist,
                            Clark University

    The management of spent nuclear fuel (SNF) and defense high-level 
waste (HLW) is a complex socio-technical systems challenge. 
Coordinated, reliable, and safe performance will be required over very 
long periods of time within evolving and changing social and technical 
contexts. To accomplish these goals, a waste management system will 
involve a host of facilities for interim storage and long-term 
disposal, a transportation infrastructure, and research and development 
centers. The complexity of SNF and HLW management will also require an 
array of robust institutions and procedures. Waste management is multi-
institutional, comprising multiple private companies and sectors (e.g., 
commercial nuclear utilities, trucking and railway companies), multiple 
government agencies at different levels (local, State, National), non-
governmental organizations (NGOs) and other institutional stakeholders, 
as well as citizens. At the moment, experience of how this will work is 
limited.
    No matter how many checks and balances are put into place, no 
matter how much information is disclosed, no matter how many 
instruments for monitoring, evaluation, and oversight are implemented 
there will ultimately be individuals and groups entrusted to make sure 
``it all works.'' Trust and confidence are necessary for stable 
arrangements in contexts of unequal power, whether in terms of access 
to information, economic resources, or ability to implement desired 
actions (Kuhn and Ballard 1999). Stable arrangements, in turn, are 
essential for the institutional continuity necessary for long-term 
projects such as the disposal of SNF and HLW.
    Unfortunately, the principal agencies responsible for nuclear 
wastes, the Department of Energy (DOE) and the Nuclear Regulatory 
Commission, are not trusted by majorities of the public in recent 
public opinion polls (e.g., Whitfield et al. 2009) and other earlier 
assessments (e.g., DOE 1993, DOE 2000). Social perceptions of missteps 
and failures in government and private parties' management of nuclear 
wastes have contributed to long-term erosion of trust and confidence 
(DOE 1993, DOE 2000, Hewlett 1978, Kraft 1996, NRC 2001, OTA 1985, 
Pijawka and Mushkatel 1992, Rosa and Clark 1999, Rosa et al. 2010). 
Reasons include Congressional scrapping of a site selection in the 
Eastern half of the U.S., Congressional scrapping of technical 
integrity and equity provisions in the Nuclear Waste Policy Amendments, 
attempts to coerce Nevada rather than negotiate, failure to clearly 
define regulatory criteria in advance and then adapt them to fit 
existing conditions, attempts to re-negotiate or circumvent compliance 
with cleanup agreements related to HLW at DOE sites, and treating the 
public as if its concerns are irrational. In short, social distrust is 
multi-lateral and ``widespread in the nuclear waste domain, is deeply 
seated, reflects broader trends in society, and has a continuing 
history of events to maintain it.'' (NRC 2001, pg. 74)
    Two reasons for the difficulty of regaining social trust in the 
context of SNF and HLW management stand out for special attention. 
First, nuclear waste is thought of in largely negative terms. Changing 
negative views can be hard. The ``affect heuristic'' explored in the 
work of Slovic and colleagues (Finucane et al. 2000, Slovic et al. 
2007) suggests that when people like an activity or technology, they 
tend to view it as having high benefit and low risk. On the other hand, 
if they dislike it, they see benefits as low and risk as high. 
Furthermore, recent work on ``cultural cognition'' reinforces findings 
that people tend to select and interpret information to support 
preexisting views, protect values and worldviews (e.g., anti-nuclear or 
pro-nuclear), or preserve identity with an ideological group (Braman et 
al. 2005, Kahan et al. 2007). Thus, information intended to educate or 
persuade is all too often impotent.
    Second, evidence suggests that events and activities that erode 
social trust have a stronger impact on overall levels of trust than do 
those thought to strengthen social trust (Figure 1). This is often 
referred to as the ``asymmetry of trust'' (Slovic 1993). Slovic (1993) 
found that of the many trust-building actions investigated, only one 
had a moderate effect: ``An advisory board of local citizens and 
environmentalists is established to monitor the plant and is given 
legal authority to shut it down if they believe it to be unsafe.''
    Figure 1. Differential impact of trust-increasing and trust-
decreasing events on levels of trust among respondents. Respondents 
were asked about each event whether it would increase or decrease their 
trust in the management of a nuclear power plant. They then rated how 
strongly their trust would be affected (1 = very small impact on trust; 
7 = very powerful impact on trust). Source: Slovic, 1993.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Rebuilding Social Trust

    Based upon the sizable literature on social distrust, we offer six 
recommendations for how nuclear waste management should move forward.
    <bullet>  The planning process should commission a set of focus 
papers by leading experts on the major social and ethical problems that 
must be addressed in the evolving approach. These should include 
options for solutions and their pluses and minuses.

    <bullet>  Social science and policy expertise will be essential 
(Rosa et al. 2010). We suggest convening a standing advisory committee 
of leading social scientists and policy analysts with whom nuclear 
waste planner regularly consult.

    <bullet>  A dual strategy should be adopted. First, planning, 
including the design of institutional architecture and procedures, 
should proceed in a way that recognizes the need to perform and be 
effective in a context of social distrust. It may be that proceeding on 
the recognition of a deficit in social trust will lay the foundation 
for transparent, participatory procedures that can rebuild functional, 
critical social trust over the long term. Second, while working in a 
context of distrust, there must also be consistent efforts at all 
levels and in all aspects of nuclear waste policy-making--planning, 
implementation, and operations--to support the (re)development of 
critical social trust.

    <bullet>  Given the long, apparently obdurate distrust of the DOE, 
it is time to think of putting waste management in the hands of 
alternative institutions. We argue that responsibility should be placed 
in a public corporation, as many countries have done.

    <bullet>  A premium should be placed on openness, inclusive 
stakeholder involvement, and truly independent peer review (including 
impacted communities and knowledgeable, demanding critics) during the 
planning, decision, and monitoring process for all stages of program 
development and operation. The role of public involvement and peer 
review should be clear and meaningful. Independent review by critics.

    <bullet>  Contingent on geological suitability, the approach to 
siting should emphasize voluntary consent rather than coercion as much 
as possible.

References and Suggested Readings

    Baxter, J. 2006. A case study of intra-community conflict as 
facility impact, Journal of Environmental Planning and Management 
49(3):337-360.

    Bradbury, J., Branch, K., Malone, E. 2003. An evaluation of DOE-EM 
public participation programs. Report #PNNL-14200. Washington: Battelle 
Pacific Northwest National Laboratory.

    Braman, D., Kahan, D. M., & Grimmelmann, J. 2005. Modeling facts, 
culture, and cognition in the gun debate. Social Justice Research, 
18(3), 283-304.

    Burger, J., Gochfeld, M., Kosson, D., Powers, C., Friedlander, B., 
Eichlberger, J., Barnes, D., Duffy, L., Jewett, S., Volz, C. 2005. 
Science, Policy, and Stakeholders: Developing a Consensus Science Plan 
for Amchitka Island, Aleutians, Alaska, Environmental Management 35(5): 
557-568.

    Castle, G. & Munton, D. 1996. Voluntary siting of hazardous waste 
facilities in western Canada. In D. Munton (editor), Hazardous waste 
siting and democratic choice. Washington, DC: Georgetown University 
Press.

    Cvetkovich, G. and Lofstedt, R. (Eds.) 1999. Social trust and the 
management of risk. London: Earthscan.

    Dietz, T. and Stern, P. 1998. Science, values, and biodiversity, 
Bioscience 48(6):441-444.

    DOE 1993. Recommendations from the Report of the Secretary of 
Energy Advisory Board Task Force on Radioactive Waste Management 
(November 1993). Washington, DC: U.S. Department of Energy.

    DOE 2000. Relations between DOE Facilities and their Host 
Communities: A Pilot Review. Report of the Openness Advisory Panel 
(OAP) of the Secretary of Energy Advisory Board. Washington, DC: U.S. 
Department of Energy.

    Earle, T. 2010. Trust in Risk Management: A model-based review of 
empirical research, Risk Analysis 30(4):541-574.

    Earle, T.C., Siegrist, M., & Gutscher, H. 2007. Trust, risk 
perception, and the TCC model of cooperation. In M. Siegrist, H. 
Gutscher, & T.C. Earle (Eds.), Trust, technology, and society: Studies 
in cooperative risk management. London: Earthscan.

    Elam, M., Soneryd, L., and Sundqvist, G. 2010. Demonstrating 
safety--validating new build: The enduring template of Swedish nuclear 
waste management, Journal of Integrative Environmental Sciences 
7(3):197-210.

    Finucane, M., Alkhakami, A., Slovic, P., and Johnson, S. 2000. The 
affect heuristic in judgments of risks and benefits, Journal of 
Behavioral Decision Making 13:1-17.

    Fischhoff, B., Slovic, P., Lichtenstein, S., Read, S., and Combs, 
B. 1978. How safe is safe enough? A psychometric study of attitudes 
towards technological risks and benefits, Policy Sciences 9:127-152.

    Gallup 2008. Polling data on trust and confidence in government 
institutions. Available on the Web at: www.gallup.com/poll/110458/
trust-government-remains-low.aspx.

    Hewlett, R. G. 1978. Federal Policy for the Disposal of Highly 
Radioactive Wastes from Commercial Nuclear Power Plants. DOE/MA-01530, 
Washington, DC: U.S. Department of Energy.

    Jenkins-Smith, H. and Silva, C. 1998. The role of risk perception 
and technical information in scientific debates over nuclear waste 
storage, Reliability Engineering and System Safety 59:107-122.

    Kahan, D., Slovic, P., Braman, D., Gastil, J., and Cohen, G. 2007. 
Affect, values, and nanotechnology risk perceptions: An experimental 
investigation. Yale Law School Public Law Working Paper No. 155. New 
Haven: Yale University. Available at: http://ssrn.com/abstract=968652.

    Kasperson, R. 2005. Siting hazardous facilities: Searching for 
effective institutions and processes. In Managing conflict in facility 
siting: An international comparison, eds. S. H. Lesbirel & D. Shaw, 13-
35. Northampton, MA: Elgar Publishing Inc.

    Kasperson, R. Kasperson, J., and Golding, D. 1999. Risk, trust, and 
democratic theory. In G. Cvetkovich and R. Lofstedt (eds.) Social trust 
and the management of risk. London: Earthscan.

    Kasperson, R.E., Golding, D., and Tuler, S. 1992. Siting hazardous 
facilities and communicating risks under conditions of high social 
distrust. Journal of Social Issues 48(4):161-187.

    Kasperson, R.E., Renn, O., Slovic, P., Brown, H., Emel, J., Goble, 
R., Kasperson, J., Samuel R. 1988. ``The Social Amplification of Risk: 
A Conceptual Framework,'' Risk Analysis 8(2): 177-187.

    Kraft, M. 1996. Democratic dialogue and acceptable risks: The 
politics of high-level nuclear waste disposal in the United States. In 
D. Munton (editor), Hazardous waste siting and democratic choice. 
Washington, DC: Georgetown University Press.

    Kuhn, R. and Ballard, K. 1999. Canadian innovations in siting 
hazardous waste management facilities, Environmental Management 
22(4):533-545.

    Lehtonen, M. 2010. Deliberative decision-making on radioactive 
waste management in Finland, France, and the UK: Influence of mixed 
forms of deliberation in the macro discursive context, Journal of 
Integrative Environmental Sciences 7(3):175-196.

    McLeod, C. 2008. Trust. In E. N. Zalta (ed.), The Stanford 
Encyclopedia of Philosophy (Fall 2008 Edition). Available at http://
plato.stanford.edu/archives/fall2008/entries/trust/.

    Metlay, D. 1999. Institutional trust and confidence: A journey into 
a conceptual quagmire. In Social trust and the management of risk, eds. 
C. G. & R. Lofstedt, 100-116. London: Earthscan.

    NEA 2004. Stepwise Approach to Decision Making for Long-term 
Radioactive Waste Management: Experience, Issues and Guiding 
Principles. Report No. 4429. Paris: Nuclear Energy Agency, OECD.

    National Research Council (NRC) 1996. Understanding risk. 
Washington, DC: National Academies Press.

    National Research Council (NRC) 2000. Long-Term Institutional 
Management of U.S. Department of Energy Legacy Waste Sites. Washington, 
DC: National Academies Press.

    National Research Council (NRC) 2001. Disposition of high-level 
waste and spent nuclear fuel. Washington, DC: National Academies Press.

    National Research Council (NRC) 2003. One Step at a Time: The 
Staged Development of Geologic Repositories for High-Level Radioactive 
Waste. Washington, DC: National Academies Press.

    National Research Council (NRC) 2008. Public participation in 
environmental assessment and decision making. Washington, DC: National 
Academies Press.

    National Research Council (NRC) 2009a. Science and decisions: 
Advancing risk assessment. Washington, DC: National Academies Press.

    National Research Council (NRC) 2009b. Informing decisions in a 
changing climate. Washington, DC: National Academies Press.

    NWMO 2005. Review of Factors Influencing ``Social Acceptability'' 
In considering long term waste management approaches. NWMO Background 
Paper. Toronto: Nuclear Waste Management Organization.

    Office of Technology Assessment (OTA) 1985. Managing the nations 
high-level commercial radioactive waste (OTA-0-277). Washington, DC: 
Office of Technology Assessment.

    Petts, J. 2008. Public engagement to build trust: false hopes?, 
Journal of Risk Research 11(6):821-835.

    Pidgeon, N.F., Kasperson, R.E. and Slovic, P. (Eds) 2003. The 
Social Amplification of Risk. Cambridge: Cambridge University Press.

    Pijawka, K.D. and Mushkatel, A.H. 1991/1992. Public opposition to 
the siting of the high-level nuclear waste repository: The importance 
of trust, Policy Studies Review 10(4):180-194.

    Poortinga, W., Pidgeon N.F. 2003. Exploring the dimensionality of 
trust in risk regulation, Risk Analysis 23:961-972.

    Poortinga W., Pidgeon N.F. 2006. Prior attitudes, salient value 
similarity, and dimensionality: Toward an integrative model of trust in 
risk regulation. Journal of Applied Social Psychology 36:1674-1700.

    Rabe, B., Gunderson, W., Harbage, P. 1996. Alternatives to NIMBY 
gridlock: Voluntary approaches to radioactive waste facility siting in 
Canada and the United States. In Hazardous waste siting and democratic 
choice, ed. D. Munton, 85-107. Washington, DC: Georgetown University 
Press.

    Rabe, B., Becker, J., and Levine, R. 2000. Beyond Siting: 
Implementing Voluntarism in Waste Facility Siting, American Review of 
Canadian Studies 30: 455-478.

    Renn, O. 2006. Risk governance: Toward an integrative framework. 
White Paper. Geneva, Switzerland: International Risk Governance 
Council.

    Renn, O. & Levine, D. 1991. Credibility and trust in risk 
communication. In Communicating risks to the public: international 
perspectives, eds. R.E. Kasperson & P.J.M. Stallen, 175-218. Dordrecht, 
Netherlands: Kluwer Academic Publishers.

    Richards, A. 1996. Using co-management to build community support 
for waste facilities. In Hazardous waste siting and democratic choice, 
ed. D. Munton, 321-337. Washington, DC: Georgetown University Press.

    Rosa, E. and Clark, Jr., D. 1999. Historical Routes to 
Technological Gridlock: Nuclear Technology as Prototypical Vehicle, 
Research in Social Problems and Public Policy 7:21-57.

    Rosa, E., Tuler, S., Fischhoff, B., Webler, T., Friedman, S., 
Sclove, R., Shrader-Frechette, K., English, M., Kasperson, R., Goble, 
R., Leschine, T., Freudenburg, W., Chess, C., Perrow, C., Erikson, K., 
Short, J. 2010. Nuclear waste: Knowledge waste? Science 329(5993):762-
763.

    Siegrist, M. 2010. Trust and Confidence: The Difficulties in 
Distinguishing the Two Concepts in Research, Risk Analysis 30(7):1022-
1024.

    Seligman, A. 1997. The problem of trust. Princeton, NJ: Princeton 
University Press.

    Slovic, P. 1993. Perceived risk, trust, and democracy, Risk 
Analysis 13:675-682.

    Slovic, P., Layman, M., and Flynn, J. 1991. Risk perception, trust, 
and nuclear waste: Lessons from Yucca Mountain, Environment 33:6-11 and 
28-30.

    Slovic, P., Finucane, M., Peters, E., and MacGregor, D. 2007. The 
affect heuristic, European Journal of Operational Research 177(3): 
1333-1352.

    Spies, S., Murdock, S., White, S., Krannich, R., Wulfhorst, J., 
Wrigley, K., Leistritz, F. L., Sell, R., and Thompson, J. 1998. Support 
for waste facility siting: Differences between community leaders and 
residents, Rural Sociology 63(1):65-93.

    Strauss, H. 2010. Involving the Finnish public in nuclear facility 
licensing: Participatory democracy and industrial bias, Journal of 
Integrative Environmental Sciences 7(3):211-228.

    Terwell, B. et al. 2009. Competence-Based and Integrity-Based Trust 
as Predictors of Acceptance of Carbon Dioxide Capture and Storage 
(CCS), Risk Analysis 29(8):1129-1140.

    Tuler, S. 2002. Radiation Risk Perception and Communication: A Case 
Study of the Fernald Environmental Management Project. SERI Report 02-
001. Greenfield, MA: Social and Environmental Research Institute. 
Available at: www.seri-us.org/pubs/02-001.pdf.

    Tuler, S. and Webler T. 2010. How preferences for public 
participation are linked to perceptions of the context, preferences for 
outcomes, and individual characteristics, Environmental Management 
46(2):254-267.

    Vira, J. 2006. Winning citizen trust: The siting of a nuclear waste 
facility in Eurajoki, Finland, Innovations (fall): 67-82.

    Webler, T. 2002. Radiation Risk Perception and Communication: A 
Case Study of the Tritium Controversy at Brookhaven National 
Laboratory. SERI Report 02-002. Greenfield, MA: Social and 
Environmental Research Institute. Available at: www.seri-us.org/pubs/
02-002.pdf.

    Whitfield, S., Rosa, E., Dan, A., and Dietz, T. 2009. The future of 
nuclear power: Value orientations and risk perception, Risk Analysis 
29(3):425-437.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. Thank you, Doctor.
    Mr. Hollis, you are recognized for five minutes.

            STATEMENT OF MR. GARY HOLLIS, CHAIRMAN,

            NYE COUNTY BOARD OF COUNTY COMMISSIONERS

    Mr. Hollis. Thank you. Mr. Chairman, Members of the 
Committee, thank you for the opportunity to testify. I am Gary 
Hollis, Nye County--I am Chairman of the Nye County Board of 
Commissioners.
    In July of 2002, Congress designated Nye County as the site 
for nuclear waste repository in accordance with the provision 
of the Nuclear Waste Policy Act, the law Congress enacted to 
establish our Nation's policy on high-level radioactive waste. 
The act gives Nye County the authority to oversee federal 
activities on the repository. It is a duty that I and my fellow 
commissioners take very seriously.
    We have worked with DOE on the science. We have 
participated in the licensing and carefully followed the 
deliberation of the Blue Ribbon Commission.
    The Nuclear Waste Policy Act is clear. It sets out a 
process to determine if the repository can be built safely, and 
in 2008 the DOE submitted a licensing application to the NRC 
with the assurance that it could be built safely. Two years 
later, they asked to withdraw that application.
    There is no need for the BRC to make alternatives to Yucca 
Mountain. DOE, NRC and the Obama Administration should comply 
with the law or change it.
    Nye County has been fully engaged with the BRC. We are 
disappointed that the draft report implies there is no local 
support in Nevada when it insists that the siting of any 
repository have the consent of local government and 
communities.
    Mr. Chairman, Yucca Mountain has local support. If the NRC 
determines it is unsafe to build this repository, Nye County 
would oppose its construction. If it is found to be safe, we 
favor its construction. In a very real sense, Nye County is the 
only community close to Yucca Mountain. At least six rural 
Nevada counties support continuing the licensing application 
process to determine that Yucca Mountain can be built safely. 
The land mass of these counties taken together is larger than 
many States. By any reasonable geographic definition, Yucca 
Mountain has the support of the surrounding communities.
    The DOE, the ERDA and the AEC spent many years attempting 
to site a geological repository. The current language in the 
NWPA has a compromise by Congress to deal with the local 
support issue, but it also has set up procedures to follow if 
no local support is found. In other words, Congress carefully 
considered the possibility that the repository could have to be 
built despite State or local opposition. Congress determined 
that building the repository was the national priority and 
should take--should proceed despite local conditions.
    Mr. Chairman, the State of Nevada currently opposes Yucca 
Mountain. However, in 1975, the Nevada legislature passed a 
resolution that said in part, and I quote, ``The legislature of 
the State of Nevada strongly urges the Energy, Research and 
Development Administration to choose the Nevada Test Site for 
the storage and processing of nuclear material.'' In 1987, the 
State legislature created Bullfrog County that completely 
enclosed Yucca Mountain with the intent to control the receipts 
of the benefits of payment. The point is, the State of Nevada 
at one time was not opposed to dealing with nuclear waste. 
Follow the money.
    It will take decades to study, license and build something 
other than Yucca Mountain. What if we do not find a willing 
State? What happens if a State changes its mind? Would the fate 
of the repository be in jeopardy at every election? Would that 
violate the consent-based goal? The draft report does not 
answer these questions.
    Finally, Mr. Chairman, as I said earlier, we take our site 
county responsibilities seriously. We conducted a robust 
science program to determine if a repository could be built 
safely. To this date, our studies have shown that the 
repository can be built safely, but we want an additional 
confidence that a complete license process will provide. To 
ignore the science, the law and facts, not to mention the 
Administration's scientific integrity policy because the BRC 
says Yucca Mountain does not have local support is an insult to 
the process and contrary to the rule of law. Yucca Mountain 
does have local support. My presence here today confirms that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hollis follows:]

            Prepared Statement of Mr. Gary Hollis, Chairman,
                Nye County Board of County Commissioners

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify today about some of the recommendations of the 
Blue Ribbon Commission. I am Gary Hollis, Chairman of the Nye County 
Board of Commissioners and one of the County's two liaison 
Commissioners on Yucca Mountain issues. I have worked at the Nevada 
Test Site and also worked on Yucca Mountain characterization 
activities.
    As you know, Yucca Mountain is located in Nye County. In July 2002 
Congress specifically designated Nye County as the site county for a 
nuclear waste repository in accordance with provisions of the Nuclear 
Waste Policy Act--the law Congress enacted to establish our Nation's 
policies on high-level radioactive waste. The Act also gives Nye County 
authority to oversee federal activities on the repository. It is a duty 
that I and my fellow commissioners take very seriously.
    As part of Nye County's oversight role, we worked with DOE on the 
science of the Yucca Mountain project, participated in the licensing 
proceedings, and carefully followed the deliberations of the Blue 
Ribbon Commission. Personally, Mr. Chairman, I have questions about the 
need for the Blue Ribbon Commission.
    The provisions of the Nuclear Waste Policy Act are clear. The Act 
sets out specific procedures and rules to determine if a repository at 
Yucca Mountain can be built safely. In 2008, when the Department of 
Energy submitted the license application to the Nuclear Regulatory 
Commission, it was with their assurance it could be built safely. Two 
years later DOE tried to withdraw the license application, but not on 
safety grounds. To me, this is a clear violation of the law. To me, 
there is no need for a Blue Ribbon Commission to determine alternatives 
to Yucca Mountain. Instead, DOE, the NRC and the Obama Administration 
should either obey the clear mandates in the Nuclear Waste Policy Act, 
or should try to change it.
    However, in our oversight role, Nye County has been fully engaged 
with the Blue Ribbon Commission. We have attended a majority of the 
Commission's public hearings. We shared our unique and extensive 
experience and offered thoughtful advice.
    IWe are disappointed that the BRC draft report implies there is no 
local support in Nevada when it insists that the siting of any 
repository be with the consent of the communities surrounding the 
project. Mr Chairman, Yucca Mountain has the support of the surrounding 
communities. Nye County supports completing the licensing process. If 
the NRC determines it is unsafe to build the repository, and that 
determination is based on sound science and not political pressure, Nye 
County would oppose the construction of the repository. If it is found 
to be safe, we favor its construction.
    Mr. Chairman, Nye County is the third largest county in the United 
States. In a very real sense Nye County is the only community close to 
Yucca Mountain. At least six rural Nevada counties support continuing 
with the license application process to determine if Yucca Mountain can 
be build safely. Included in my written testimony are resolutions of 
support from Nye, Esmeralda, Mineral, Lander, Churchill and Lincoln 
counties. The land mass of these counties, taken together, is larger 
than many States in this country. By any reasonable geographic 
definition, Yucca Mountain has the support of the surrounding 
community.
    The DOE, ERDA, and AEC spent many years in unsuccessful attempts to 
site a geologic repository. The current language in the NWPA was a 
compromise by Congress to deal with a very difficult problem. The 
Nuclear Waste Policy Act tries to encourage local support, but it also 
sets up procedures to follow if no local support is found. In other 
words, Congress carefully considered the possibility that the 
repository would have to be built despite local opposition. Congress 
determined that building the repository was a national priority and 
should proceed despite local conditions.
    It is true that the State of Nevada currently opposes Yucca 
Mountain. However at one time it supported it. In 1975, the Nevada 
legislature passed a resolution that said in part:

        ``the legislature of the State of Nevada strongly urges the 
        Energy Research and Development Administration to choose the 
        Nevada Test Site for the storage and processing of nuclear 
        material.''

    In 1987, the State Legislature created a new county that completely 
enclosed Yucca Mountain. It was called Bullfrog County. The new county 
had no population, which meant that any payment by the Federal 
Government for Yucca Mountain would go to the State government. The 
State fully intended to benefit from the repository.
    The point is that the State of Nevada, at one time, was not opposed 
to dealing with nuclear waste.
    It will take decades to study, license, and build something other 
than Yucca Mountain. What if we do not find a willing state? Or if we 
find a willing state, what happens if it later changes its mind? If 10 
or 15 years into the process, what will happen if there is an election 
and the new Governor opposes the repository? Would we go back to the 
drawing board again? Would the fate of the repository be in jeopardy 
with every local government election? What if the State favors the 
repository but it is opposed by an outspoken community activist group? 
Would that violate the consent based goal? The BRC does not answer 
those questions.
    Finally, Mr. Chairman, I want to point out that Nye County, in 
addition to its oversight role, has conducted a robust science program 
to determine if the repository can be built safely. The full list of 
our investigations is in my submitted testimony, but they include 
extensive study of the underground water aquifer by:

    <bullet>  more than forty boreholes into about 145 water zones and 
tracer tests to determine underground water flow;

    <bullet>  structural geologic studies;

    <bullet>  development of information on hydrology south of Yucca 
Mountain that DOE needed to complete its license application;

    <bullet>  underground ventilation measurements and modeling for 
worker safety; and

    <bullet>  participation, as a cooperating agency, in the 
preparation of Environmental Impact Statements

    In short, Nye County took its site county oversight 
responsibilities seriously. We have been active participants in the 
science of Yucca Mountain. To date, our studies have shown that the 
repository can be built safely. We do not have all the scientific 
facts, but that is why we want to see the licensing process completed. 
We want a decision to be made based on science.
    To ignore all this science, the law and the facts, not to mention 
this administration's stated ``scientific integrity policy,'' because 
the BRC says Yucca Mountain does not have local support, is an insult 
to the process and contrary to the rule of law. Yucca Mountain does 
have local support. My presence here today confirms that.
    Thank you. I am available to answer any questions you may have. I 
am here with one of the County's technical professionals. He is 
available to answer questions as well.

    Chairman Broun. Thank you, Mr. Hollis.
    Mr. McLeod, you are recognized for five minutes.

                 STATEMENT OF MR. RICK MCLEOD,

            EXECUTIVE DIRECTOR, SAVANNAH RIVER SITE

                  COMMUNITY REUSE ORGANIZATION

    Mr. McLeod. Mr. Chairmen Broun and Harris and Members of 
the Committee, thank you for the opportunity to testify today 
regarding the draft recommendations of the President's Blue 
Ribbon Commission on America's Nuclear Future.
    I am Rick McLeod, Executive Director of the Savannah River 
Site Community Reuse Organization, or SRSCRO. The SRSCRO is a 
nonprofit regional group supporting economic diversification 
and job creation in the five-county region of Georgia and South 
Carolina near the Department of Energy's Savannah River Site, 
or SRS. Our organization is unique across the DOE complex in 
that our area of interest covers multiple counties and two 
States. We have prepared extended remarks for inclusion in the 
record, but during my time today I would like to focus briefly 
on four of the Blue Ribbon Commission's draft recommendations.
    Let me preface my remarks by saying that the individuals 
and groups I represent in South Carolina and Georgia continue 
to believe that the Administration's decision to halt work on 
Yucca Mountain is wrongheaded and counter to the Nation's long-
term best interest. We applaud Congressional efforts, including 
those of this Committee, specifically the June 2011 report on 
Yucca Mountain, to scrutinize the Administration's actions with 
respect to Yucca Mountain and the lack of scientific integrity, 
openness, and transparency in its determination to terminate 
the project. Now to the Commission's recommendations.
    We fully agree with recommendation number one, which calls 
for consent-based, transparent and science-based approach to 
the nuclear waste management solutions. If a science-based 
approach were followed, we would be completing the Yucca 
Mountain project today.
    We are on record multiple times with our strongly held 
concerns about high-level defense waste continuing to be stored 
at the Savannah River Site with no disposition path available 
and by default becoming the de facto Yucca Mountain.
    On the following point, we want to be extremely clear: in 
its final report, the Blue Ribbon Commission needs to decouple 
high-level defense waste from commercial spent fuel. The 
defense waste is different. The quantity is different. The 
number of locations affected is different. The potential for 
future use is different. The legal and financial implications 
for the government are different. Specific separate 
recommendations are needed for disposition of high-level 
defense waste and for commercial spent fuel.
    Second, we share the view of those who fear that forming 
some type of federal corporation dedicated to managing nuclear 
waste could further delay efforts to dispose of the waste, 
especially defense waste, which had no other disposition path 
than a geologic repository. Rather than create a new 
organization, why not simply focus for a shorter period and for 
less money on just disposing of the waste? We need solutions, 
not more bureaucracy.
    While we appreciate the need for interim storage, our 
concerns center on the term ``interim.'' When it comes to 
nuclear waste, this is a relative term that is almost never 
associated with a fixed time frame. Rather, it can mean 
anything from 10 years to 500 years or more. ``Interim'' needs 
to be clearly and legally defined before communities such as 
ours can begin to address the potential and advisability of 
such storage.
    In any event, our community would not support interim 
storage scenario of commercial spent fuel at the Savannah River 
Site unless a permanent solution is pursued at the same time. 
This means progress towards a permanent repository for both 
high-level defense waste and commercial spent fuel and/or a 
program to reprocess or recycle commercial used nuclear fuel. 
Community support also requires removal of a sufficient 
quantity of waste currently stored at SRS and the recommitment 
of processing used nuclear fuel currently stored at SRS storage 
pools. These two conditions along with ongoing health and 
safety monitoring, proper regulatory oversight, both at the 
local and State level, and a legally binding commitment to a 
final disposition plan are essential to community support for 
an interim storage option.
    Finally, we strongly urge the Blue Ribbon Commission to 
amend its recommendation number seven to specifically recognize 
the critical role of H Canyon at the Savannah River Site in 
international nonproliferation efforts. H Canyon, as you know, 
is a one-of-a-kind facility of immense importance to DOE and 
the Nation. In our view, it is imperative to reinstate H Canyon 
to operational status, fully funded and fully staffed.
    I thank the Committee for its oversight and contribution to 
the national dialog, and I will be happy to answer any 
questions.
    [The prepared statement of Mr. McLeod follows:]

                 Prepared Statement of Mr. Rick McLeod,
                Executive Director, Savannah River Site
                      Community Reuse Organization

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today regarding the draft recommendations of the 
President's Blue Ribbon Commission on America's Nuclear Future.
    I am Rick McLeod, Executive Director of the Savannah River Site 
Community Reuse Organization--or ``SRSCRO.''
    The SRSCRO is a non-profit regional group supporting economic 
diversification and job creation in a five-county region of Georgia and 
South Carolina near the Department of Energy's Savannah River Site.
    Our organization is unique across the DOE complex in that our area 
of interest covers multiple counties and two states.

Blue Ribbon Commission Draft Recommendations

    The Blue Ribbon Commission's draft report issued in July included 
seven recommendations:

        1. Develop an approach to siting and developing nuclear waste 
        management and disposal facilities in the U.S. that is 
        ``adaptive, staged, consent-based, transparent, and standards- 
        and science-based.''

        2. Create a new, single-purpose organization to develop and 
        implement a focused, integrated program for the transportation, 
        storage, and disposal of nuclear waste in the U.S.

        3. Assure access by the nuclear waste management program to the 
        balance in the Nuclear Waste Fund and to the revenues generated 
        by annual nuclear waste fee payments.

        4. Initiate prompt efforts to develop, as quickly as possible, 
        one or more permanent deep geological facilities for the safe 
        disposal of spent fuel and high-level nuclear waste.

        5. Initiate prompt efforts to develop, as quickly as possible, 
        one or more consolidated interim storage facilities as part of 
        an integrated, comprehensive plan for managing the back end of 
        the nuclear fuel cycle.

        6. Provide stable, long-term support for research, development, 
        and demonstration (RD&D) on advanced reactor and fuel cycle 
        technologies that have the potential to offer substantial 
        benefits relative to currently available technologies and for 
        related workforce needs and skills development.

        7. Provide international leadership to address global non-
        proliferation concerns and improve the safety and security of 
        nuclear facilities and materials worldwide.

Halting Yucca Mountain Is Wrong Decision

    First, let me say that the individuals and groups I represent in 
South Carolina and Georgia continue to believe that the 
Administration's decision to halt work on Yucca Mountain is wrongheaded 
and counter to the Nation's long-term best interests.
    Our objection to the Administration's Yucca Mountain policy is 
well-known and highlighted by actions taken by our organization.

    <bullet>  We produced a widely distributed community white paper 
designed to facilitate discussion and a regional and national consensus 
on safe, permanent nuclear waste disposal.

    <bullet>  We gathered resolutions from 22 governmental bodies and 
economic development groups in our region supporting continuation of 
the Yucca Mountain project.

    <bullet>  We held a well-covered press conference at the National 
Press Club in Washington to amplify our objections to the 
Administration's decision.

    <bullet>  We co-sponsored print ads as part of a national campaign 
to ask our elected officials and candidates where they stand on Yucca 
Mountain.

    <bullet>  We have communicated frequently with our state and 
federal elected officials concerning our views and concerns.

    <bullet>  We appeared three times before the President's Blue 
Ribbon Commission on America's Energy Future.

    <bullet>  Most recently, we joined with 25 other organizations 
across the country in signing a letter to the U.S. Senate supporting 
funding resumption of the NRC's review of the Yucca Mountain license 
application.

    In short, we have mounted an extremely proactive community response 
in an effort to force reconsideration of the government's ill-advised 
decision to halt work on Yucca Mountain, especially since Congress 
specifically stated so in the Nuclear Waste Policy Act and Yucca 
Mountain is still considered the ``law'' of the land.

DOE Should Reconsider Its Position

    We continue to urge DOE to reconsider its position and allow 
science and engineering--not politics--to establish the most 
appropriate means for disposal of high-level defense nuclear waste.
    And we applaud Congressional efforts--including those of this 
Committee, specifically the June 2011 report on Yucca Mountain--to 
scrutinize the Administration's actions with respect to Yucca Mountain 
and the lack of scientific integrity, openness, and transparency in its 
determination to terminate the project.
    We continue to believe Yucca Mountain was--and is--the right answer 
for permanent nuclear waste disposal, and its completion should be 
pursued vigorously, especially for high-level defense waste. We note 
that the Blue Ribbon Commission did not address Yucca Mountain in its 
draft report at the direction of the Secretary of Energy. We consider 
this to be the ``missing recommendation.''

Transparent, Science-Based Approach Is Needed

    With respect to the Blue Ribbon Commission's recommendations, we 
fully agree with Recommendation #1 which calls for a consent-based, 
transparent, and science-based approach to waste management solutions.
    If a science-based approach were followed with transparency, we 
would be completing the Yucca Mountain project today.

High-Level Defense Waste Needs Separate Consideration

    It should be pointed out that we are on record multiple times with 
our strongly held concerns that because of the Yucca Mountain decision 
high-level defense waste will continue to be stored at the Savannah 
River Site with no disposition path available, thus by default becoming 
the ``de facto'' Yucca Mountain.
    On this point, we want to be extremely clear. In its final report, 
the Blue Ribbon Commission needs to de-couple high-level defense 
waste--including the vitrified waste and used nuclear fuel from foreign 
and domestic research reactors--from commercial spent fuel.
    The waste is different. The quantity is different. The number of 
locations affected is different. The potential for future use is 
different. The legal and financial implications for the government are 
different.
    Commercial spent fuel and high-level defense waste should be 
treated differently based on their unique characteristics and 
requirements for safe storage and retrieval. Specific, separate 
recommendations are needed for disposition of high-level defense waste.

New Federal Corporation Will Delay Progress

    With respect to the Commission's second recommendation, we share 
the view of those who fear that forming a federal corporation dedicated 
to managing nuclear wastes could further delay efforts to dispose of 
the waste, especially defense waste which has no other disposition path 
than a geologic repository.
    All evidence points to the fact that disposal of defense waste at 
Savannah River Site is low among the Department of Energy's priorities.
    It is also a fact that considerable time, money and effort would 
have to be devoted to setting up a new federal or quasi-federal 
organization to oversee disposition.
    Rather than create new bureaucracy, why not simply focus for a 
shorter period and for less money on just disposing of defense waste. A 
new organization just doesn't seem to be a helpful solution in the 
current environment. We need solutions, not more bureaucracy.

Nuclear Waste Fund Should Be Used for Its Purpose

    Third, we fully agree that access by the nuclear waste management 
program to the balance in the Nuclear Waste Fund and to the revenues 
generated by annual nuclear waste fee payments should be assured.

Permanent Geologic Facility Is Needed Soon

    Fourth, we also fully agree with the Commission's recommendation 
that prompt efforts should be initiated to develop, as quickly as 
possible, one or more permanent deep geological facilities for the safe 
disposal of spent fuel and high-level nuclear waste. We believe Yucca 
Mountain is the first of those facilities.

``Interim'' Should Be Legally Defined

    The Commission's fifth recommendation is that we develop one or 
more interim storage facilities as quickly as possible.
    While we appreciate the need for such storage, our concern centers 
on the term ``interim.'' When it comes to nuclear waste, this is a 
relative term that is almost never associated with a fixed time frame.
    Rather, it can mean anything--from 10 years to 500 years or more. 
``Interim'' needs to be clearly and legally defined before communities 
such as ours can begin to address the potential and advisability of 
such storage.
    In any event, our community will not support any interim storage of 
commercial spent fuel scenario unless a permanent solution is pursued 
at the same time.
    This means progress toward a permanent repository for commercial 
spent fuel and high-level defense waste and/or a program to reprocess 
or recycle commercial used nuclear fuel.
    Community support also requires removal of a sufficient quantity of 
waste currently stored at SRS and the re-commitment of processing used 
nuclear fuel currently stored at SRS in used fuel pools.
    These two conditions--along with ongoing health and safety 
monitoring, proper regulatory oversight both at the local and State 
level, and a legally binding commitment to a final disposition plan--
are essential to community support for an interim storage option for 
commercial spent fuel at SRS.

Fuel Cycle R&D Is Needed; H Canyon Should Be Utilized

    We strongly agree with Recommendation Six which calls for stable, 
long-term support for research, development, and demonstration on 
advanced reactor and fuel cycle technologies. Furthermore, we believe 
the Commission needs to make a specific recommendation regarding the 
preservation and use of H Canyon as part of this R&D program.
    H Canyon, as you know, is a one-of-a-kind facility of immense 
importance to DOE and the Nation.

    <bullet>  It is the only large-scale DOE facility that can 
stabilize and separate DOE's inventory of complex plutonium materials 
into a form suitable for disposition.

    <bullet>  It is the only facility that can prepare the large and 
growing inventory of research reactor fuel at the Savannah River Site 
for disposition, while recovering valuable highly enriched uranium.

    <bullet>  It is the only facility that can support engineering 
development and ``hot'' testing of alternate nuclear fuel cycles and 
advanced Small Nuclear Reactors.

    We strongly urge the Blue Ribbon Commission to amend its 
Recommendation Number 7 to specifically recognize the critical role of 
H Canyon at the Savannah River Site in international non-proliferation 
efforts.
    The Commission should acknowledge that H Canyon is a national 
treasure that should be fully deployed to complete the original plan of 
disposing of nuclear materials brought to SRS.
    We believe DOE's decision to place H Canyon at the Savannah River 
Site in modified operational status is short-sighted, especially at a 
time when critical existing mission needs are unmet.
    In our view, it is imperative to reinstate H Canyon to operational 
status--fully funded and fully staffed.

Nuclear Waste Solution Is Critical National Challenge

    As we point out in our Yucca Mountain white paper, the challenge of 
properly disposing of nuclear waste touches every man, woman and child 
in America.
    It speaks to public safety, to energy independence, to technology 
and innovation, to global competitiveness and economic leadership and 
to the political will to do what is right--what must be done for the 
good of our communities today and of future generations tomorrow.
    I thank this Committee for its oversight and contribution to the 
national dialog. I urge you to carefully consider our comments and urge 
the Blue Ribbon Commission to incorporate our views into their final 
report.

    Chairman Broun. Thank you, Mr. McLeod. And if any member of 
the Committee would like some interpretation, Mr. McLeod and I 
will be glad to interpret each other for you all. So thank you, 
Mr. McLeod. I appreciate your testimony.
    Dr. Peters, you are recognized for five minutes.

                 STATEMENT OF DR. MARK PETERS,

            DEPUTY LABORATORY DIRECTOR FOR PROGRAMS,

                  ARGONNE NATIONAL LABORATORY

    Dr. Peters. Thank you, Mr. Chairman. Good morning. I would 
like to thank Chairman Broun, Ranking Member Tonko and Members 
of the Subcommittee on Investigations and Oversight, also 
Chairman Harris, Ranking Member Miller and Representative 
Biggert and the other Members of the Subcommittee on Energy and 
Environment for the opportunity to testify this morning.
    My name is Mark Peters and I am the Deputy Laboratory 
Director for Programs at Argonne National Laboratory. Mr. 
Chairman, I ask that my full written testimony be entered into 
the record, and I will summarize it here.
    I am honored to be here today to testify about science and 
technology challenges and opportunities associated with the 
nuclear fuel cycle, the need to develop new, sustainable 
technologies to enable America's nuclear energy future, and 
finally, my perspectives on the BRC draft recommendations.
    For decades, the United States has grappled with the 
multiple challenges of crafting a long-term solution for the 
management of legacy and future used nuclear fuel. Over this 
past year, these persistent challenges have taken on new 
urgency as the accident at Japan's Fukushima Daiichi nuclear 
power plant has focused international attention on the safety 
and security of used nuclear fuel storage. Today as we consider 
the BRC's draft recommendations, it is critically important for 
us to take a close look at the many challenges that must be 
addressed if we are to succeed in managing our used nuclear 
fuel.
    I concur with the BRC's draft recommendation to move 
forward expeditiously with siting, licensing and operating a 
storage and disposal system to manage legacy and future used 
nuclear fuel. I believe this is an important and necessary step 
toward enabling a sustainable nuclear energy future. A storage 
and disposal system is required in any nuclear fuel cycle.
    I also strongly support the BRC recommendation to conduct a 
robust advanced fuel cycle R&D program to inform future 
domestic fuel cycle options and maintain U.S. leadership in the 
global nuclear energy and fuel cycle enterprise. Yet while I 
understand the BRC's conclusion that it is premature to seek 
consensus on the policy question of whether the United States 
should commit to closing the fuel cycle, I believe the BRC's 
omission of this issue will result in a missed opportunity to 
inform our nuclear waste policy going forward.
    Given the necessary linkages between fuel cycle 
technologies and ultimate disposition of nuclear waste, I 
believe it is vital to make advanced nuclear fuel cycle R&D a 
critical component of our long-term strategy for nuclear waste 
management, and that our national strategy must simultaneously 
address issues of economics, uranium resource utilization, 
nuclear waste minimization and a strengthened nonproliferation 
regime.
    This is an increasingly urgent issue. At present, nuclear 
energy is the sole proven, reliable, abundant, affordable, and 
carbon-free source of electricity generation for the United 
States and the world. Our current nuclear-generating capacity 
is not sufficient to support the goals of our energy system 
going forward. Additionally, most existing nuclear power plants 
in the United States will reach the end of their operating 
licenses in the next few decades, so we must work swiftly and 
urgently to extend, replace, and add to the nuclear energy-
generating capacity in the United States.
    To a great extent, our future capacity for nuclear energy 
generation will depend on our ability to safely dispose of 
nuclear waste, and perhaps even more importantly, to assure the 
public of the safety and security of our used nuclear fuel. 
Failure to find new workable solutions to the continuing 
problem of nuclear waste management will have serious long-term 
ramifications for our national economy and future global 
competitiveness.
    Real technological progress in addressing these challenges 
is possible only within the context of a thoughtful, consistent 
policy for nuclear waste management, one that acknowledges the 
reality that a once-through fuel cycle may not be sustainable 
if global nuclear energy generation increases substantially. 
Our national policy must include substantial support for an 
advanced fuel cycle R&D program that is focused on outcomes, 
that is closely integrated with storage and disposal efforts, 
and that ultimately leads to down-selection, demonstration, and 
deployment of effective advanced fuel cycle technologies.
    To that end, the United States should conduct a science-
based advanced nuclear fuel cycle research, development, and 
demonstration program to evaluate recycling, transmutation, and 
disposal technologies that minimize proliferation, 
environmental, health, and safety risks. This program should be 
carried out through robust public-private partnerships 
involving the Department of Energy, its national laboratories, 
universities and industry, and it should be conducted with a 
sense of urgency and purpose. My written testimony provides a 
more specific set of recommendations to advance nuclear fuel 
cycle R&D.
    I thank you, and I would be pleased to answer any of your 
questions.
    [The prepared statement of Dr. Peters follows:]

                 Prepared Statement of Dr. Mark Peters,
                Deputy Laboratory Director for Programs,
                      Argonne National Laboratory

Summary

    The Blue Ribbon Commission's (BRC) draft recommendation to move 
forward expeditiously with siting, licensing, and operating a storage 
and disposal system to manage legacy and future used nuclear fuel is an 
important and necessary step to enabling a sustainable nuclear energy 
future. A storage and disposal system is required in any nuclear fuel 
cycle. The BRC recommendation to conduct a robust advanced fuel cycle 
R&D program to inform future domestic fuel cycle options and maintain 
United States leadership in the global nuclear energy and fuel cycle 
enterprise is also important. Given the necessary linkages between fuel 
cycle technologies and ultimate disposition of nuclear waste, it seems 
most rational and efficient to address the challenges of advanced fuel 
cycle technologies concurrently with the broader policy questions of 
America's nuclear waste management program. Real progress in addressing 
these challenges is possible only within the context of a thoughtful, 
consistent policy for nuclear waste management, one that acknowledges 
the reality that a once-through fuel cycle will not be sustainable if 
global nuclear energy generation increases substantially.
    Our national policy must include substantial support for a robust 
advanced fuel cycle research and development program that is focused on 
outcomes, that is closely integrated with storage and disposal efforts, 
and that ultimately leads to down-selection, demonstration, and 
deployment of effective advanced fuel cycle technologies. To that end, 
the United States should conduct a science-based, advanced nuclear fuel 
cycle research, development, and demonstration program to evaluate 
recycling and transmutation technologies that minimize proliferation 
risks and environmental, public health, and safety impacts. This 
program should be carried out through robust public-private 
partnerships involving the Department of Energy (DOE), its national 
laboratories, universities, and industry, and it should be conducted 
with a sense of urgency and purpose.

Introduction

    For decades, the United States has grappled with the multiple 
challenges of crafting a long-term solution for the management of 
legacy and future used nuclear fuel. Over this past year, these 
persistent challenges have taken on new urgency, as the accident at 
Japan's Fukushima Daiichi nuclear power plant has focused international 
attention on the safety and security of used nuclear fuel storage. 
Today, as we consider the BRC draft recommendations on America's 
nuclear energy future, it is critically important for us to take a 
close look at the scientific and technological challenges that must be 
addressed if we are to succeed in managing our used nuclear fuel.
    We must keep in mind, however, that real technical progress is 
possible only within the context of a thoughtful, consistent policy for 
nuclear waste management. Our national policy must include substantial 
support for a robust advanced fuel cycle research and development 
program that is focused on outcomes, that is closely integrated with 
storage and disposal efforts, and that ultimately leads to down-
selection, demonstration, and deployment of effective advanced fuel 
cycle technologies. Only a reasoned plan for research, development, and 
deployment can lead to a decision on a preferred fuel cycle technology 
that will enable safe, sustainable expansion of the U.S. nuclear fleet.
    I concur with the BRC recommendation for prompt action regarding 
siting, licensing, and operation of storage and disposal systems to 
manage used nuclear fuel. Yet while I understand the Commission's 
conclusion that it is premature to seek consensus on the policy 
question of whether the United States should commit to closing the fuel 
cycle, I believe the BRC draft report's omission of this issue will 
result in a missed opportunity to inform U.S. nuclear waste policy 
going forward. As the draft report notes: ``Future evaluations of 
potential alternative fuel cycles must account for linkages among all 
elements of the fuel cycle, (including waste transportation, interim 
storage and disposal).'' Given those necessary linkages between fuel 
cycle technologies and ultimate disposition of nuclear waste, it seems 
most rational and efficient to address the challenges of advanced fuel 
cycle technologies concurrently with the broader policy questions of 
America's nuclear waste management program.
    To that end, as I have testified previously to the House of 
Representatives, I believe that the United States should conduct a 
science-based, advanced nuclear fuel cycle research, development, and 
demonstration program to evaluate recycling and transmutation 
technologies that minimize proliferation risks and environmental, 
public health, and safety impacts. This program should be carried out 
through robust public-private partnerships involving the Department of 
Energy (DOE), its national laboratories, universities, and industry, 
and it should be conducted with a sense of urgency and purpose. To be 
most effective, this program must support evaluation of alternative 
national strategies for commercial used nuclear fuel disposition in 
close conjunction with ongoing efforts to site and develop a permanent 
geologic repository(s).

Sustainable Nuclear Energy

    The ongoing challenge of America's nuclear waste management program 
must not be considered in a vacuum. World energy demand is increasing 
at a rapid and largely unsustainable pace; each year, humans consume an 
average of 15 trillion watts of electricity and release over 30 
gigatons of carbon into the atmosphere, and worldwide energy use is 
expected to soar over the coming decades. To satisfy national and 
worldwide energy demand, reduce greenhouse gas emissions, and protect 
the environment, energy production must evolve from current reliance on 
fossil fuels to a more balanced, sustainable approach based on 
abundant, clean, and economical energy sources. At present, nuclear 
energy is the sole proven, reliable, abundant, affordable, and 
``carbon-free'' source of electricity generation for the United States 
and the world. However, our current capacity for nuclear generation is 
not sufficient to support the goals of reliable, carbon-free, and 
affordable energy. Additionally, most existing nuclear power plants in 
the United States will reach the end of their operating licenses in the 
next few decades. At present, it is extremely unlikely that renewable 
energy sources, such as solar, wind, hydro, and geothermal energy, will 
be sufficient to replace that reliable, base-load capacity when those 
nuclear power plant licenses expire. So we must work swiftly and 
urgently to devise economically viable, environmentally responsible 
means to extend, replace, and add to the generating capacity of 
America's 104 existing nuclear power plants, which now produce nearly 
20% of our electricity.
    As we seek to expand our portfolio of sustainable energy sources, 
we must take into account the national and international response to 
the accident at the Fukushima Daiichi nuclear power plant, which 
occurred in the aftermath of the devastating earthquake and tsunami 
that struck northeastern Japan on March 11, 2011. The Fukushima 
accident has led to worldwide uncertainty about the future of nuclear 
power; in response, Germany, Switzerland, and Italy have announced 
plans to phase out or cancel all existing and future reactors. To a 
great extent, our future capacity for nuclear energy generation will 
depend on our ability both to safely dispose of nuclear waste and--
perhaps even more importantly--to assure the public of the safety and 
security of our used nuclear fuel. Failure to find new, workable 
solutions to the continuing problem of nuclear waste management will 
have serious long-term ramifications for our national economy and 
future global competitiveness.
    In considering the draft recommendations of the Blue Ribbon 
Commission, I believe it is vital to make advanced nuclear fuel cycle 
research a critical component of our long-term strategy for nuclear 
waste management, and that our national strategy must simultaneously 
address issues of economics, uranium resource utilization, nuclear 
waste minimization, and a strengthened nonproliferation regime. All of 
these issues will require both systems analysis and substantial, 
consistent investments in research and development, demonstration, and 
test and evaluation, with those efforts directed toward the ultimate 
goal of a closed fuel cycle for waste and resource management.

Used Nuclear Fuel Management

    It is the composition of used nuclear fuel that make its ultimate 
disposal challenging. Fresh nuclear fuel is composed of uranium dioxide 
(about 96% Uranium-238, and 4% Uranium-235). During irradiation, most 
of the Uranium-235 is fissioned, and a small fraction of the Uranium-
238 is transmuted into heavier elements known as transuranics. The used 
nuclear fuel contains about 93% uranium (mostly Uranium-238), about 1% 
plutonium, less than 1% minor actinides (neptunium, americium, and 
curium), and about 5% fission products. Uranium, if separated from the 
other elements, is relatively benign, and could be disposed of as low-
level waste or stored for later re-use. However, some of the other 
byproducts raise significant concerns:

    <bullet>  The fissile isotopes of plutonium, americium, and 
neptunium are potentially usable in weapons and therefore raise 
proliferation concerns. However, used nuclear fuel remains intensely 
radioactive for more than 100 years. Without the availability of remote 
handling facilities, these isotopes cannot be readily separated, 
essentially protecting them from diversion.

    <bullet>  Three isotopes, which are linked through a decay process 
(Plutonium-241, Americium-241, and Neptunium-237), are the major 
contributors to long-term radiotoxicity (100,000 to 1 million years). 
Hence, they are potential significant dose contributors in a 
repository, and also major contributors to the long-term heat 
generation that is a key design limit to the amount of waste that can 
be placed in a given repository space.

    <bullet>  Certain fission products (notably cesium and strontium) 
are major contributors to any storage or repository's short-term heat 
load, but their effects can be mitigated through engineering controls.

    <bullet>  Other fission products, such as Technetium-99 and Iodine-
129, also contribute to long- term potential dose in a repository.

    The time scales required to mitigate these concerns are daunting: 
several of the isotopes of concern will not decay to safe levels for 
hundreds of thousands of years. Thus, the solutions to long-term 
disposal of used nuclear fuel are limited to three options (not 
necessarily mutually exclusive): the location of a geologic environment 
that will remain stable for that period; the identification of waste 
forms that can contain these isotopes for that period; or the 
destruction of these isotopes. These three options underlie the major 
fuel cycle strategies that are currently being developed and deployed 
in the United States and abroad.
    The nuclear fuel cycle is a cradle-to-grave framework that includes 
uranium mining, fuel fabrication, energy production, and nuclear waste 
management. There are two basic nuclear fuel-cycle approaches. An open 
(or once-through) fuel cycle, as currently envisioned by the United 
States, involves treating used nuclear fuel as waste, with ultimate 
disposition of the material in a geologic repository (see Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In contrast, a closed (or recycle) fuel cycle, as currently planned 
by other countries (e.g., France, Russia, and Japan), treats used 
nuclear fuel as a resource, separating and recycling actinides in 
reactors and using geologic disposal for remaining wastes (see Figure 
2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The open nuclear fuel cycle relies on disposition of used nuclear 
fuel in a geologic repository that must contain the constituents of 
that fuel for hundreds of thousands of years. Several countries have 
programs to develop these repositories. This approach is considered 
safe, provided suitable repository locations and space can be found. As 
noted in the BRC draft report, the challenges of long-term geologic 
disposal of used nuclear fuel are well recognized and are related to 
the uncertainty about both the long-term behavior of used nuclear fuel 
and the geologic media in which it is placed.
    For the closed nuclear fuel cycle, limited recycle options are 
commercially available in France, Japan, and the United Kingdom. These 
nations currently use the Plutonium and Uranium Recovery by Extraction 
(PUREX) process, which separates uranium and plutonium and directs the 
remaining transuranics to vitrified waste, along with all the fission 
products. In this process, uranium is stored for eventual reuse and 
plutonium is used to fabricate mixed-oxide fuel that can be used in 
conventional reactors. Used mixed-oxide fuel currently is not 
reprocessed, though the feasibility of mixed-oxide fuel reprocessing 
has been demonstrated. It is typically stored for eventual disposal in 
a geologic repository. Although a reactor partially loaded with mixed-
oxide fuel can destroy as much plutonium as it creates, this approach 
results in increased production of americium, a key contributor to the 
heat generation in a repository.
    This limited recycle approach has two significant advantages:

    <bullet>  It can help manage the accumulation of plutonium.

    <bullet>  It can significantly reduce the volume of used nuclear 
fuel and high-level waste destined for geologic disposal. For example, 
the French experience indicates that this limited recycling can achieve 
volume reductions by a factor of 5 to 10.

    However, there are several disadvantages to the PUREX process:

    <bullet>  It imposes a small economic penalty by increasing the net 
cost of electricity a few percent.

    <bullet>  The separation of pure plutonium in the PUREX process is 
considered by some to be a proliferation risk.

    <bullet>  This process does not significantly improve the use of 
the repository space (the improvement is around 10%, as compared to 
many factors of 10 for closed fuel cycles).

    <bullet>  This process does not significantly improve the use of 
natural uranium (the improvement is around 15%, as compared to several 
factors of 10 for closed fuel cycles).

    Full recycle approaches are currently being researched in France, 
Japan, China, Russia, South Korea, India, and the United States. These 
typically comprise three successive steps: an advanced separations 
technology that mitigates the perceived disadvantages of PUREX, partial 
recycle in conventional reactors, and closure of the fuel cycle in fast 
reactors. Note: the middle step can be eliminated and still attain the 
waste management benefits; inclusion of the middle step is a fuel cycle 
system-level consideration.
    The first step, using advanced separations technologies, allows for 
the separations and subsequent management of high-purity product 
streams. These streams are:

    <bullet>  Uranium, which can be stored for future use or disposed 
of as low-level waste.

    <bullet>  A mixture of plutonium and neptunium, which is intended 
for partial recycle in conventional reactors, followed by recycle in 
fast reactors.

    <bullet>  Separated fission products intended for short-term 
storage, possibly for transmutation, and for long-term disposal in 
specialized waste forms.

    <bullet>  The minor actinides (americium and curium) for 
transmutation in fast reactors.

    The advanced separations approach has several advantages:

    <bullet>  It produces minimal liquid waste forms and eliminates the 
issue of the ``waste tank farms.''

    <bullet>  Through advanced monitoring, simulation, and modeling, it 
provides significant opportunities to detect misuse and diversion of 
weapons-usable materials.

    <bullet>  It provides the opportunity for significant cost 
reduction.

    <bullet>  Finally, and most importantly, it provides the critical 
first step in managing all hazardous elements present in the used 
nuclear fuel.

    The second step--partial recycle in conventional reactors--can 
expand the opportunities offered by the conventional mixed-oxide 
approach. In particular, it is expected that, with significant R&D 
effort, new fuel forms can be developed that could burn up to 50% of 
the plutonium and neptunium present in used nuclear fuel. Some studies 
also suggest that it might be possible to recycle fuel in these 
reactors many times--i.e., reprocess and recycle the irradiated 
advanced fuel--and further destroy plutonium and neptunium; other 
studies also suggest possibilities for transmuting americium in these 
reactors. Nevertheless, the practicality of these schemes is not yet 
established and requires additional scientific and engineering 
research. The advantage of the second step is that it reduces the 
overall cost of the closed fuel cycle by consuming plutonium in 
conventional reactors, thereby reducing the number of fast reactors 
needed to complete the transmutation mission of minimizing hazardous 
waste. As mentioned above, this step can be entirely bypassed, and all 
transmutation performed in advanced fast reactors, if recycle in 
conventional reactors is judged to be undesirable.
    The third step, closure of the fuel cycle using fast reactors to 
transmute the fuel constituents into much less hazardous elements, and 
advanced reprocessing technologies to recycle the fast reactor fuel, 
constitutes the ultimate step in realizing sustainable nuclear energy. 
This process will effectively destroy the transuranic elements, 
resulting in waste forms that contain only a very small fraction of the 
transuranics (less than 1%) and all fission products. These 
technologies are now being developed in the U.S. at Argonne National 
Laboratory and Idaho National Laboratory, with parallel development 
internationally (e.g., Japan, France, and Russia).
    Several disadvantages have been noted for a closed fuel cycle, 
including:

    <bullet>  Increased cost. (Note that, in practice, closed fuel 
cycle processes actually would have limited economic impact; the 
increase in the cost of electricity would be less than 10%.)

    <bullet>  Expected increased generation of low-level waste, 
although this increase might be addressed successfully through improved 
technologies.

    <bullet>  Management of potentially weapons-usable materials may be 
viewed as a proliferation risk.

    These disadvantages can be addressed through a robust research, 
development, and demonstration program focused on advanced reactors and 
recycling options. In the end, the full recycle approach has 
significant benefits:

    <bullet>  It can more effectively utilize repository space.

    <bullet>  It can effectively increase the use of natural uranium.

    <bullet>  It eliminates the uncontrolled buildup of isotopes that 
are a proliferation risk.

    <bullet>  An advanced reactor and associated processing plant can 
be deployed in small co-located facilities that minimize the risk of 
material diversion during transportation.

    <bullet>  A fast reactor does not require the use of very pure, 
weapons-usable materials, thus decreasing proliferation risk.

    <bullet>  Finally, full recycle can usher the way towards full 
sustainability to prepare for a future time when uranium supplies may 
become increasingly difficult to obtain.

    In summary, the overarching challenge associated with the choice of 
any fuel cycle option is used nuclear fuel management. While geologic 
repositories will be needed for any type of nuclear fuel cycle, a 
closed fuel cycle would result in very different use of a repository. 
For reprocessing to be beneficial (as opposed to counterproductive), it 
must be followed by recycling, transmutation, and destruction of the 
long-lived radiotoxic constituents (i.e., plutonium, neptunium, 
americium). Reprocessing (with PUREX) followed by thermal-recycling 
(mixed-oxide [MOX] fuel in light water reactors [LWRs]) is well 
established, but is only a partial solution. It is not at all clear 
that the United States should embark on this path, especially since we 
have not made a large investment in a PUREX/MOX infrastructure. (N.B. 
The U.S. is proceeding with a plan to reduce excess-weapons plutonium 
inventory using MOX in LWRs.) In contrast, advancement of fast reactor 
technology for transuranic recycling and consumption would maximize the 
benefits of waste management and also allow essential progress toward 
the longer-term goal of sustainable use of uranium (and subsequently 
thorium) with fast reactors. These differences illustrate the 
importance of integrating advanced fuel cycle technology research and 
development into any national plan to address nuclear waste management.
    As we approach this subject, we also must remember that, while 
there is no urgent need to deploy recycling today, a once-through fuel 
cycle will not be sustainable if global nuclear energy generation 
increases substantially. To maximize the benefits of nuclear energy in 
an expanding nuclear energy future, it will be necessary to close the 
fuel cycle.

Detailed Discussion

Argonne National Laboratory

    Located 25 miles southwest of Chicago, Argonne National Laboratory 
is a direct descendant of the University of Chicago's Metallurgical 
Laboratory, where Enrico Fermi and his colleagues created the world's 
first controlled nuclear chain reaction. Appropriately, Argonne's first 
mission 64 years ago was to develop nuclear reactors for peaceful 
purposes. Managed by the UChicago Argonne, LLC for the U.S. Department 
of Energy, Argonne has grown into a multidisciplinary laboratory with a 
unique mix of world-class scientists and engineers and leading-edge 
user facilities, working to create new technologies that address the 
most important scientific and societal needs of our nation.
    Argonne's experience over many years of research and development in 
the advancement of nuclear energy positions it as a leader in the 
development of future generation reactors and fuel cycle technologies. 
A primary goal of Argonne's nuclear energy research program is to 
advance the sustainable use of nuclear energy through research and 
development of technologies that enable waste minimization, enhanced 
resource utilization, competitive economics, and increased assurance of 
reliability, safety, and security. Expertise in reactor physics, 
nuclear and chemical engineering, computational science and 
engineering, and fuel cycle analysis is applied in the assessment and 
conceptual development of advanced nuclear energy systems that meet 
these important goals.
    In collaboration with other DOE laboratories and universities, 
Argonne is advancing a science- and simulation-based approach for 
optimizing the design of advanced nuclear energy systems and assuring 
their safety and security. This approach seeks increased understanding 
of physical phenomena governing system behavior and incorporates this 
understanding in improved models for predicting system performance in 
operating and off-normal situations. Once validated, these models allow 
the simulation and optimization of system design and operation, to 
enhance safety assurance and cost competitiveness with alternative 
energy supply options. They also promise to accelerate the 
demonstration of commercially attractive systems in partnership with 
industry.
    Primarily, the DOE's Office of Nuclear Energy (DOE-NE), through its 
Fuel Cycle Research and Development program, supports Argonne's waste 
management and reprocessing research and development activities. The 
objective of Argonne's research in this area is to develop and evaluate 
separations and treatment processes for used nuclear fuel that will 
enable the transition from the current open fuel cycle practiced in the 
U.S. to a sustainable, environmentally acceptable, and economic closed 
fuel cycle.
    Our research focuses on the science and technology of chemical 
separations for the treatment of used fuel from both commercial and 
advanced nuclear reactors, used fuel characterization techniques, and 
waste form engineering and qualification. Ongoing projects related to 
reprocessing and waste management include:

    <bullet>  Using advanced modeling and simulation coupled with 
experiments to optimize the design and operation of separations 
equipment.

    <bullet>  Exploring an innovative one-step extraction process for 
americium and curium, radionuclides that are major contributors to 
nuclear waste toxicity, to reduce the cost of used-fuel treatment.

    <bullet>  Further developing pyrochemical processes for used fuel 
treatment. These processes enable the use of compact equipment and 
facilities, treatment of used fuel shortly after discharge from a 
reactor, and reduction of secondary waste generation.

    <bullet>  Developing highly durable and leach-resistant waste forms 
of metal, glass, and ceramic composition for safe, long-term disposal.

    In addition, Argonne's nuclear science and engineering expertise 
utilizes theory, experiment, and modeling and simulation in the 
assessment and conceptual development of innovative, advanced reactors 
operating with a variety of coolants, fuel types, and fuel cycle 
schemes. Argonne also leads U.S. development of innovative technologies 
that promise to reduce the cost of fast-neutron reactors and increase 
their reliability. These technologies include high-performance fuels 
and materials; compact, low-cost components for the heat transport 
systems; advanced power conversion and refueling systems; and improved 
capabilities for in-service inspection and repair.
    Argonne's research into the behavior of irradiated fuels and 
materials supports the U.S. Nuclear Regulatory Commission (NRC) in the 
regulation of industry initiatives to extend the operational lifetime 
and optimize the operation of existing and evolutionary nuclear 
reactors. Leading-edge systems analysis and modeling capabilities are 
used to assess the relative merits of different advanced nuclear energy 
systems and fuel cycles for various domestic and global scenarios of 
energy demand and supply consistent with environmental constraints and 
sustainability considerations. Argonne also has expertise in the 
components of nuclear technology that are critical for national 
security and nonproliferation, including the conversion of research 
reactors to low-enrichment fuels, technology export control, risk and 
vulnerability assessments, and national-security information systems.

Current Nuclear Waste Reprocessing Technologies

PUREX

    As discussed above, current commercial used nuclear fuel 
reprocessing technologies are based on the PUREX process, a solvent 
extraction process that separates uranium and plutonium and directs the 
remaining minor actinides (neptunium, americium, and curium) along with 
all of the fission products to vitrified waste. The PUREX process has 
over 50 years of operational experience. For example, the La Hague 
reprocessing facility in France treats used fuel from domestic and 
foreign power reactors. The plutonium recovered is recycled as a mixed-
oxide fuel to generate additional electricity. This technology is also 
used for commercial applications in the United Kingdom and Japan.
    There are a number of drawbacks to the PUREX system. PUREX does not 
recover the minor actinides (neptunium, americium, curium, and heavier 
actinide elements), which compose a significant fraction of the long-
term radiotoxicity of used fuel. Advanced reactors can transmute and 
consume minor actinides if they are separated from other fission 
product elements, but incorporation of minor actinide separations into 
existing PUREX facilities adds complexity and is outside commercial 
operating experience. Moreover, existing international facilities do 
not capture fission gases and tritium; these are discharged to the 
environment within regulatory limits. Although plutonium is recycled as 
mixed oxide fuel, this practice actually increases the net discharge of 
minor actinides. Finally, the production of pure plutonium through 
PUREX raises concerns about materials security and proliferation of 
nuclear weapons-usable materials.

PYROPROCESSING

    Pyroprocessing is currently being used at the Idaho National 
Laboratory to treat and stabilize used fuel from the decommissioned 
EBR-II reactor. The key separation step, electrorefining, recovers 
uranium (the bulk of the used fuel) in a single compact process 
operation. Ceramic and metallic waste forms, for active metal and noble 
metal fission products respectively, are being produced and have been 
qualified for disposal in a geologic repository. However, the 
demonstration equipment used for this treatment campaign has limited 
scalability. Argonne has developed conceptual designs of scalable, 
high-throughput equipment as well as an integrated facility, but to 
date only a prototype advanced scalable electrorefiner has been 
fabricated and successfully tested.

Advanced Reprocessing Technologies

    Research on advanced reprocessing technologies focuses on processes 
that meet U.S. non-proliferation objectives and enable the economic 
recycling of long-lived actinides in used fuel, while reducing the 
amount and radiotoxicity of high-level wastes that must be disposed. 
Main areas of research include:

    <bullet>  Aqueous-based Process Design--Current studies target the 
simplification of aqueous processes that can recover the long-lived 
actinides as a group in one or two steps.

    <bullet>  Pyrochemical-based Process Design--Present work is 
focused on development of scalable, high-throughput equipment and 
refining our understanding of the fundamental electrochemical process. 
We are targeting greater control of the composition of the recovered 
uranium/transuranic alloy, which will facilitate safeguards consistent 
with U.S. non-proliferation goals.

    <bullet>  Off-gas Treatment--Environmental regulations limiting the 
release of gaseous fission products require the development of 
materials that will efficiently capture and retain volatile fission 
products. Because these volatile fission products are generally 
difficult to retain, development of novel materials with strong 
affinities for specific fission products is essential.

    <bullet>  Product/Waste Fabrication--This development effort 
includes concentrating the product streams and recovery/recycle of 
process fluids, solidification of products for both waste form and fuel 
fabrication/recycle. The products must meet stringent requirements as 
nuclear fuel feedstocks or must be suitable for waste form fabrication.

    <bullet>  Process Monitoring and Control--Advanced computational 
techniques are being developed to assess and reduce uncertainties in 
processing operations within a plant. Such uncertainties in design, in 
processing, and in measurements significantly increase costs through 
increased needs for large design margins, material control and 
accounting, and product rework.

    <bullet>  Sampling Technologies--The tracking of materials is 
critical to the safeguarding and operational control of recycle 
processes. Improving the accuracy of real-time measurements is a major 
goal for material accountancy and control. Reducing the turnaround time 
for analysis by applying state-of-the-art sampling and analytical 
techniques will enable ``on-line'' material accountancy in real time. 
Advanced spectroscopic techniques are under study to reduce gaps in our 
ability to identify key species at key locations within a plant.

Impact on Future Nuclear Waste Management Policy

    The BRC draft report details possible solutions for the ultimate 
disposal of used nuclear fuel in the United States. To be most 
effective, these efforts should proceed in parallel with advances in 
used fuel processing and recycling, to ensure development of a fully 
integrated policy for nuclear waste management in the United States--
one that is consistent with our energy security, nonproliferation, and 
environmental protection goals.
    As previously noted, high-level waste disposal facilities are 
required for all fuel cycles, but the volumes and characteristics of 
the wastes generated by these fuel cycles are different. A cohesive 
waste classification system will be needed to define the facilities 
required to support waste disposal. Currently, the United States relies 
on an ad hoc system based on point of origin to address management of 
specific wastes. The result is a complex dual waste categorization 
system, one for defense wastes and another for civilian wastes. This 
approach has resulted in high disposition costs, nuclear waste with no 
disposition pathways, limited disposition sites, and a system that will 
be difficult to align with any alternative fuel cycle that is adopted. 
Without a consistent waste classification system, it is impossible to 
compare waste management costs and risks for different fuel cycles 
without making arbitrary assumptions regarding theoretical disposition 
pathways.
    The International Atomic Energy Agency (IAEA) recommends a risk-
based classification system that accounts for the intensity of the 
radiation and the time needed for decay to an acceptable level. The 
intensity of radiation is given by a range of radioactivity per unit of 
weight. Decay time is split into short lived (<30 years) and long lived 
(>30 years). The IAEA system does not consider the source of nuclear 
waste in either categorization or disposition options. The result is a 
simple, consistent, standardized system.
    The question of waste categorization is yet another example of why 
reprocessing technologies should be fully considered in any discussions 
about disposal options and long-term waste management policies. 
Alternative technologies will have different economies of scale based 
on the type and number of wastes. In addition, waste packages may be 
retrievable or not, and waste forms should be tailored to the 
repository site geology. Given the need to craft the most cost-
effective solution, it would be a missed opportunity to approach the 
question of long-term disposition without developing a congruent 
approach to the fuel cycle.

An Effective Fuel Cycle Strategy Going Forward

    Argonne believes that advanced recycle processes and waste 
management technologies should be developed and demonstrated at 
engineering scale during the next few decades. To enable an effective 
research and development strategy, the development of advanced fuel 
treatment technologies and waste forms must be closely coordinated with 
R&D on:

    <bullet>  Advanced fuels and interim storage strategies for current 
light water reactors (LWRs), as these affect the requirements on 
reprocessing and waste technologies. Research on advanced fuels for 
light water reactors is one of the proposed thrusts of the DOE-NE Light 
Water Reactor Sustainability program.

    <bullet>  Advanced reactors such as liquid metal and gas-cooled 
``Generation IV'' reactors, which employ different fuel types and thus 
discharge used fuel that is very different from that of LWRs. Advanced 
fast spectrum reactors can efficiently consume the residual actinides 
in used nuclear fuel, effectively converting these actinides to 
electricity instead of discharging them as waste.

Recommendations

    As part of our long-term strategy for nuclear waste management, the 
United States should conduct an advanced nuclear fuel cycle research, 
development, and demonstration program to evaluate recycling and 
transmutation technologies that minimize proliferation risks and 
environmental, public health, and safety impacts. This would provide a 
necessary option to reprocessing technologies deployed today, and 
supports evaluation of alternative national strategies for commercial 
used nuclear fuel disposition, effective utilization and deployment of 
advanced reactor concepts, and eventual development of a permanent 
geologic repository(s). This should be done as part of robust public-
private partnerships involving the Department of Energy, its national 
laboratories, universities, and industry, and conducted with a sense of 
urgency and purpose consistent with the U.S. retaining its intellectual 
capital and leadership in the international nuclear energy community.
    Over the next several years, the research, development, and 
demonstration program should:

    <bullet>  Complete the development and testing of a completely 
integrated process flow sheet for all steps involved in an advanced 
nuclear fuel recycling process.

    <bullet>  Characterize the byproducts and waste streams resulting 
from all steps in the advanced nuclear fuel recycling process.

    <bullet>  Conduct research and development on advanced reactor 
concepts and transmutation technologies that consume recycled 
byproducts resulting in improved resource utilization and reduced 
radiotoxicity of waste streams.

    <bullet>  Develop waste treatment processes, advanced waste forms, 
and designs for disposal facilities for the resultant byproducts and 
waste streams characterized.

    <bullet>  Develop and design integrated safeguards and security 
measures for advanced nuclear fuel recycling processes that enable the 
quantification and minimization of proliferation risks associated with 
deploying such processes and facilities.

    <bullet>  Evaluate and define the required test and experimental 
facilities needed to execute the program.

    Upon completion of sufficient technical progress, the program 
should:

    <bullet>  Develop a generic environmental impact statement for 
technologies to be further developed and demonstrated.

    <bullet>  Conduct design and engineering work sufficient to develop 
firm cost estimates with respect to development and deployment of 
advanced nuclear fuel recycling processes.

    <bullet>  Cooperate with the NRC in making DOE facilities available 
for carrying out independent, confirmatory research as part of the 
licensing process.

    Argonne supports a greater emphasis on coupling the science-based 
approach for system development with an active design and technology 
demonstration effort that would guide and appropriately focus R&D, and 
thus enable assessment of programmatic benefits in a holistic manner. 
This would be accomplished by close cooperation of DOE, national 
laboratories, universities, and industry. The overall approach would 
seek to:

    <bullet>  Increase understanding of the diverse physical phenomena 
underlying reactor and fuel cycle system behavior.

    <bullet>  Improve ability to predict system behavior through 
validated modeling and simulation for design, licensing; and operation.

    <bullet>  Develop advanced materials, processes, and designs for 
reactor and fuel cycle systems through application of scientific 
discoveries and advanced modeling and simulation capabilities, as well 
as the insights and lessons learned from past nuclear energy 
development programs.

    These efforts would allow for fuel cycle demonstration in a time 
frame that could influence the course of fuel cycle technology 
commercialization on a global basis. Moreover, each of the individual 
elements of the planned R&D (e.g., separations, waste forms, 
transmutation fuels) is potentially vast in scope and could absorb 
substantial resources, without commensurate benefit, if the different 
areas are not sufficiently integrated for the results to fit together 
in a viable system.
    It is clear that the United States must address significant 
hurdles, both in policy and in technology, as we seek effective 
solutions to the pressing question of used nuclear fuel management. We 
can expect success only if we can craft a consistent national policy 
that includes substantial support for a robust advanced fuel cycle 
research and development program, to be carried out through strong 
public-private partnerships involving the Department of Energy (DOE), 
its national laboratories, universities, and industry. This program 
must be focused on outcomes and closely integrated with storage and 
disposal efforts. It also must support evaluation of alternative 
national strategies for commercial used nuclear fuel disposition in 
close conjunction with ongoing efforts to site and develop a permanent 
geologic repository(s). Ultimately, this program must lead to down-
selection, demonstration, and deployment of effective advanced fuel 
cycle technologies. Only through a reasoned plan for research, 
development, and deployment can we expect to reach a wise, workable 
decision on a preferred fuel cycle technology that will enable safe and 
sustainable expansion of the U.S. nuclear fleet.

    Chairman Broun. Thank you, Dr. Peters. I thank the panel 
for you all's testimony. Reminding members that Committee rules 
limit questioning to five minutes, the Chair at this point will 
open the first round of questions. The Chair recognizes himself 
for five minutes.
    Mr. McLeod, in your opinion, does the demand of the 
Secretary of Energy that BRC exclude Yucca in its deliberations 
detract from its ability to develop the best possible 
recommendations for nuclear waste management?
    Mr. McLeod. Yes, sir, Congressman, we do. We believe that 
is fact. We also believe that they could--we know eventually 
there is going to have to be another repository as well. We can 
move first with Yucca Mountain and then start work on the 
second one, and as I stated in our testimony, the written 
testimony, we also believe that maybe one of the missing 
recommendations from this report is where is the recommendation 
to utilize Yucca Mountain.
    Chairman Broun. Very good. Thank you.
    Dr. Swift, please summarize the scientific evaluation of 
Yucca Mountain that you led for Sandia and the Department of 
Energy. How many years was the site studied? Can you describe 
some of the issues considered--hydrology, seismic activity, the 
robustness of engineering barriers--and what was found? 
Ultimately, what was concluded regarding the site's suitability 
and its ability to meet NRC safety recommendations and 
requirements?
    Dr. Swift. Thank you. Certainly. The site was studied from 
the early 1980s until the time the license application was 
submitted. Work continued after the submittal of the license 
application in response to questions received from the NRC. 
Just in terms of the--one way to look at it is the volume of 
the work, the page count. The application is about 8,000 pages, 
8,600. You know, there are 196 documents that went with it. 
These were not simple documents. These were thick technical 
reports, maybe 50,000, 60,000 pages total. The types of topics 
that were addressed, from a technical point of view, we saw our 
responsibility to evaluate essentially everything that was 
potentially relevant, so we catalogued what might happen, 
potentially relevant things, and including things that were on 
the face of them probably not relevant but for completeness 
there they were--changes in sea level, the effects of future 
changes in sea level, for example, effects of erosion at the 
land surface well above where the waste would be buried, 
seismic effects, the effects of possible volcanism at the site. 
Each of these ends up with a detailed technical analysis, 
specialists focusing on it, sometimes for years.
    The other processes, groundwater flow, transport of 
radionuclides in the groundwater away from the site, the way 
radionuclides might be taken up in the biosphere through 
potential pathways for human exposure in the future, the 
treatment of uncertainty that Professor Kasperson mentioned, 
and all of this we did attempt to estimate the range of 
uncertainty in our knowledge understanding of those physical 
processes, and that would be incorporated into what I refer to 
as an estimate, not a prediction of the future. It is an 
estimate based on our understanding of the uncertainty.
    And I think you asked for the conclusions of it. Again, as 
I said in my testimony, we concluded with good confidence that 
the site would perform well, that it would meet the NRC and EPA 
requirements, that the two things, the primary measures that 
the regulations judge on would be the releases from the site 
into groundwater and potential doses to humans. Those are both 
well below regulatory limits.
    Chairman Broun. Very good, sir. Thank you.
    Mr. Hollis, the State of Nevada currently opposes the 
repository at Yucca Mountain. You were very clear that your 
local community does ardently support it being there. One of 
the primary recommendations from the draft, the Blue Ribbon 
Commission report, was that any repository should have local 
support. Why does Nevada oppose the Yucca Mountain project yet 
your county favors it, and how do you define consent-based 
siting and local support?
    Mr. Hollis. Mr. Chairman, I think one of the big things is 
people calling it a dump. If you go out and ask people, do you 
favor a radioactive site, that it is a dump, you are going to 
get no, I don't want it. If you were to ask them, do you want a 
repository to keep the radioactive source safe, you will 
probably get a yes. Most people keep their money in banks. 
Banks are a repository. That is what this facility is, a 
repository to keep something safe.
    And as far as the consent basis program, the Blue Ribbon 
Commission didn't answer any question. What if a State doesn't 
or no State wants the repository? That is the reason Congress 
had a provision in there that the Congress would vote on it 
after a disapproval by the State.
    Chairman Broun. Very good. My time is expired.
    Now I recognize the Ranking Member Tonko for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Kasperson, could you briefly tell us about the role of 
politics in the 1987 decision to designate Yucca Mountain as a 
permanent repository for waste?
    Dr. Kasperson. The history of radioactive waste management 
not only in the United States but elsewhere has indicated that 
it has never been a purely scientific process anywhere as far 
as I know, and there has always been a mixture of politics and 
science and interaction between the two, in particular, a 1987, 
a concern that I think went through the scientific community as 
well as people in Nevada. By the way, I also don't like the 
terminology of calling a repository a dump, but I don't think 
we fix the problem by changing the name.
    Anyhow, in the case of the 1987 amendments, what happened 
in effect was that although a commitment had been made in the 
original Nuclear Waste Policy Act to have a competitive 
process, if you will, about characterizing the technical 
qualities and quality assurance and risks associated with 
sites, a decision was made basically to make the choice prior 
to the scientific work being completed, and that was a major 
problem in a loss of social trust and in polarizing the local 
people of Nevada. There have been other issues like this, for 
example, in the Nuclear Waste Policy Act of fairness. Actually, 
Congress, I think, tried very hard on--in that legislation to 
achieve fairness of process, and subsequently the President 
simply eliminated the eastern repository as basically a 
political move, I think, primarily because of the dangers that 
were represented and the election going on at that time.
    Mr. Tonko. Now, even if the geology and the climate, for 
instance, were perfect or are perfect, which some dispute, 
Yucca has been a political failure with, you know, then-
Presidential candidate Senator Obama promising to close it. 
Now, leading Republican candidates for the Presidency are 
making that same sort of pledge, and we hear about the vast 
number of Nevadans who oppose, you know, hosting that 
repository. Are there any lessons that you can cite for us, Dr. 
Kasperson, from the failure that can be used to guide future 
siting processes?
    Dr. Kasperson. Well, let me indicate one example. I spent 
some time in Sweden earlier, in the early years of this 
century, and had some contact with their process there, and the 
Swedes really take a rather different approach than we have 
taken, and I think it is a lesson from both the process going 
on in Sweden and a lesson from Yucca Mountain that if you 
really rely upon coercion rather than on trying to achieve a 
high degree of voluntary consent, you are going to find 
yourself in a war with local States, and I think a number of us 
wrote in the 1980s that we already had learned enough about 
radioactive waste management to know that if you had to deal 
with trying to coerce an unwilling State with an active and 
talented Attorney General, you were going to have a major 
problem in winning over consent, and the polarization that has 
happened in Nevada is, I think, a good lesson that we ought to 
try to do more of what the Swedes have done of achieving a high 
degree of voluntary consent, taking things off the agenda that 
local people are concerned about and moving that whole process 
along, greasing the wheels rather than producing the backs up 
of local people.
    Mr. Tonko. I yield back.
    Chairman Broun. Thank you, Mr. Tonko.
    Now I recognize my fellow Subcommittee Chairman, Dr. 
Harris, for five minutes.
    Mr. Harris. Thank you very much, Mr. Chairman.
    I want to get back to, you know, talking about the science 
of Yucca Mountain. We have spent, as I said in my opening 
statement, billions of dollars, many of years studying it, and 
all the science that we are aware of right now says that the 
nuclear waste can be stored there safely, but much of that 
scientific effort and data is being blocked from public view 
because the NRC simply refuses to release the safety reports 
that scientists prepared and refuses to complete its review of 
the Yucca Mountain license application. In fact, Chairman Hall, 
Dr. Broun and myself have sent multiple letters to the NRC 
demanding release of this information and action on the 
license.
    I want to ask the panel, and begin with Mr. Spencer, how 
important is it for the NRC to finalize and release its 
scientific reviews of the site, that is, the safety evaluation 
reports? Can any of you think of any reason why you would want 
to withhold any of that from the public, stonewall this, and 
what does the continued suppression of those reports mean with 
respect to the scientific integrity goals and guidelines that 
this Administration, you know, to their credit regularly talk 
about but, you know, I would like to actually see it in action? 
So, Mr. Spencer.
    Mr. Spencer. As I testified today and I have written 
extensively on in the past, I think it is absolutely critical 
that all that information be made available if for no other 
reason, notwithstanding whether we ever build the repository or 
not, to allow us all to make the most informed decisions 
possible about Yucca Mountain. In addition to that, the fact 
is, we have spent as a country $15 billion characterizing that 
project. There simply is no good reason not to allow all the 
information relevant to that project be shown the light of day 
so that we can make our determinations on that.
    Mr. Harris. Thank you.
    Dr. Swift, any reasons you can think of not to do it?
    Dr. Swift. I want to thank you for the question. I want to 
emphasize the importance of the role of the regulator in this 
process. I asserted earlier that I believe the site meets those 
regulations. The test of that is when a regulator makes that 
finding. I as a scientist don't actually make a decision here. 
I inform a decision, and we do have a process here which 
decision is up to the regulator, a lengthy and detailed process 
to be followed. Yes, I see value in following that process.
    Mr. Harris. Mr. McLeod?
    Mr. McLeod. I will give a short answer. Yes, they should 
release the report.
    Mr. Harris. No reason you can think of where we should hide 
any of that from the public?
    Mr. McLeod. No reason.
    Mr. Harris. Okay. Dr. Peters?
    Dr. Peters. Yes, I would agree. I would like to see it 
released. The reason I would also like to see it released is 
because regardless of whether we move forward with Yucca 
Mountain, we have to develop a repository, so there is a 
tremendous amount to learn from understanding what----
    Mr. Harris. What we have done so far.
    Dr. Peters. What we have done so far and what the regulator 
said about the license application.
    Mr. Harris. Thank you.
    Let me just ask two other very short questions. One is, is 
that, you know, Dr. Kasperson, I appreciate your point about, 
you know, coercion versus voluntary consent. That is important. 
But right next to you is Mr. Hollis. I mean, he lives in the 
area. His family drinks the water, breathes the air, and he is 
here, he doesn't look coerced to me. So I am going to ask you, 
Mr. Hollis, you know, according to your testimony, you have--
Nye County has done some scientific investigation, according to 
your written testimony, and based on that, I mean, do you need 
to be coerced or are you, you know, looking at the data, 
looking at what the county itself looked at, you want to be 
neighbors with this facility?
    Mr. Hollis. Absolutely. We have had a really good 
relationship with the Department of Energy until about two 
years ago, three years ago, then they started cutting down the 
program. The cooperation kind of went blank. And they don't 
talk to us much anymore.
    Mr. Harris. But your testimony is that the county most 
affected and the people most affected, and it will never be 
everyone but they want this to go forward, at least to complete 
the investigation?
    Mr. Hollis. Absolutely. I have--I don't get calls on Yucca 
Mountain. I get more phone calls on dogs and cats than I do----
    Mr. Harris. I appreciate that, being a local elected 
official. I appreciate that.
    Dr. Swift, I just want to ask you one question, because I 
understand the DOE has asked Sandia to begin review of deep 
borehole methods versus other methods of disposal. Could you 
just briefly discuss the advantage and disadvantage of the deep 
borehole methods, and then of course whether or not--because 
one of the conditions that is supposed to be retrievable is 
whether or not that is accomplishable with a deep borehole 
method.
    Dr. Swift. With respect to that last point first, if 
permanent disposal is not what you intend, a deep borehole 
probably is not the preferred option. There are ways to 
retrieve things out of a deep borehole. The oil industry, for 
example, can retrieve things from quite surprising depths out 
of a hole. But no, you are making it harder on yourself there.
    The premise of the concept is, you drill a relatively large 
diameter hole, say a half a meter in diameter, to maybe a five-
kilometer depth into bedrock, crystalline bedrock, and you use 
the lower two kilometers of the hole for disposal and that 
gives you a very long column to seal it. It is a very long 
transport pathway for radioactive material to come back out. 
The premise is straightforward. The technology is within reach 
now. It is there now to implement it. There is work to be done 
to demonstrate that seal technology would work, that the 
permeability of bedrock at that depth is as low as we think it 
is. There is work to be done.
    Mr. Harris. And just out of curiosity, and I know I am a 
little over time, about how many of these boreholes would you 
need for the current nuclear waste we have? It seems like you 
would need a lot. Any idea?
    Dr. Swift. Yes, we looked at that. Without reconsolidating 
waste and just taking the fuel assemblies as they exist today, 
the entire projected inventory from the current fleet of 104 
commercial reactors would fit in under--probably under 1,000 
boreholes.
    Mr. Harris. Okay. Thank you very much.
    I yield back.
    Chairman Broun. Thank you, Dr. Harris.
    The Chair now recognizes Mr. Miller for five minutes.
    Mr. Miller. Thank you.
    Dr. Kasperson, I had the experience a couple years ago of 
living through a proposal to locate a facility in my district 
that initially everyone was for, and by the time it was done, 
hardly anyone was for it. It was a biological research center. 
It was to move the Plum Island facility from Plum Island. 
Supposedly, the decision to site it there in the first place 
was always completely political. There was a provision written 
into the law that required that it be on an island, supposedly 
to contain foot-and-mouth disease but supposedly that was 
always just to make sure it went to Plum Island and had no 
scientific basis. Initially everyone saw it as research, great 
jobs with all four of the county commissioners of that county 
was for it, everybody nearby was for it. NC State was for it, 
Duke was for it, Carolina was for it, everybody was for it. 
Over the course of several public hearings, all public support 
for it in Granville County deteriorated, and eventually the 
county commissioners reversed their positions, and at that 
point I reversed my position from having supported local 
government's desire to bring it into their county to not 
supporting bringing the facility to a county in my district 
that did not want it.
    How would the NBAF--it was called NBAF, that is an acronym 
for something--how did bringing--how did the siting decision 
for NBAF compare to the Yucca Mountain decision? Are you 
familiar with both processes?
    Dr. Kasperson. No, I am really not, but I might make one 
observation, that we have been looking with interest on the 
siting of wind energy facilities in the United States, and 
everybody agrees in principle. At first, everybody favors it, 
and they agree in principle that wind energy is a fairly benign 
energy source as compared with nuclear and coal and so forth. 
But we also know that in many of these cases what starts--what 
you are seeing in that particular facility is something that 
occurs in many places, that people start off very positive 
about it. As they learn more and as issues are raised about it 
and risks get onto the agenda and become discussed, that 
people's fears and concerns tend to take over in the process, 
and many of these situations end up with people quite negative, 
and I think it has become really difficult for hazardous 
facilities, hazardous industrial facilities and energy 
facilities very generally, even when they are as benign as wind 
energy and solar units, for example, to site any of those 
things, and the Cape Wind case, which you may be familiar with, 
is a good illustration of this where there has been a 10-year 
fight about establishing offshore wind turbines.
    Mr. Miller. Mr. Hollis, you testified that there is support 
in your county that would actually be the--the Yucca Mountain 
facility would actually be in your county and that folks in 
your county do support it, see it as bringing jobs, economic 
activity, and as I said in my opening statement, though, this 
high-level nuclear waste, although there are concerns enough 
about keeping it someplace safely for 10,000 years, you have 
got to get it there first and it will not magically appear at 
Yucca Mountain, and all the rail lines, all of the roads that 
it would likely travel through, on to get to your county, to 
the Yucca Mountain facility, go through Las Vegas, and what is 
the population of your county and what is the population of Las 
Vegas, and would there be any jobs associated with having high-
level nuclear waste coming through Las Vegas on roads or on 
rail?
    Mr. Hollis. Well, I have shipments of waste going to the 
test site pretty much every day, and none of that waste goes 
through Las Vegas. All of it goes around Las Vegas into Nye 
County and to the test site.
    Mr. Miller. Okay. My understanding is that 80,000 shipments 
a year would go through Clark County, through Las Vegas.
    Mr. Hollis. Far as I know, none of the shipments would go 
through downtown Las Vegas.
    Mr. Miller. Downtown Las Vegas. How about Clark County?
    Mr. Hollis. There might be a few shipments that would come 
in from down and towards California but far as I know, all of 
it--well, there might be some coming across a little piece of 
Clark County going into Lincoln County, but most of it would go 
around Clark County.
    Mr. Miller. Why is Clark County designated as an affected 
area?
    Mr. Hollis. Well, I think it is an affected area. We used 
it as affected local units of government because it was 
designated at one time to have transportation. But there has 
never been any transportation that I know of nuclear waste 
going through Clark County. All the nuclear waste comes through 
Nye County, and I get it from every which way, no matter if it 
comes east, west, north or south. It has to go though Nye 
County.
    Chairman Broun. The gentleman's time is expired. I now--the 
Chairman now recognizes Ms. Biggert for five minutes.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I wish that this wasn't kind of a getaway 
date because I think this is a very important hearing, and we 
really could spend a lot more time, I think, than we have 
today.
    Dr. Peters, I have been at Argonne, and since I have been 
in Congress, we have gone through electrometallurgic process, 
we have gone through the pyro process, we have gone through the 
reprocessing, and now we are talking about recycling, and so I 
would like to know what you recommend for the next stage for 
the advanced nuclear fuel cycle R&D program.
    Dr. Peters. I think DOE, Department of Energy's, nuclear 
energy program has a lot of the right priorities set in place, 
so we have an R&D program that is developing advanced fuels for 
transmutation and fast reactors. There is fast reactor R&D 
going on. There is also work on materials for reactors and also 
bench-top experiments on electrometallurgical or pyro 
processing as well as aqueous reprocessing of spent fuel, so 
there has been tremendous research done. Resources are being 
provided. That needs to continue. As I said in my testimony, my 
plea would be to take that to try to start to develop some 
down-selection and actual demonstration of some of these 
technologies at the pilot scale. Take it out of the lab and 
start to demonstrate at the pilot scale working with 
industries. Even by the end of this decade would be optimal.
    Mrs. Biggert. You know, we really tried to jumpstart with 
GNEP and several programs and it just--it just seems to be 
stalled. Wouldn't it make a difference if we had the closed 
nuclear fuel--the closed reactor to be able to then recycle and 
recycle and recycle so that we don't have the waste that 
really--if we were to put the waste into some repository like 
Yucca Mountain, it would fill up with all the nuclear waste 
that we have right now, and it seems like before we really, you 
know, make such a site, that really to get the advanced fuel 
cycle recycling going would really be a benefit to how we are 
going to deal with this waste.
    Dr. Peters. Yes, I agree. I agree, Mrs. Biggert. I think 
closing the fuel cycle will have a variety of benefits. It will 
reduce the volume and the toxicity of the waste. As I said 
before, there is still a repository required, but you could 
design a repository in a much different way if you close the 
fuel cycle. All that would go there is fission product waste. 
And you can also optimize the real estate that you take up in a 
repository, Yucca Mountain or any other repository. You are 
also reusing the actinides in the uranium to make additional 
electricity, so it is a more sustainable approach. The research 
that we are doing is to try to make it more economic and also 
reduce the amount of waste that is produced from those 
processes, but I firmly believe that if you grow nuclear, 
closing the fuel cycle is the right path, but we have got to--
if I may, I would actually like to go back briefly to the 
question about boreholes because it is a systems question.
    I would argue, it may not make sense to put spent fuel down 
a borehole, but it may make sense to put process waste down a 
borehole, so you have got to think about this whole thing as a 
system. The repository has to work with whatever fuel cycle you 
decide to do.
    And back to your point about the GNEP program, I think we--
I would like to think we learned from that, and I think we did 
premature down-select in that case. I think we need to do a 
much more rigorous job of doing the R&D and having a 
transparent selection process that would allow us to down-
select.
    Mrs. Biggert. And a demonstration?
    Dr. Peters. Right, into a demonstration. I agree.
    Mrs. Biggert. Thank you.
    Mr. McLeod, you seem to be----
    Mr. McLeod. I wanted to say that we would love to see the 
R&D done at the H Canyon at the Savannah River Site, which is 
one of the few facilities that could do that research and 
development.
    Mrs. Biggert. I might fight for Argonne, but we could do it 
more than one place.
    Thank you. I yield back.
    Mr. McLeod. We would be glad to share.
    Chairman Broun. Thank you, Ms. Biggert.
    The Chair now recognizes Mr. McNerney for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    This is an important and serious topic, and I am getting 
the feeling, or I got the feeling, that the majority party here 
is using at least in part this topic as an opportunity to bash 
the Obama Administration. So we are going down a political path 
that we don't need to go down, and I would rather talk about 
this in terms of issues that are going to help us solve the 
problem.
    As a graduate student at the University of New Mexico, I 
studied--I worked on a fault tree analysis for the Waste 
Isolation Pilot Project. So I have some scientific 
understanding of the issue, and my opinion is that deep 
geologic sequestration is a good approach and it can work, but 
I agree wholeheartedly with Dr. Kasperson that public trust and 
public acceptance is absolutely essential. We are not going to 
get this solved unless we have the public trust. Lawsuits are 
going to hold up everything. And, you know, I do appreciate the 
comments of Mr. Spencer that--or at least the approach that we 
think about using a method that will gain public acceptance. It 
is just that going to the private sector and letting them take 
care of it is not going to really engender public acceptance, 
and in fact, it would require an enormous amount of federal 
oversight and then there is also profits involved, so I think 
it would end up costing more and getting less done, so that is 
why I would not favor that particular approach.
    But I do think that you start out, Mr. Spencer, with very 
inflammatory language when you said the Obama anti-Yucca 
policy, and again, when you use that language, shutters close 
and people are going to react in a negative way, so my 
recommendation is to take a less inflammatory approach to this 
if you want to get your idea across. That is just a 
recommendation that I give to you personally.
    Now, I wanted to ask Dr. Swift, I thank you for your 
testimony and I wanted to ask you personally, do you think that 
there is other alternatives to the Yucca Mountain that would be 
technically feasible?
    Dr. Swift. Yes, I do.
    Mr. McNerney. I mean, one of the things that struck me here 
is, I think that nuclear waste has potential value in the 
future, and drilling a hole down there five kilometers and just 
dumping material waste and then closing it up, it is not going 
to be a repository, it is going to be a dump. Nuclear waste 
needs to be carefully stored and safely stored and monitored 
with the idea, in my opinion, that a withdrawal sometime in the 
future will be necessary. So I can't say that I like that 
approach very well. That isn't what is being done at the Waste 
Isolation Pilot Plant, is it?
    Dr. Swift. The--on your last point there, the Waste 
Isolation Pilot Plant does not have waste that has any 
particular recycling value to it.
    Mr. McNerney. Right.
    Dr. Swift. It would not be easy to recover waste out of it 
but it would be feasible, and that is actually a regulatory 
description of the situation. You would mine back through the 
salt and extract the salt and the waste at the same time. It 
can be done.
    In terms of other viable alternatives, for those that are 
fully retrievable at all times, actually Yucca Mountain was an 
excellent--that was one of the strongest features of Yucca 
Mountain because of its location above the water table in dry 
rock. Retrievability is fairly straightforward there. But other 
disposal options, the Swedish granite repository concept also 
being employed in Finland, being developed there. The French 
are looking and the Belgians and the Swiss are looking at 
disposal in clay formations. The Germans are looking at 
disposal in salt formations. These are concepts that are 
potentially viable in this country also as alternatives to 
Yucca Mountain.
    Mr. McNerney. How is the--what is the current plan for 
encasing the actual high-level waste? Is it encased in--not in 
barrels obviously but in glass formations or something before 
it----
    Dr. Swift. It----
    Mr. McNerney [continuing]. Can be sent downstairs?
    Dr. Swift. It depends on the environment you would want to 
put it into. You would want to choose a metal canister that was 
as corrosion-resistant, as long-lived as possible in the 
environment you were putting it in. So for example, in 
chemically reducing environments such as deep granites or 
clays, copper is a metal of choice. It is very stable in a 
reducing environment. In Yucca Mountain, where it is an 
oxidizing environment, the choice was a nickel-molybdenum-
chromium-based alloy called alloy 22 that was as corrosion-
resistant in that environment as we could come up with.
    Mr. McNerney. Well, I guess my final words are that we need 
to have public buy-in on this, and using inflammatory language 
isn't going to help that happen.
    Chairman Broun. Thank you, Mr. McNerney.
    The Chair now recognizes Mr. Rohrabacher for five minutes.
    Mr. Rohrabacher. Thank you very much, and I am very happy 
to hear Mr. McNerney admonish people for using--politicizing 
science and using harsh language. I guess when George Bush was 
in, that never happened. The other side never did that when 
Bush was in. I just want to make that clear for the record, 
that that only happens now.
    Let me just note that when you find yourself--this is a 
truism that I have learned. When you find yourself in a hole 
that you don't want to be in, you should quit digging. That is 
a truism. And in this case, it sounds like to me what we have 
done is we have a Blue Ribbon Commission who is supposed to 
come up with our alternative or a vision of what we are going 
to be doing with nuclear waste, and they can't get out of their 
mind the idea of digging a hole, and what I have seen here and 
what I am listening to is that it sounds like new technologies 
are not being addressed. What is being addressed is digging the 
hole. Can we dig the shafts this deep or whatever, whatever. 
You know, this--talk about old think. This is the ultimate old 
think, and here we were supposed to have a Blue Ribbon 
Commission that was going to give us a vision of what we would 
do in the future, and it has all been based on only what has 
been happening in the past. The Blue Ribbon Commission seems, 
from what I am understanding, what I can see here as well as 
from what I have heard, is that they have been negative or even 
hostile to looking into new concepts, for example, gas-cooled 
reactors, thorium reactors, or fast reactors, and their 
interest in small modular reactors seems to stop right at, let 
us say, the water's edge, meaning that they are only interested 
in looking at water-cooled reactors.
    What I don't understand is, we have several very prominent 
scientific and very, very responsible companies that are 
involved with development of technologies that have told us 
there are other alternatives than water-cooled reactors and 
they have done the science. One of them is General Atomics, who 
has a great track record. And we have many people talking about 
small modular reactors. We have many people talking about these 
pebble-based reactors, pebble base for fuel. All of these 
things offer a tremendous alternative to digging a hole and 
letting it sit there for thousands of years. I am shocked to 
hear that we have spent $15 billion on digging a hole in Yucca 
Mountain but we haven't been able to come up with the money 
necessary to build a prototype of one of these reactors that 
would go a long way in reducing the challenge of nuclear waste. 
Am I wrong that these new reactors do offer a promise in the 
future of reducing the amount of nuclear waste that we would 
face? Dr. Peters?
    Dr. Peters. No, you are not wrong, but I would emphasize 
the word ``promising.'' If I may, a lot of what you are 
referring to, the fast reactor technology has been demonstrated 
in the United States and worldwide so it could be--if there was 
a market for a fast reactor in the United States, we could 
develop that relatively quickly.
    Mr. Rohrabacher. The market? Where is the market for $15 
billion to dig a hole in the desert?
    Dr. Peters. But----
    Mr. Rohrabacher. I mean, there is a market for the fact 
that we would be creating electricity and there would be less 
nuclear waste left over here.
    Mr. Chairman, this is--what we have here is an example. If 
you put the people in the electronics industry who only could 
think about building the huge computers of the past, you know, 
they used to build them as big as this room, and then you got 
them to say well, can we--is there any solutions that we might 
have by building a small computer or maybe there could be a 
computer the size of your telephone. They wouldn't know what 
you were talking about.
    There are some visionaries in this country that can help us 
solve the problem of nuclear waste, and we aren't even building 
the prototypes and moving forward on the prototypes to see if 
they are actually correct, but the people who are advocating 
this are very high-quality scientists and engineers and people 
in the private sector. I would suggest that this hearing, 
while--and the Blue Ribbon Commission, while they have focused 
on what was--what they could have focused on in the 1970s 
should be focusing on a vision for the better future based on 
technologies that can change our reality, and until we do that, 
I am just afraid that we are--$15 billion. We are going to 
waste another $15 billion?
    Thank you very much, Mr. Chairman.
    Dr. Peters. Mr. Chairman, may I real quick, very quickly 
respond?
    Chairman Broun. Very quickly.
    Dr. Peters. I guess I just wanted to--I mean, I don't want 
to disagree. I want to agree with everything that you said, but 
a lot of the promising ones that you are referring to are on 
paper at this point so we need to go do the research and the 
prototyping to----
    Mr. Rohrabacher. Yeah, but they were put on paper by 
prominent scientists and people who have built nuclear power 
plants and people who are--we are not saying Dana Rohrabacher 
put it on paper.
    Dr. Peters. No, but we----
    Mr. Rohrabacher. Some really prominent people put it on 
paper.
    Dr. Peters. We need to make the investment to do it.
    Mr. Rohrabacher. Albert Einstein put something on paper and 
he ended up helping us usher us into this nuclear world.
    Chairman Broun. Thank you, Mr. Rohrabacher.
    Before we close, I would like to enter in the record by 
unanimous consent a number of documents previously exchanged 
with the Minority. Without objection, so ordered.
    [The information may be found in Appendix 2.]
    Chairman Broun. This hearing has allowed the Subcommittees 
to hear expert outside opinions about the BRC draft report. For 
the record and in response to comments by the minority at the 
outset, the Committee was in contact with the BRC prior to the 
hearing at which time that they indicated it would be premature 
to participate as their report is still in draft form and they 
are continuing to accept public comment. We will certainly 
continue to work with the BRC as they finalize their report and 
we will likely have an opportunity to hear from the BRC after 
they finalize their report.
    I want to thank the witnesses for you all's valuable 
testimony and the members for you all's questions. The members 
of the Subcommittee may have additional questions for you all, 
and we ask for you to respond to those in writing, and please 
do it quickly. The record will remain open for two weeks for 
additional comments from members.
    The witnesses are now excused and the hearing is now 
adjourned, and I thank you all very much.
    [Whereupon, at 12:43 p.m., the Subcommittees were 
adjourned.]

                   Answers to Post-Hearing Questions


Responses by Mr. Jack Spencer, Research Fellow,
Nuclear Energy Policy, Heritage Foundation

Questions Submitted by Representative Paul C. Broun, Chairman, 
                    Subcommittee on Investigations and Oversight

Q1.  Do you believe the demand of the Secretary of Energy that the Blue 
Ribbon Commission exclude consideration of Yucca Mountain as the site 
for a permanent geological repository in its deliberation detract from 
its ability to develop the best possible recommendation for nuclear 
waste management?

A1.  I absolutely believe that the demand by the Secretary of Energy to 
exclude any consideration of Yucca Mountain from the Blue Ribbon 
Commission on America's Nuclear Future detracted from the Commission's 
ability to develop the best possible answer. As the Blue Ribbon 
Commission (BRC) stated in its draft report, the Nation will need a 
geologic repository regardless of what other technologies are brought 
to bear for the disposition of high-level commercial nuclear waste. 
Further, the BRC's establishing document demands that it consider 
``all'' options for nuclear waste disposal.
    Given both its findings and its charge, reason would dictate that 
the BRC be free to consider the Yucca location. After all, federal 
statue names the site as the Nation's nuclear waste repository and the 
Nation's taxpayers and electricity rate payers have invested over $15 
billion in it so far. Thus, demanding that the BRC not even consider 
the Yucca project undermines the credibility of the entire BRC's draft 
findings. If it ignores the facility that most clearly meets the 
conditions that the BRC has determined are necessary for any nuclear 
waste solution, one must question the legitimacy of the remainder of 
its findings.
    Giving the BRC the freedom to actually fulfill its charge by 
considering ``all'' options would not have necessarily been an overt 
endorsement of Yucca Mountain. The BRC could have acknowledged the 
political controversy surrounding the project and even recommended that 
a new site be found. At a minimum, it should have recommended that the 
Nuclear Regulatory Commission complete its review of the Department of 
Energy's application to construct the repository and that all 
information relevant to that review be made public, including the 
entire Safety Evolution Report.
    However, denying the BRC the ability to even consider Yucca 
represents a major shortfall in the Commission's analysis.

Q2.  How important it is for the Nuclear Regulatory Commission to 
finalize and release its comprehensive technical reviews of the site 
(known and the ``Safety Evaluation Reports'')? Are there any drawbacks 
from completing the technical review of Yucca Mountain?

A2.  The Nuclear Regulatory Commission must release all information 
pertaining to the Yucca application. Regardless of whether or not the 
Yucca repository is ever built, the application contains critical 
analysis that is relevant to future repository activities. Though the 
information in the application is public, whether or not the NRC deemed 
the analysis provided by the Department of Energy sufficient to move 
forward with the project is not. Understanding how the NRC staff 
approached this analysis is critical to future repository applications.
    Further, regardless of President Obama's current policy to abandon 
the Yucca project, the Nuclear Waste Policy Act of 1982, as amended, 
clearly states that Yucca Mountain shall be the site of the Nation's 
nuclear waste repository. The legality of the President's policy is 
currently being determined by the court system. Should the courts find 
DOE's attempt to withdraw the Yucca application to be illegal, then one 
would presume that the Yucca project would move forward. By releasing 
all data and analysis relevant to the Yucca application, the NRC would 
ensure that it could pick up its application review where it stopped. 
Just as important, the public would have access to this critical data, 
which would help them also to ensure that the NRC is picking up where 
it left off, as opposed to starting over or purposefully dragging its 
feet on the process.
    Even if the courts were to determine that the DOE could withdraw 
the application, there is a possibility that the Yucca project could 
move forward at some future point under other circumstances. In that 
situation, all data regarding the NRC's review of the application would 
be critical.
    Finally, the public deserves to know what the NRC staff thought 
about the Yucca project. The public has invested too much money for the 
government to not provide an answer to the whether Yucca could have 
been built safely. This is especially true given that many in the 
public base their opposition to the repository on the belief that it is 
not safe. Should the NRC determine it is not safe, then the NRC should 
show clear, science-based analysis as to why it is not safe, allowing 
the nation to then move beyond Yucca. However, if it is deemed safe by 
the NRC, then the public can have an open and transparent debate on the 
project's merits.

Q2a.  What might the continued suppression of this technical 
information mean with respect to the scientific integrity goals and 
guidelines that the President regularly touts?

A2a.  Continuing to suppress this critical data seems to contradict 
President Obama's scientific integrity objectives. Indeed, whether one 
is discussing climate change policy, policies regarding access to 
America's vital natural resources, or nuclear waste policy, it seems 
that the President's policies often do not respect science-based 
analysis. The fact is that whether the issue is building the XL 
Pipeline, drilling for oil and natural gas off America's shores, or 
building the waste repository at Yucca Mountain, the science says one 
thing while the President's policies and actions seems to convey 
another.

Q3.  You recommend that an entity other than the government have title 
over nuclear waste. Assuming that an entity could be created to 
accomplish this, what types of federal guarantees would be needed for 
the entity to operate in the long term? What sort of liability 
protections would be necessary? Do you believe the Federal Government 
has a role in providing liability protections to such an entity?

A3.  I recommend that nuclear waste producers be responsible for 
managing their own waste. They are best positioned to determine whether 
waste should be recycled, reprocessed, placed in a repository, or some 
combination thereof. Government management of commercial activities 
does not work. The outcomes are the same each time it is attempted. 
Despite the best intentions of politicians and bureaucrats, they are 
not capable of planning the best combination of activities and 
investments to yield an efficient and economically sustainable 
commercial activity. There are simply too many variables to consider. 
Ultimately, nuclear waste management is a commercial activity. It is 
part of the process, often referred to as the nuclear fuel cycle, 
necessary to produce useable energy from natural uranium. And just like 
other parts of the nuclear fuel cycle have been successfully run by the 
private sector over the past decades, so too must nuclear waste 
management.
    Instead of relying on politicians and bureaucrats to centrally 
manage the system, which has been a demonstrable failure, subjecting 
nuclear waste management to the powers of the market would yield real 
solutions. Ultimately, those that stand to profit from the production 
of waste have the greatest incentive to develop sound, safe, and 
economically sustainable solutions. Indeed, the private sector would 
even have the incentive, just as it has the ability, to develop 
commercial uses for spent nuclear fuel that have not been thought of 
before.
    This does not mean, however, that the private sector should take 
title of the final disposed waste. Given the long-lived nature of 
nuclear waste, the Federal Government should take ultimate title of 
whatever ends up in a repository once the repository is decommissioned. 
In essence, the waste producers would be responsible for getting the 
waste from the reactor to the repository.
    The repository should be privately operated as well. By allowing 
the repository to be privately operated and setting a specific price 
for emplacing waste, the nuclear industry could decide how best to 
manage its waste.
    Imagine that the repository operator sets a price to emplace waste 
based on a formula that considers waste volume, heat load, and 
toxicity. A reactor operator would know that it costs ``X'' amount of 
dollars to place a certain amount of waste in the repository based on 
that formula. It could then decide how to manage its waste based on 
that price. Perhaps placing it in interim storage to allow the heat 
load and radio toxicity to dissipate, thus resulting in reduced 
repository emplacement costs would make sense. If so, this would create 
a demand for interim storage, which a company could provide. It might 
make sense to reprocess the fuel as well. There is any number of 
combinations of services that could be brought to bear. The important 
thing is that the market would help guide investment towards that which 
makes the most sense. Because the waste producers would be responsible, 
they would pursue those options in the market place.
    Privatizing nuclear waste management, however, does not remove the 
role of government. The Federal Government's role would be the same as 
it is for the rest of the nuclear industry. It would set strict safety 
guidelines and enforce them through the regulatory process. I would not 
recommend that any federal guarantees be made. My view is that nuclear 
energy only makes sense if it can be done economically. I believe that 
it can be. But the only way to really find out is to subject the entire 
industry to the market. In fact, I believe that the best way to 
maximize its economic benefit is through market-based policies. 
Alternatively, the quickest way to ensure that the United States never 
realizes the full benefit of nuclear energy is for a major sector of 
the industry to be controlled by the Federal Government.
    That said, there is a limited role for liability protection until 
the United States creates a better system that allows businesses to 
operate without the fear of being subject to frivolous lawsuits. I 
believe that nuclear waste management activities should fall under 
Price-Anderson as do other commercial nuclear activities. However, I 
also believe that the Price-Anderson should not be extended beyond 
2025, the current date it is set to expire. For this to happen, 
however, the U.S. must engage in regulatory, nuclear waste policy, and 
liability reforms that would allow the commercial nuclear industry to 
prepare for a post-Price-Anderson environment.

Questions Submitted by Representative Randy Neugebauer, Subcommittee on 
                    Energy and Environment

Q1.  In your testimony, you mentioned the importance of transferring 
nuclear waste disposal responsibility to the private sector. How can we 
ensure that the private sector will be willing to take the risks 
associated with nuclear waste disposal, as well as the regulatory 
concerns that will inevitably continue at the local, state, and 
national level?

A1.  We do not know with certainty that the private sector will take on 
these risks, but I believe that they will. We do know that the nuclear 
industry already engages in all other parts of the fuel cycle in order 
to produce and sell electricity. It mines the uranium, going thousands 
of feet underground to retrieve the valuable ore. It takes that ore and 
mills it into yellowcake, which is then enriched so that the uranium 
can be fabricated into fuel pellets. These pellets are then placed into 
bundles that ultimately fuel the reactors. The private sector then 
takes this used fuel, stores it in cooling pools, and then moves it 
into dry casks where it is being safely stored indefinitely. We have 
seen the private nuclear industry safely and profitably engage in every 
step of the fuel cycle, except for waste management.
    That has not always been the case. The Federal Government was at 
one time responsible for all parts of the nuclear fuel cycle. Most of 
these have been privatized over time. Most recently, in the late 1990s 
the nation privatized the uranium enrichment industry, and today the 
United States enjoys a robust, technologically modern, and private 
enrichment industry. That is the case across the board in nuclear 
energy. As government steps back, industry steps up. Consider the 
extremely high efficiency at which American power plants operate today. 
American nuclear power plants operate at over a 90 percent capacity 
factor. This feat was not a function of government intervention. It was 
the result of private nuclear plant operators responding to the market 
and figuring out how to maximize their profits, which ultimately 
benefits ratepayers.
    Even nuclear waste management has benefited from private ingenuity. 
The Federal Government decided in 1976 that it would not reprocess used 
commercial nuclear fuel, and the 1982 Nuclear Waste Policy Act, as 
amended, places the responsibility for nuclear waste management with 
the Federal Government. It was determined during that time that all 
nuclear waste would be placed in geologic storage. Nearly three decades 
later, having not implemented any solution for nuclear waste 
management, President Obama created the Blue Ribbon Commission on 
America's Nuclear Future to come up with an alternative strategy for 
disposing of America's nuclear waste. Essentially, they determined 
again that nuclear waste be placed in geologic storage. In three 
decades, the Federal Government has made zero technological progress on 
nuclear waste management.
    Quite a different story exists in the private sector. Each nuclear 
power plant was built with a spent fuel pool in which to house the 
spent fuel when it is removed from the reactor. The initial thinking 
was that the fuel would spend roughly five or so years in the pools 
until it got moved to some other facility--either for burial or some 
other process. The pools were sized to meet this requirement. Over 
time, however, the pools began to fill up since the Federal Government 
never collected any of the fuel. This created a dilemma for the private 
utilities. They either had to figure out a way to store additional fuel 
or stop operating. So they did what the private sector always does if 
they want to stay in business: innovate.
    The nuclear industry developed two methods to allow it to store 
more fuel. First, it developed a technique call re-racking, which 
allowed them to safely place more fuel into the pools than they were 
originally designed to hold by placing newer fuel next to older fuel. 
But more impressively, they developed dry cask storage options. Since 
the Federal Government was not coming to pick the fuel up, private 
industry figured out a way to safely store the fuel outside of the 
pools on dry casks. This innovation is allowing America's nuclear power 
plants to operate despite the Federal Government's failures.
    The nuclear industry has demonstrated time and again that it can 
solve most any problem. The flaw of the current system is that nuclear 
waste is a government problem. Solving nuclear waste could be 
accomplished by making it an industry problem.

Q2.  Most scientists agree that we need long-term storage of nuclear 
waste. Our experiences with Yucca Mountain highlight the political 
difficulties locally, statewide, and nationwide in accomplishing such 
an objective. How can we build local consensus anywhere in the country 
to accept long-term storage of nuclear wastes?

A2.  Building a local consensus to accept long-term storage can be 
accomplished. However, the Federal Government cannot do it. The fact is 
that no local community will want to negotiate with the Federal 
Government. It has proven to be an untrustworthy partner. The better 
approach is to allow industry to negotiate directly with local 
communities and for them to rely on the force of law through negotiated 
contracts to be the guarantor of terms. Further, it is critical that 
the local communities be in control of the negotiations. It is not fair 
if the Federal Government comes in and states that it is going to do 
something either way. That is not a negotiation. That is subjugation. 
The private sector does a very good job at working with local 
communities to site major projects, and it could do the same for a 
nuclear materials repository.
    Consider Yucca as an example. Under the current process, as 
dictated by the Nuclear Waste Policy Act, as amended, the Federal 
Government owns and operates the facility and predetermines that Yucca 
Mountain, Nevada, is the location. The negotiation was never really a 
negotiation at all. It was the Federal Government stating what was 
going to happen and trying to force the Nevadans to accept it.
    A better approach would be to transfer all of the permits and 
regulatory authorities to construct and operate the Yucca facility away 
from the Federal Government and to some entity that represented Nevadan 
interests. It could be the state of Nevada, a Nevada-based non-profit 
or even a Nevada-based business. Once those permits were in hand, then 
that entity could negotiate directly with the nuclear industry the 
terms that would be acceptable. This approach places all parties on 
equal ground and would allow for an actual negotiation that could yield 
a positive outcome.
    The government role in such a system would be to provide regulatory 
predictability and integrity. In essence, the private sector should be 
permitted to carry out whatever waste management activities that it 
deems appropriate if it meets local, state and federal regulatory and 
safety standards.

Question Submitted by Representative Sandy Adams, Subcommittee on 
                    Investigations and Oversight

Q1.  Ratepayers in my state alone have contributed over $800 million to 
the Nuclear Waste Fund to date. While the used fuel is currently being 
held safely onsite by our utilities, doing so constitutes an additional 
economic burden. With the Administration pulling the plug on Yucca 
Mountain for political, not scientific, reasons, and no realistic 
alternative in place, why should my constituents continue to have to 
pay into the Waste Fund?

A1.  Your constituents should not have to pay into the Nuclear Waste 
Fund. The Federal Government has collected over $30 billion (principal 
and interest) since the Nuclear Waste Policy Act, as amended became 
law. While competently collecting this money, the Federal Government 
has completely failed in its obligation to dispose of nuclear waste. 
Since the Federal Government has provided no nuclear waste disposal 
services, it is unclear why electricity rate payers should be compelled 
to continue paying the nuclear waste fee. At a minimum, rate payers 
should be relieved of this fee until the Federal Government instates a 
reliable nuclear waste disposal policy. Unfortunately, this seems to be 
beyond the Federal Government's capability. That is why the focus of 
any solution should not be on reforming how the nuclear waste fee is 
collected but rather on repealing the fee altogether. This would 
eliminate the Federal Government from the nuclear waste business by 
allowing the utilities to directly finance nuclear waste management and 
disposal activities.
    While the blame for the Nation's lack of a feasible nuclear waste 
policy lies squarely on the Federal Government's shoulders, the 
solution should come from the private sector.
    Unfortunately, that is not what the Blue Ribbon Commission on 
America's Nuclear Future recommends. The draft recommendations that we 
discussed during this hearing would do little, if anything, to change 
the underlying flaws of the current system. Thus, the same problems 
plaguing nuclear waste management today will ultimately resurface. That 
is because the Federal Government remains responsible for nuclear waste 
management under the BRC's recommendations. This is a flawed approach. 
Central government planning of commercial activities does not work. A 
better approach would be to put waste producers in charge of their own 
waste.
    Under such a system, your constituents would no longer pay any fee 
to the Federal Government. Instead, the cost of waste management would 
be folded into the price of nuclear-generated electricity. This would 
allow the nuclear utilities to build business models around the entire 
fuel cycle. Currently, they need only consider fueling the reactors and 
operating them, because the government takes responsibility for dealing 
with the waste. The problem with this system is that waste management 
is critical part of the nuclear fuel cycle. By giving that 
responsibility to the waste producers, the utilities would then seek 
the most cost-effective means to manage and dispose of the waste. This 
market-based approach would not only ensure that solutions were 
developed, since the utilities would need to dispose of their waste to 
keep operating their reactors, but it would ensure that the solutions 
made the most economic sense.
    This is in direct opposition to the current system, which misaligns 
incentives, authorities, and responsibilities. Currently, the Federal 
Government has no real incentive, despite the force of law, to develop 
any solution whatsoever, as evidenced by decades of incompetence on the 
issue. And further, even if it were to find a solution, there is no 
incentive for the Federal Government to operate economically. Placing 
waste producers in charge of their own waste management would fix both 
problems.
    That does not relieve the Federal Government of any responsibility. 
It would set strict regulatory guidelines and enforce them, for 
example. In essence, it would treat nuclear waste management activities 
the same as it does the rest of the nuclear industry.
Responses by Dr. Peter Swift, Distinguished Member,
of the Technical Staff, Sandia National Laboratory

Questions Submitted by Representative Paul C. Broun, Chairman, 
                    Subcommittee on Investigations and Oversight

Q1.  Currently, two sets of federal regulatory standards for high-level 
radioactive waste repositories exist, one specifically developed for 
Yucca Mountain and another that would apply to all other sites. Which 
of these two standards is more stringent?

A1.  Background: Each of the two existing sets of federal regulations 
that govern permanent disposal of high-level radioactive waste is 
consistent with the legal framework defined in the Nuclear Waste Policy 
Act, and each set includes overall safety standards set by the U.S. 
Environmental Protection Agency (EPA) and implementing criteria defined 
by the U.S. Nuclear Regulatory Commission (NRC). One set, including 
EPA`s 40 CFR part 197 and NRC`s 10 CFR part 63, was written in the past 
15 years specifically for the proposed Yucca Mountain repository, and 
would not apply to any other disposal concept without new rulemaking 
activities. The other set, EPA`s 40 CFR part 191 and NRC`s 10 CFR part 
60, date from the middle 1980s, prior to the decision to focus solely 
on Yucca Mountain, and, in the absence of new rulemaking, would still 
apply in principle to any disposal concept other than Yucca Mountain.
    The older regulations, framed by the EPA in 40 CFR part 191, 
defined the regulatory period to be 10,000 years and set quantitative 
limits for scenarios that include all release pathways on the 
probability that the total amount of radiation released during the 
entire period would exceed specified values, rather than on the peak 
release in any single year. These regulations also tied the magnitude 
of the allowable release to the amount of waste emplaced in the 
repository: allowable releases were smaller for smaller repositories 
and larger for larger repositories. Consequences of inadvertent human 
intrusion by drilling were required to be included in the probabilistic 
compliance analysis. For the Waste Isolation Pilot Plant (WIPP), which 
is the only repository operating under 40 CFR part 191, the approach to 
estimating the density of future drilling was specified by the EPA in 
the implementing criteria (40 CFR part 194.33).
    The newer regulations, framed by the EPA in 40 CFR part 197, are 
based on and consistent with guidance from the National Academy of 
Sciences (National Research Council, 1995) and were written 
specifically for Yucca Mountain. These regulations focus on the long-
term annual dose from a repository and, following resolution of legal 
challenges, set limits on the peak dose allowable in any one year 
during the next one million years. (The period of one million years is 
consistent with the National Academy`s guidance indicating that the 
period of geologic stability at Yucca Mountain is on the order of one 
million years.) There is no provision for scaling the allowable release 
to the size of the repository: the peak dose limits apply regardless of 
the amount of waste emplaced at the site. Human intrusion is required 
to be considered separately from overall performance in a stylized 
analysis, and releases directly to the land surface during drilling 
were excluded from consideration.
    Response: Both sets of regulations are highly protective of future 
human health and the environment, and it is not useful to attempt to 
determine which is more stringent during the 10,000-year period 
required by the older set of regulations. The Yucca Mountain standards 
apply for 1,000,000 years, and can therefore be viewed as being more 
stringent during the longer time period. However, I agree with the Blue 
Ribbon Commission`s caution relevant to requirements for quantitative 
standards that apply for one million years: ``the Commission believes 
that over-reliance on million-year calculations can reduce credibility 
rather than enhance it. As the IAEA has warned: `Care needs to be 
exercised in using the criteria beyond the time where the uncertainties 
become so large that the criteria may no longer serve as a reasonable 
basis for decision making` '' (BRC 2010, p. 103; IAEA 2006).

Q1a.  If Yucca Mountain has the more stringent regulatory standards, do 
you believe the government should abandon it to pursue an unknown 
repository with less robust thresholds?

A1a.  While I do not believe that the government should abandon Yucca 
Mountain to pursue an unknown repository, I also do not believe that 
the existing standards that would apply to other repositories would 
necessarily be less protective of human health and the environment. In 
addition, I concur with the conclusion in the draft report of the Blue 
Ribbon Commission that ``the generic regulations that would currently 
apply to all other sites will need to be revisited and revised in any 
case'' (BRC 2011, p. 98). The NRC staff has come to the same 
conclusion, indicating in public presentations that they intend to 
update or replace 10 CFR part 60 prior to licensing disposal at 
locations other than Yucca Mountain (e.g., Kokajko, 2011). I believe it 
is unlikely that any alternative repository would be subject to 
significantly less protective standards than those applied to Yucca 
Mountain.

Q2.  Knowing how long Yucca Mountain was studied, do you anticipate a 
similar timeline to establish confidence in the safety of a 
consolidated interim storage facility? What would you estimate such an 
evaluation to cost?

A2.  I believe technical issues associated with demonstrating the 
safety of a consolidated interim storage facility could be addressed 
with substantially less time than was required for Yucca Mountain. It 
is relevant in this regard to note that there are currently 63 
independent spent fuel storage installations (ISFSIs) licensed by the 
NRC under 10 CFR part 72. Most of these facilities are located at 
existing nuclear power plants, and none store as much spent fuel as 
would be present at a consolidated interim storage facility, but the 
existing record indicates that both the nuclear industry and the NRC 
have substantial experience in constructing, licensing, and operating 
storage facilities.
    There is one recent example of a consolidated interim storage 
facility in the U.S. that may be directly relevant to this question. 
The NRC issued a license in 2006 to Private Fuels Storage, LLC (PFS), 
to construct and operate a consolidated interim storage facility, in 
Skull Valley, Utah, 13 years after the Goshute Tribe first negotiated 
with the Department of Energy for an interim storage facility and nine 
years after PFS began the licensing process (NRC 2006). The license 
allows dry cask storage of up to 40,000 metric tons of spent nuclear 
fuel from commercial nuclear power plants. The license conditioned 
authorization to construct the facility on obtaining funding and 
necessary approvals from other agencies, including the Department of 
Interior. The Department of the Interior subsequently denied the PFS 
application to use rights-of-way across federal land and to lease 
tribal land (BLM 2006; BIA 2006). A federal court overturned the 
Department of Interior`s decisions in July 2010 (U.S. District Court 
2010), but the future of the facility remains uncertain despite a valid 
license from the NRC.
    Commenting on the total cost of licensing an interim storage 
facility is outside my area of expertise. The Government Accountability 
Office estimated in 2009 that the total cost of 100 years of 
centralized interim storage of 70,000 metric tons of spent nuclear fuel 
would be in the range of $12 billion to $20 billion and that the cost 
of 100 years of centralized storage for 153,000 metric tons would be in 
the range of $15 billion to $29 billion (GAO 2009, table 4).

Q3.  The Department of Energy has asked Sandia National Laboratory to 
begin review of a deep borehole method of disposal for high-level 
radioactive waste. Can you describe how a mined repository differs from 
a deep borehole? Please describe the primary advantages and 
disadvantages associated with the two types of repositories.

A3.  As proposed in the U.S. and internationally, mined repositories 
are generally 1,000 to 3,000 feet below the land surface, in a variety 
of geologic media including salt, clay or shale, granitic crystalline 
rocks (including high-grade metamorphic rocks), volcanic tuff, and 
limestone. Mined openings are large enough for access by both humans 
and heavy equipment, either by inclined ramps or hoists in vertical 
shafts. For waste that emits little gamma radiation, such as the 
transuranic waste disposed of at the Waste Isolation Pilot Plant, waste 
can be emplaced by human-operated equipment. For high-level waste and 
spent nuclear fuel, waste is packaged in robust containers, and 
emplacement is done by remotely-operated equipment. After waste 
containers and, in many disposal concepts, backfill are emplaced, 
access shafts and ramps are filled and sealed and the combination of 
engineered and natural barriers provides long-term isolation.
    As proposed in recent work on deep borehole disposal concepts 
(e.g., Gibb, 1999; MIT 2003; Brady et al., 2009; Arnold et al., 2011), 
disposal would occur within crystalline bedrock at substantially 
greater depths, between approximately 10,000 and 16,000 feet (3-5 
kilometers). Boreholes would be drilled so that they had a bottom-hole 
diameter of up to approximately 17 inches (0.43 m), depending on waste 
type and configuration. Although drilling for oil and gas routinely 
goes to much greater depths in sedimentary rocks that have the 
potential to produce hydrocarbons, this is a relatively large diameter 
for current drilling technology. However, as Arnold et al. (2009, p. 
19) state, ``there are no known technical issues that present 
unreasonable barriers to drilling to this diameter at depth.'' The 
stated diameter was chosen to allow emplacement of intact fuel 
assemblies from typical commercial reactors without disassembling or 
processing the spent fuel. If fuel is to be processed or consolidated 
before disposal, narrower diameter boreholes could be used. Holes would 
be lined with steel casing to facilitate emplacement operations. Spent 
nuclear fuel or high-level radioactive waste would be placed within 
containers of steel pipe and lowered down the hole by cable. The lower 
portion of the borehole (nominally the lower 2 km, or approximately the 
bottom 6500 feet) would be used for waste disposal, allowing 
emplacement of a very long (i.e., 3 km or approximately 10,000 feet) 
borehole seal, primarily of compacted clay and concrete.
    Advantages of mined repositories are that they rely on well-
understood mining technology, they have been studied in great detail 
for decades in disposal programs in the United States and other 
nations, and safety assessments for multiple repository concepts 
indicate they have the potential to provide excellent long-term 
isolation. The size of mined repositories allows for disposal of large 
volumes of spent nuclear fuel or high-level radioactive waste at a 
single location.
    Relatively less research has been done on deep borehole disposal 
concepts, and there are far fewer examples that can be called on to 
evaluate the long-term performance of the approach. Studies in the 
United States and other nations since the 1970s have concluded that the 
approach is feasible and has a high potential to provide essentially 
complete long-term isolation, but no full-scale demonstration projects, 
with or without radioactive waste, have been completed at the relevant 
depths. Potential advantages for the approach include the relative 
simplicity of the isolation concept, widespread availability of 
suitable geology, and modularity of construction.
    The deep borehole isolation concept relies primarily on the 
extremely low permeability of crystalline rocks at the greater depths 
proposed for waste disposal, where pressure from the overlying rock 
will tend to keep fractures closed. Clearly, the low permeability of 
rocks at that depth must be demonstrated, but this is something that 
can be measured directly in a borehole before waste is emplaced. If 
borehole tests show unexpectedly high permeability, or flowing water, 
or other unfavorable conditions at the disposal depths, the site can be 
abandoned before waste is emplaced. In the absence of open fractures, 
the primary pathway for radioactive material to get back to the near-
surface environment will be back up the borehole, where thousands of 
feet of compacted clay and concrete seals will provide an extremely 
effective and permanent barrier to flow.
    Fundamentally, deep boreholes have the potential to isolate 
radioactive waste much further away from the human environment than 
mined repositories, while minimizing the pathways for release. 
Potentially suitable rocks could be found in large portions of the 
continental United States, where old and stable crystalline bedrock is 
found within approximately one mile or less of the land surface. As a 
further benefit, rocks of this type and depth are unlikely to ever 
provide a source of natural resources that might encourage future 
drilling operations in the region.
    The modularity of borehole disposal provides another potential 
benefit. Boreholes can, in principle, be drilled on an as-needed basis, 
with less infrastructure than mined repositories. The benefit here may 
be greater for other nations with smaller quantities of spent nuclear 
fuel and high-level radioactive waste, but even in the United States, 
it is perhaps worth considering the flexibility introduced by a 
disposal option in which all of the spent fuel generated in the 60-year 
lifespan of a typical light-water reactor could be disposed of in 10 
(or fewer) deep boreholes, drilled and sealed as needed. Alternatively, 
the concept could be applied on a limited basis for a subset of high-
level waste forms, including, for example, fission product wastes 
already existing at the Hanford site in Washington State. A perhaps 
significant advantage associated with the modularity of the concept is 
the ability to make a decision to proceed or not with a specific site 
with the relatively modest investment required to make a pilot 
borehole.
    With respect to cost, Arnold et al. (2009, table 9) estimate costs 
for drilling a typical disposal borehole, emplacing waste, and sealing 
the hole to be on the order of 40 million dollars. Actual costs are 
uncertain, but this figure is competitive with, and potentially 
significantly less than, the costs associated with disposal of the same 
quantity of waste in a mined geologic repository.
    Disadvantages to deep borehole disposal fall into three main 
categories: the relative scarcity of research on crystalline rock 
properties at these depths; operational limitations caused by the 
narrow diameter of the borehole; and issues associated with 
retrievability of the waste. The first two are addressed here, and 
retrievability issues are addressed in the response to the following 
question.
    Scarcity of data on crystalline rock properties at depth is not 
surprising, given that most deep drilling has been done in sedimentary 
rocks that have the potential to produce oil and gas. Much of the data 
that are available for crystalline rock come from drilling done for 
geothermal research, where scientists and engineers have sought out 
deep rocks with both anomalously high temperatures and high 
permeabilities, neither of which would be desirable conditions for 
waste disposal. There is no reason to believe a priori that suitable 
low permeability rocks at depth will be exceptionally difficult to 
find, but further research, including field tests in instrumented 
boreholes, is needed to demonstrate the broad applicability of the 
concept.
    Operational limitations associated with the relatively narrow 
diameter of the borehole need to be acknowledged directly. Individual 
containers of existing borosilicate high-level radioactive waste (i.e., 
reprocessing waste currently stored at the Savannah River Site in South 
Carolina and at the West Valley site in western New York State) are too 
large to be emplaced in a deep borehole. The glass waste forms planned 
for the liquid wastes stored at the Hanford site will also be too 
large, as presently designed, for borehole disposal. Furthermore, 
essentially all spent nuclear fuel currently in dry storage would need 
to be repackaged in single-assembly canisters. (Repackaging of spent 
fuel currently in dry storage is likely to be needed for mined 
repository concepts also, because thermal constraints encourage 
disposal in smaller packages than are typical for storage; disposal 
packages could be larger in mined repositories than in boreholes, 
however.)

Q3a.  The Nuclear Waste Policy Act requires stored high-level waste to 
be retrievable. Do you believe storage of spent nuclear fuel in a deep 
borehole meets that definition?

A3a.  I believe deep borehole disposal concepts could be designed and 
operated to meet the retrievability requirements of the Nuclear Waste 
Policy Act. With that said, I also believe that deep geologic disposal, 
either in boreholes or in mined repositories, should not be undertaken 
if there is any foreseeable intent to retrieve the waste. Geologic 
disposal should be viewed as permanent, and not as a storage option 
that allows ready retrieval of the spent nuclear fuel.
    The requirement for retrievability in the Nuclear Waste Policy Act 
is as follows:

    <bullet>  Sec. 122. Notwithstanding any other provision of this 
subtitle, any repository constructed on a site approved under this 
subtitle shall be designed and constructed to permit the retrieval of 
any spent nuclear fuel placed in such repository, during an appropriate 
period of operation of the facility, for any reason pertaining to the 
public health and safety, or the environment, or for the purpose of 
permitting the recovery of the economically valuable contents of such 
spent fuel. The Secretary shall specify the appropriate period of 
retrievability with respect to any repository at the time of design of 
such repository, and such aspect of such repository shall be subject to 
approval or disapproval by the Commission as part of the construction 
authorization process under subsections (b) through (d) of section 114.

    As I understand the language of Section 122, the NWPA requires that 
it be possible to retrieve spent nuclear fuel during the operations of 
the repository. I believe a deep borehole repository could be designed 
such that it was possible to retrieve canisters of spent nuclear fuel 
as long as the borehole remained open and unsealed (i.e., during the 
period of operation) using essentially the same equipment that was used 
to emplace the canisters in the borehole. Looking beyond the 
operational-period requirements of the NWPA, however, I do not believe 
it is feasible to design a deep borehole repository such that canisters 
can reliably be retrieved intact after disposal operations have ended 
and the borehole is sealed. I believe techniques could be implemented 
using current drilling and solution mining technology that would 
recover some and perhaps most of the radioactive material in the spent 
nuclear fuel, but full retrievability of intact waste forms after a 
borehole has been sealed should not be viewed as a realistic option 
with today`s technology.
    The potential for recovering some portion of the wastes after the 
borehole has been sealed is relevant because the EPA expanded on the 
NWPA approach in 40 CFR part 191, by requiring that ``disposal systems 
shall be selected so that removal of most of the wastes is not 
precluded for a reasonable period after disposal'' (40 CFR 191.14(f)), 
where disposal is defined to occur when the repository is sealed. The 
NRC, on the other hand, stayed close to the language of the NWPA by 
requiring, at 10 CFR 60.111(b)(1), that ``the geologic repository 
operations area shall be designed so that any or all of the emplaced 
waste could be retrieved on a reasonable schedule starting at any time 
up to 50 years after waste emplacement operations are initiated, unless 
a different time period is specified by the Commission.''
    In 40 CFR part 197, specific to Yucca Mountain, the EPA defers to 
the NRC regulation: ``Because NRC`s proposed licensing criteria . . . 
contain requirements similar to the assurance requirements in 40 CFR 
part 191 . . . we believe it is unnecessary for us to include similar 
requirements in this rule'' (EPA 2001, 66 FR 32103). The NRC repeats 
its retrievability requirements from 10 CFR part 60 essentially 
unchanged at 10 CFR 63.111(e)(1).
    Because of the differences between the EPA`s requirement in 40 CFR 
191 that the majority of the waste must be removable for some period 
after a repository is sealed and the NRC`s emphasis on maintaining 
retrievability during operations, existing U.S. regulations provide 
ambiguous guidance for evaluating disposal concepts. Deep borehole 
concepts that might otherwise provide excellent long-term isolation of 
the waste might be challenged to meet removal and retrievability 
expectations under the current EPA or NRC regulations, depending on the 
interpretation of phrases such as ``most of the wastes'' and ``on a 
reasonable schedule.''
    Lastly, the potential difficulty of retrievability in deep borehole 
disposal can also be viewed as an advantage in preventing subsequent 
theft, diversion or sabotage of fissile material and helping to achieve 
nuclear nonproliferation and security objectives.

Questions Submitted by Representative Randy Neugebauer, Subcommittee on 
                    Energy and Environment

Q1.  What are the alternative, legitimately viable options for nuclear 
waste storage in the United States aside from Yucca Mountain? How do 
the benefits and drawbacks of those options compare to those of Yucca 
Mountain?

A1.  Under the Nuclear Waste Policy Act, as amended in 1987, there are 
no legally viable alternatives to Yucca Mountain for permanent disposal 
of spent nuclear fuel and high-level radioactive wastes in the United 
States. Were the Act to be amended to allow alternative sites, there 
are potentially many viable options. I agree with the Blue Ribbon 
Commission`s statement in its draft report (BRC 2011, p. 33) that 
``[d]ecades of research and site investigations in the United States 
and elsewhere suggest that a wide variety of rock types and geologic 
environments could--in combination with appropriate repository design--
be suitable for achieving [safe isolation of the waste]. The rock types 
that have been considered for a deep geologic repository have included 
bedded and domed rock salts, crystalline rocks (i.e., granite or 
gneiss), clay, shale, volcanic tuffs, basalt, and various other types 
of sedimentary rocks.'' I also agree with the BRC`s observation that 
``[d]eep boreholes represent another form of deep geologic disposal 
that may offer benefits, particularly for the disposal of certain forms 
of waste'' (BRC 2011, p. 33). Potentially suitable rock types are 
widely distributed across the United States, and I share the BRC`s 
``confidence that many geologic formations and sites that would be 
technically suitable for hosting a permanent repository can be found'' 
(BRC 2011, p. 33).
    Any comparison of benefits and drawbacks of the various 
alternatives should begin with the observation that before any disposal 
concept can be implemented it will have been shown to meet EPA and NRC 
regulatory requirements. Long-term safety of a disposal facility, as 
defined by the EPA and the NRC, is not negotiable, and concepts that do 
not meet the safety standards should not be considered viable or 
technically suitable. Benefits and drawbacks of viable alternatives 
therefore are most usefully compared in terms of metrics other than 
safety, such as the extent to which inherent properties of the geologic 
media simplify (or complicate) the licensing case, and programmatic 
attributes such as operational efficiency, schedule, and cost.
    Benefits and drawbacks are discussed in general terms for the 
primary alternative concepts in the following section. Relative 
benefits and drawbacks of deep borehole disposal are also discussed in 
more detail above in response to a question from Representative Broun. 
All of these concepts, as well as Yucca Mountain, have the potential to 
provide excellent long-term isolation, and the benefits and drawbacks 
described here should be considered in that context. None of the 
alternatives mentioned here, however, has a sufficient technical basis 
for the United States to proceed directly to site selection and 
licensing. For any alternative, I believe the United States will need 
to move through a staged process of site and concept screening, site 
selection, site characterization, and facility design before beginning 
the licensing process.
    Attributes of mined repositories in granitic rocks. Granitic rocks 
are widely distributed in the United States, and are found in 
geologically stable areas where the likelihood of seismicity and 
volcanism is low. There is extensive experience in mining granitic 
rocks, and underground openings remain open and stable with relatively 
little support, facilitating emplacement operations and retrieval, 
should it be necessary. Granitic rocks tend to have very low 
permeability when unfractured. Granitic rocks are not associated with 
oil and gas resources, and locations can be found where the likelihood 
of competition with other resources (e.g., metals or geothermal 
resources) is very low.
    As is true for most potential repository locations deep below the 
water table, water chemistry within granites tends to be reducing 
(i.e., with a low oxygen content). Reducing conditions lower the 
solubility of most of the important radioactive species in the waste, 
including uranium, plutonium, and other transuranic elements. (Iodine, 
and its long-lived radioisotope I-129, is an exception, in that it 
remains highly soluble in essentially all groundwater conditions). This 
is in contrast to the chemical environment at Yucca Mountain, where the 
decision to place the repository above the water table (and therefore 
in a largely dry environment) means that if and when water does reach 
the waste, oxidizing conditions will allow greater dissolution of 
radioactive species. Reducing groundwater conditions can therefore be 
viewed as a positive attribute for potential repositories in granitic 
rocks (and in essentially all other deep locations far below the water 
table). Oxidizing conditions, however, should not be viewed as a 
disqualifying attribute; if little water reaches the waste, for example 
because of the use of long-lived waste packages, solubility is of less 
importance, and locations above the water table can provide other 
benefits that should be taken into account.
    Potential drawbacks of granitic rocks begin with the observation 
that at the depths envisioned for mined repositories, granitic rocks 
may have relatively high-permeability fractures that can allow 
significant amounts of groundwater to enter the disposal region. These 
same fractures can provide a pathway for radionuclides to reach the 
near-surface environment if and when waste packages fail and waste is 
exposed to water. Granitic repository concepts, therefore, typically 
include clay backfill and long-lived corrosion-resistant waste packages 
as components of the engineered system, providing additional barriers 
to groundwater flow and radionuclide transport.
    In common with other disposal concepts that call for a clay 
backfill surrounding the waste packages (e.g., mined repositories in 
clay or shale), repositories in granitic rocks will require waste 
packages that are small relative to the packages that could be emplaced 
in Yucca Mountain or another similar repository designed without 
backfill. The size limitation comes from the desire to keep 
temperatures in the clay backfill below approximately 100 +C, to avoid 
changes in the material properties of the clay. There are four primary 
ways to manage the heat output of spent nuclear fuel and reprocessing 
wastes in disposal operations: waste can be allowed to decay in surface 
storage before disposal, waste packages can be kept small enough to 
limit the thermal load, waste packages can be spaced far enough apart 
to limit cumulative heating effects, and the disposal region can be 
ventilated after the waste packages are emplaced to remove heat. 
Because of its location above the water table and the lack of a clay 
backfill, the Yucca Mountain design allowed for relatively higher 
temperatures on the waste package surface, mitigated by effective 
ventilation of the disposal region during the operational period. This 
in turn allowed for emplacement of relatively large waste packages 
spaced relatively close together. Specifically, the waste packages 
designed for Yucca Mountain can each accommodate 21 pressurized water 
reactor fuel assemblies. Waste packages in typical mined repositories 
in granitic rocks (or clay/shale settings) would be much smaller, 
accommodating perhaps 4 assemblies with fuel of similar 
characteristics. Thermal loading constraints do not affect the long-
term safety of a repository. Rather, they have the potential to affect 
the efficiency of the disposal operation.
    Attributes of mined repositories in clay and shale rocks. Like 
granitic rocks, clay and shale are widely distributed in the United 
States, and are found in geologically stable regions where the 
likelihood of seismicity and volcanism is low. Many of the potential 
benefits and drawbacks are similar to those of granitic rocks: for 
example, groundwater chemistry will be reducing in these settings, and 
thermal constraints on repository design and waste package size are 
essentially the same. Additional potential benefits of clay or shale 
sites include the extremely low permeability of the host rock, 
relatively low frequency of open fractures, and chemical properties 
that tend to sorb most radionuclides of concern. A potential drawback 
for clay and shale sites is the frequent association of these rocks 
with oil and gas resources, both in underlying porous rocks and trapped 
within the low-permeability shale layers themselves.
    Attributes of mined repositories in salt. Like the other rock types 
discussed, salt deposits are widely distributed in the United States 
and are found in geologically stable regions where the likelihood of 
seismicity and volcanism is low. Unique properties of rock salt provide 
significant potential benefits for disposal of radioactive waste. Salt 
is relatively easy to mine. Pure salt is essentially impermeable, and 
it is realistically possible to find places in the center of thick salt 
deposits where water has not moved in hundreds of millions of years. 
Salt is a plastic material at the pressures found at repository depths, 
and it will flow relatively rapidly (on a scale of decades) to heal 
fractures opened by the mining of the repository and to entomb the 
waste packages. Waste surrounded by salt will remain fully isolated 
from the surrounding environment indefinitely, for as long as the salt 
remains intact. Thermal constraints for salt repositories are 
intermediate between those of repositories above the water table (like 
Yucca Mountain) and repository concepts that call for clay backfill. 
Acceptable peak temperatures are higher in salt than clay, and the high 
thermal conductivity of salt means that waste packages could 
potentially be larger in salt repositories than in granitic rocks or 
clay/shale sites.
    Properties of salt pose potential drawbacks, also. Salt is easily 
dissolved in fresh water, and although the presence of salt deposits 
today is proof that dissolution has not occurred in the geologic past, 
repository sites in salt must be chosen so that they remain isolated 
from flowing water in the future. The capability of salt to flow under 
pressure will complicate (but not preclude) retrieval of waste after it 
is emplaced. The bedded salts (in which the original sedimentary 
layering is preserved) that are the most widely distributed salt 
deposits in the United States tend to have layers of other evaporite 
minerals (primarily anhydrite) and clay interspersed with layers of 
pure halite. These layers have somewhat higher permeability than the 
pure halite, and can complicate the analysis of the potential for water 
to move in the rock. Finally, like clay and shale, salt is commonly 
found in association with oil and gas resources.
    Attributes of mined repositories in other rock types. Mined 
repositories have also been proposed in other rock types, most 
noteworthy basalt at the Hanford site in eastern Washington site in the 
early 1980s, and recently limestone in a proposed repository for 
intermediate level waste in Canada. Potential benefits and drawbacks to 
these and other less commonly investigated rock types primarily relate 
to their availability, their ability to isolate the waste from moving 
water, and their association with natural resources. To the extent that 
any potential host rock displays appropriate characteristics such as 
low water content, low permeability, absence of open fractures, and/or 
favorable chemical characteristics, it could be considered as a viable 
medium for disposal.
    Attributes of deep borehole disposal in crystalline rock. Deep 
borehole disposal could potentially be implemented anywhere where low-
permeability crystalline bedrock occurs within approximately a mile or 
less of the land surface. Although relatively few data are available 
from deep crystalline rock in much of the United States, potentially 
favorable rock types are widely distributed. As discussed in more 
detail in response to a question from Representative Broun, deep 
boreholes have the potential to provide essentially complete isolation 
for the wastes indefinitely. Potential conflicts with natural resource 
extraction are virtually nonexistent. Thermal constraints that provide 
a point of comparison between Yucca Mountain and other mined repository 
concepts are not as relevant for deep boreholes, because geometric 
constraints posed by the diameter of the hole are likely to keep 
thermal loads below levels of concern. Costs are believed to be 
competitive with, and perhaps significantly less than, those 
anticipated for mined repositories. The modularity of borehole 
construction and operation allows a level of flexibility in waste 
management that is not available in mined repository operations.
    Potential drawbacks of deep borehole disposal are straightforward. 
There are relatively few data from deep crystalline rocks in the United 
States, and further research, including demonstrations of rock 
properties in instrumented boreholes, is needed to confirm the concept. 
The narrow diameter of the borehole creates geometric constraints that 
preclude disposal of some waste forms, including existing borosilicate 
glass reprocessing waste at the Savannah River Site in South Carolina 
and the West Valley site in western New York State. Removing waste from 
a deep borehole after the hole has been sealed will not be simple 
(although recovery of much of the waste could perhaps be achieved using 
drilling and solution mining techniques), and deep borehole disposal 
should not be undertaken if full retrieval of intact waste forms is 
considered essential. From the alternative perspective of 
nonproliferation goals, however the relative difficulty of retrieving 
radioactive materials from a deep borehole could be viewed as a 
potential benefit-fissile material at the bottom of a deep borehole is 
unlikely to be recovered for use in a nuclear weapon.
    Attributes of other disposal concepts. Various alternatives to deep 
geologic disposal have been proposed over the past decades for the 
management of spent nuclear fuel and high-level radioactive wastes. 
Rechard et al. (2011) provide a summary explanation of past proposals, 
four of which warrant a brief mention here. Constructing an engineered 
mountain or mausoleum over waste stored at the land surface has been 
proposed informally at various times, but the concept does not meet the 
intent of requirements for deep geologic disposal and, to the best of 
my knowledge, no substantive design concepts have been developed. 
Launching radioactive waste into space has been proposed at least since 
the 1970s; cost and risk analyses indicate that it is not a viable 
option. Disposal in polar ice sheets was proposed in the 1970s; 
analyses raised concerns about operational feasibility and the 
potential for long-term isolation, and the concept was subsequently 
precluded in Antarctica by international treaty. Finally, disposal in 
clay sediments below the deep ocean floor was proposed in the 1970s. 
Detailed evaluations in the 1980s indicate excellent potential for 
long-term isolation in sub-seabed sediments, and I believe the concept 
remains technically feasible. International treaty agreements in the 
1990s eliminate it from further consideration.

Q2.  How long can we expect current storage sites at existing nuclear 
facilities to remain safely operable? How long would new temporary 
repositories be able to handle nuclear waste?

A2.  The safe operation of currently operating independent spent fuel 
storage installations (ISFSIs) is regulated by the Nuclear Regulatory 
Commission under 10 CFR part 72. The duration of a license granted 
under 10 CFR 72.42 is limited to 40 years, with the opportunity to 
apply for a 40 year license renewal. With respect to fuel stored either 
in spent fuel pools at reactor sites or at ISFSIs, the NRC has 
concluded in its most recent update to 10 CFR part 51.53 (NRC 2010) 
that ``if necessary, spent fuel generated in any reactor can be stored 
safely and without significant environmental impacts for at least 60 
years beyond the licensed life for operation . . . of that reactor in a 
combination of storage in its spent fuel storage basin and at either 
onsite or offsite spent fuel storage installations.''
    There are no fundamental technical reasons why temporary storage 
facilities could not be operated indefinitely as long as the spent 
nuclear fuel and its containers are monitored appropriately and 
structures, systems, and components are repaired or replaced as needed. 
The condition of the spent fuel will change through time, and 
degradation of the spent fuel and associated structures, systems, and 
components may complicate options for future handling of the waste, but 
I am not aware of any foreseeable processes inherent in the aging of 
the facility that would create unsafe conditions that could not be 
mitigated as needed. Non-technical factors that may limit the realistic 
duration of temporary storage include regulatory requirements, legal 
obligations concerning ownership of the spent fuel, and financial 
considerations regarding the cost of maintaining indefinite temporary 
storage. The Government Accountability Office evaluated two relevant 
scenarios for extended temporary storage at existing sites in a 2009 
assssment of nuclear waste management options (GAO 2009): in one 
scenario storage was limited to 100 years, and in a second scenario 
storage was extended to 500 years with the assumption that spent fuel 
required repackaging every 100 years. Estimated costs for storing 
153,000 metric tons of spent fuel at existing sites for 100 years 
ranged from $13 billion to $34 billion; estimated costs for storing the 
same amount of fuel for 500 years ranged from $34 billion to $225 
billion (GAO 2009, table 5).

Acknowledgment

    Sandia is a multiprogram national security laboratory owned by the 
United States Government and operated by Sandia Corporation for the 
National Nuclear Security Administration. Sandia Corporation is a 
subsidiary of the Lockheed Martin Corporation under Department of 
Energy prime contract no. DE-AC04-94AL85000. The statements expressed 
here are those of the author and do not necessarily reflect the views 
or policies of the United States Department of Energy or Sandia 
National Laboratories.

References cited

    Arnold, B.W., P.V. Brady, S.J. Bauer, C. Herrick, S. Pye, and J. 
Finger, 2011, Reference Design and Operations for Deep Borehole 
Disposal of High-Level Radioactive Waste, SAND2011-6749, Sandia 
National Laboratories, Albuquerque, NM.

    Brady, P.V., B.W. Arnold, G.A. Freeze, P.N. Swift, S.J. Bauer, J.L. 
Kanney, R.P. Rechard, J.S. Stein, 2009, Deep Borehole Disposal of High-
Level Radioactive Waste, SAND2009-4401, Sandia National Laboratories, 
Albuquerque, NM.

    BIA (U.S. Bureau of Indian Affairs), 2006, ``Notice of Availability 
of the Record of Decision (ROD) for a Proposed Lease of Tribal Trust 
Lands Between Private Fuels Storage, L.L.C. (PFS) and Skull Valley Band 
of Goshute Indian (Band) in Tooele County, UT,'' Federal Register vol. 
71, no. 192, p. 58629-58630, October 4, 2006.

    BLM (U.S. Bureau of Land Management), 2006, ``Notice of 
Availability of the Record of Decision for the Right-of-Way 
Applications Filed by Private Fuel Storage, L.L.C., for an Independent 
Spent Fuel Storage Installation on the Reservation of the Skull Valley 
Band of Goshute Indians and the Related Transportation Facility in 
Tooele County, UT,'' Federal Register vol. 71, no. 188, p. 57005-57006, 
September 28, 2006.

    BRC (Blue Ribbon Commission on America`s Nuclear Future), 2011. 
Draft Report to the Secretary of Energy, July 29, 2011.

    GAO (Government Accountability Office), 2009, Nuclear Waste 
Management: Key Attributes, Challenges, and Costs for the Yucca 
Mountain Repository and Two Potential Alternatives, GAO-10-48, United 
States Government Accountability Office Report to Congressional 
Requesters.

    Gibb, F.G.F., 1999, ``High-temperature, very deep, geological 
disposal: a safer alternative for high-level radioactive waste?'' Waste 
Management v. 19, p. 207-211.

    IAEA (International Atomic Energy Agency), 2006, Geological 
Disposal of Radioactive Waste: Safety Requirements, IAEA Safety 
Standards Series No. WS-R-4, IAEA, Vienna.

    Kokajko, L., 2011, ``Assuring Safety and Security for an Evolving 
Nuclear Fuel Cycle,'' presentation to the Nuclear Regulatory 
Information Conference, Session T14, Rockville, MD, March 8, 2011. 
http://www.nrc.gov/public-involve/conference-symposia/ric/past/2011/
docs/abstracts/sessionabstract<INF>-</INF>42.html.

    MIT (Massachusetts Institute of Technology), 2003, The Future of 
Nuclear Power: An Interdisciplinary MIT Study, Massachusetts Institute 
of Technology, Cambridge, MA, ISBN 0-615-12420-8.

    National Research Council, 1995, Technical Bases for Yucca Mountain 
Standards, National Academy Press, Washington, D.C.

    NRC (U.S. Nuclear Regulatory Commission), 2006, ``Notice of 
Issuance of Materials License SNM-2513 for the Private Fuel Storage 
Facility,'' 7590-01-P, U.S. Nuclear Regulatory Commission Docket No. 
72-22, Private Fuel Storage, Limited Liability Company.

    NRC (U.S. Nuclear Regulatory Commission), 2010, ``10 CFR Part 51: 
Consideration of Environmental Impacts of Temporary Storage of Spent 
Fuel after Cessation of Reactor Operation; Waste Confidence Decision 
Update; Final Rules,'' Federal Register Vol. 75, page 81032-81076, 
December 23, 2010.

    Rechard, R.P., B. Goldstein, L.H. Brush, J.A. Blink, M. Sutton, and 
F.V. Perry, 2011, Basis for Identification of Disposal Options for 
Research and Development for Spent Nuclear Fuel and High-Level Waste, 
FCRD-USED-2011-000071, Department of Energy Office of Nuclear Energy 
Fuel Cycle Research and Development Program. http://www.ne.doe.gov/
FuelCycle/
neFuelCycle<INF>-</INF>UsedNuclearFuelDispositionReports.html.

    U.S. District Court (United States District Court for the District 
of Utah), 2010, Skull Valley Band of Goshute Indians, and Private Fuel 
Storage,, Plaintiffs, v. Laura Daniel Davis, Associate Deputy Secretary 
of the Interior, Chad Calvert, Principal Deputy Assistant Secretary of 
the Interior for Land and Minerals Management, United States Department 
of the Interior, C. Stephen Allred, Assistant Secretary of the Interior 
for Land and Minerals Management, Defendants, Civil Action No. 07-cv-
0526-DME-DON: United States District Court for the District of Utah, 
728 F. Supp. 2d 1287; 2010 U.S. Dist. LEXIS 75815.

Laws and Regulations Cited

    The Nuclear Waste Policy Act of 1982, as amended, 42 U.S.C. 10101 
and following.

    10 Code of Federal Regulations Part 51, Environmental Protection 
Regulations for Domestic Licensing and Related Regulatory Functions.

    10 Code of Federal Regulations Part 60, Disposal of High-Level 
Radioactive Wastes in Geologic Repositories.

    10 Code of Federal Regulations Part 63, Disposal of High-Level 
Radioactive Wastes in a Geologic Repository at Yucca Mountain, Nevada.

    10 Code of Federal Regulations Part 72, Licensing Requirements for 
the Independent Storage of Spent Nuclear Fuel, High-Level Radioactive 
Waste, and Reactor-Related Greater Than Class C Waste.

    40 Code of Federal Regulations Part 191, Environmental Radiation 
Standards for Management and Disposal of Spent Nuclear Fuel, High-Level 
and Transuranic Radioactive Wastes.

    40 Code of Federal Regulations Part 194, Criteria for the 
Certification and Re-Certification of the Waste Isolation Pilot Plant's 
Compliance with the 40 CFR Part 191 Disposal Regulations.

    40 Code of Federal Regulations Part 197, Public Health and 
Environmental Radiation Standards for Yucca Mountain, NV.
Responses by Dr. Roger Kasperson,
Professor and Distinguished Scientist, Clark University

Question Submitted by Representative Paul C. Broun, Chairman, 
                    Subcommittee on Investigations and Oversight

Q1.  In his testimony, Mr. Spencer testified that the BRC should 
address Yucca Mountain head-on, stating:

    ``The BRC should state what it believes should happen with Yucca 
Mountain based on the best science and evidence available. If its 
members believe Yucca should be shut down, it should state why and 
provide a recommendation for disengaging from Yucca. If, on the other 
hand, it finds that Yucca should be pursued, perhaps as one of a number 
of options, then the Commission should provide recommendations on how 
to move forward. Such a conclusion could reject the current Yucca 
program while proposing an alternative. Such an alternative could 
embody the recommendations of the BRC's consent-based approach where 
the people of Nevada are given control over the future of the Yucca 
facility.''

    Do you agree or disagree with this recommendation, and why?

A1.  Answer:

    <bullet>  The science must be there and it must be strong;

    <bullet>  Strong science suggests that alternatives must be 
considered, not one site selected before the evidence is in;

    <bullet>  Beyond that, technical science is not the only thing that 
matters. Fairness in process and collaboration with those who will bear 
the burdens and risks are essential. They must have a role;

    <bullet>  And so a consent-based role is the way to proceed. In the 
end it will be the most successful, as Sweden and Finland have fully 
shown. Can we ever stop screwing it up here in the U.S.?
Responses by Mr. Gary Hollis, Chairman,
Nye County Board of County Commissioners

Questions Submitted by Representative Paul C. Broun, Chairman,

Subcommittee on Investigations and Oversight

Q1.  Do you believe the demand of the Secretary of Energy that the Blue 
Ribbon Commission exclude consideration of Yucca Mountain as the site 
for a permanent geological repository in its deliberations detracts 
from its ability to develop the best possible recommendation for 
nuclear waste management?

A1.  Yes. Doing so sets up the Blue Ribbon Commission to be complicit 
in the Department of Energy's violation of the Nuclear Waste Policy 
Act. It is an outrage that Federal law is so blatantly being ignored. 
Congress passed the Nuclear Waste Policy Act. Either it should be 
followed or Congress should change it. The BRC is not a siting 
commission, but remaining silent regarding the abandonment of the Yucca 
Mountain Project has nothing to do with repository siting. For the BRC 
to claim that the Secretary's direction prohibits the BRC from 
considering Yucca Mountain is disingenuous. The BRC charter makes no 
such prohibition and the Federal Advisory Committee Act does not allow 
the sponsoring authority to unduly influence the BRC as an independent 
commission, a direct compromise of the BRC's credibility.

Q2.  How important is it for the Nuclear Regulatory Commission to 
finalize and release its comprehensive technical reviews of the site 
(known as the ``Safety Evaluation Reports'')? Are there any drawbacks 
from completing the technical review of Yucca Mountain?

A2.  It is extremely important that the Nuclear Regulatory Commission 
be allowed to complete their review of the Yucca Mountain license 
application, and if appropriate, make a technical finding as to the 
safety of the Yucca Mountain site. The Country needs a repository to 
dispose of its spent nuclear fuel and high-level radioactive waste. The 
BRC did not discover a previously unknown solution; they recommended 
that the country proceed expeditiously to develop one or more geologic 
disposal facilities. With more than $11 billion invested in studying 
the science of Yucca Mountain, the country has a right to know whether 
or not it is possible to complete a first of a kind Nuclear Regulatory 
Commission licensing proceeding. That knowledge is invaluable whether 
or not the country develops the Yucca Mountain repository or seeks 
another location. It will take billions of dollars and decades to 
develop another repository site; to come as close as the country is 
today without finding the answer to the safety of the Yucca Mountain 
repository would be a crucial mistake.
    With the completion of the Safety Evaluation Reports and the 
Nuclear Regulatory Commission hearings, it will also be possible to 
once and for all separate the technical questions about the Yucca 
Mountain site from the political rhetoric and misinformation that has 
been used in the past. If a new political solution is to be crafted, it 
should not be based on a false premise that the Yucca Mountain science 
was bad.
    Over the years, the opponents of the project have tried to delay 
every phase of the project and the NRC review is no exception. It is 
widely viewed that completion of the NRC licensing process would show 
that the NRC technical staff concurs with DOE and their national 
laboratory partners that a repository at Yucca Mountain could be 
constructed and operated safely. Opponents who continue to vocally 
claim that a Yucca Mountain repository would be unsafe would lose 
credibility.

Q3.  In his testimony, Mr. Spencer testified that the BRC should 
address Yucca Mountain head-on, stating:

    ``The BRC should state what it believes should happen with Yucca 
Mountain based on the best science and evidence available. If its 
members believe Yucca should be shut down, it should state why and 
provide a recommendation for disengaging from Yucca. If, on the other 
hand, it finds that Yucca should be pursued, perhaps as one of a number 
of options, then the Commission should provide recommendations on how 
to move forward. Such a conclusion could reject the current Yucca 
program while proposing an alternative. Such an alternative could 
embody the recommendations of the BRC's consent-based approach where 
the people of Nevada are given control over the future of the Yucca 
facility.''

    Do you agree or disagree with this recommendation, and why?

A3.  We agree. The BRC should address Yucca Mountain head on. The most 
difficult issue in high-level radioactive waste disposal in this 
country (and likely the world) is finding an acceptable geologic 
repository. The BRC touts a consent-based approach to finding the 
appropriate repository site. If the opponents of Yucca Mountain are 
correct, then what harm is there to allow the NRC licensing process to 
proceed to its completion or allow the NRC Safety Evaluation Reports 
regarding Yucca Mountain to be published? Even with DOE's decision to 
abandon Yucca Mountain, they and their national laboratory partners 
have continued to maintain that Yucca Mountain is safe. The licensing 
process should be completed, and if Yucca Mountain is determined to be 
a safe option for a repository, then it is at least a baseline for 
comparison of other sites. This would also be a good starting point for 
negotiations with the State of Nevada and Nye County on mitigation of 
impacts and possible benefits. The only way to ever get consent for a 
repository is to understand the impacts to the State and local 
governments and then negotiate for money, land, water, etc., that help 
to offset these impacts.

Q4.  During hearing Q&A, Ranking Member Miller asserted that ``all the 
rail lines, all of the roads that [waste] would likely travel through, 
on to get to your county, to the Yucca Mountain facility, go through 
Las Vegas'' and that ``80,000 shipments a year would go through Clark 
County, through Las Vegas.'' You disputed this assertion. Please 
elaborate on your response. Should Yucca Mountain be licensed and 
accept shipments of spent nuclear fuel, what is the planned route for 
transportation of the spent fuel containers? Are any container required 
or expected to pass through Las Vegas? What about Clark County?

A4.  The opening assertion that ``all the rail lines, all of the roads 
that [waste] would likely travel through, on to get to your county, to 
the Yucca Mountain facility, go through Las Vegas'' is inaccurate. 
There is no existing rail to Yucca Mountain, and there are other roads 
and new routes that do not go through Las Vegas. Nye County endorses 
rail and road options that would completely avoid the Las Vegas valley.
    The second assertion that ``80,000 shipments a year would go 
through Clark County, through Las Vegas'' is also inaccurate. The 
Department of Energy Environmental Impact Statement that selected 
mostly rail as the preferred option acknowledges 95 rail shipments and 
90 truck shipments per year for 25 to 30 years, a combined total of 
5,550 shipments during those 30 years.
    The aforementioned EIS Record of Decision rail route is a 350-mile 
spur through central Nevada from Caliente, NV (approximately 125 miles 
northeast of Las Vegas), that dead ends at Yucca Mountain. That route, 
although it would not be Nye County's choice, would result in 
approximately nine (9) percent of the total rail shipments through Las 
Vegas. Nye County, along with Esmeralda, Mineral, Lander, and Churchill 
Counties prefers a north/south through-going rail alignment (a 
combination of the Mina and Jean routes) that would completely avoid 
the Las Vegas Valley, cost less to construct, provide greater economic 
development opportunities within Nevada, and more directly connect with 
the major east/west national railroad systems.
    Road routes were not finalized. Individual states are authorized to 
designate preferred alternative road routes within their borders There 
are road routes in Nevada that would avoid the Las Vegas valley. Nevada 
has yet to designate alternative routes.
    Transportation routes that avoid the requirement or expectation of 
any shipments through Las Vegas are easy and have already been studied. 
Completely avoiding all of Clark County is possible but more difficult. 
The through-going rail route that is easiest to construct requires 
construction of the Jean Corridor in the rural southwestern part of 
Clark county about 30 miles from Las Vegas.

Question Submitted by Representative Randy Neugebauer, Subcommittee on 
                    Energy and Environment

Q1.  Most scientists agree that we need long-term storage of nuclear 
waste. Our experiences with Yucca Mountain highlight the political 
difficulties locally, Statewide, and Nationwide in accomplishing such 
an objective. How can we build local consensus anywhere in the country 
to accept long-term storage of nuclear waste?

A1.  The issue is not with local community consensus; the local support 
for WIPP is well documented, the local support for the PFS Interim 
Storage Facility is clear, and the local support for the Yucca Mountain 
facility has been demonstrated to the Committee. The State of New 
Mexico ultimately supported WIPP after negotiations that included 
regulatory changes, transportation improvements and other benefits, 
while the State of Utah found ways to block the privately owned PFS 
facility after it had been licensed.
    The State of Nevada exercised its legal authority to submit a 
notice of disapproval when the President recommended that Yucca 
Mountain be designated and a license application submitted. That 
provision was explicitly included in the Nuclear Waste Policy Act; 
Congress recognized there could be resistance at the State level and 
required a supermajority vote to override the notice of disapproval. 
The strongest argument the State of Nevada has against the Yucca 
Mountain repository is a fairness complaint. When Congress amended the 
Nuclear Waste Policy Act and eliminated the second repository program, 
Nevada was able to build support for their argument about unfair 
treatment; a fundamental compromise in crafting the Nuclear Waste 
Policy Act was that no one State would have to take all of the waste. A 
meaningful step in building consensus could be reinstating a commitment 
to more than one repository.
    The Blue Ribbon Commission has based their recommendation for a 
new, consent-based approach to siting future nuclear waste management 
facilities on the success of the Swedish program in siting a 
repository. It must be recognized that the Swedish model is not 
applicable in the U.S.; in Sweden, the decision authority is the local 
community, and there is not a state-level government. A meaningful step 
in building consensus could be to focus on local communities that host 
an acceptable geologic disposal medium, with commitments for meaningful 
mitigation and compensation for both the local community and the State. 
Incidentally, the six rural Nevada counties that have provided 
resolutions attesting to local support encompass an area of more than 
46,500 sq. mi. That is equivalent in area to a square of more than 215 
miles on a side, the distance from Washington, DC, to New York City. 
That area is also larger than the areas of 18 states, including 
Pennsylvania, Ohio, or Virginia. It is also larger than a number of 
countries, including, for example, Portugal, Austria, or Iceland. It is 
difficult to argue that local community support in Nevada is not 
meaningful.
    There are other dimensions of consensus that should be addressed. 
The State of Nevada's arguments that the Yucca Mountain site is based 
on bad science has never had technical peer consensus; the best way to 
address their concerns would be to complete the license application. 
The State of Nevada's arguments that compensation for accepting the 
repository is not forthcoming is without merit; despite specific 
provisions of the Nuclear Waste Policy Act, the State has never entered 
into discussions for a consultation and cooperation agreement. If 
Congress were to initiate discussions with the state and local 
governments on compensation and impact mitigation, it could weaken 
support for the State's opposition. Finally, it is appropriate to note 
that contrary to Nevada's State's rights arguments, two facts must be 
acknowledged. First, the majority of the land encompassed by the rural 
Nevada Counties that have stated their support for Yucca Mountain is 
federally controlled public lands; Nye County is 98% federally 
controlled land. And second, the State of Nevada raised the State's 
rights issue in its lawsuits following the recommendation of Yucca 
Mountain and were not successful in that claim with the Court rejecting 
the State's challenge to the constitutionality of the resolution 
approving the Yucca Mountain site (see United States Court of Appeals 
for the District of Columbia Circuit, No. 01-1258, Nuclear Energy 
Institute, Inc., Petitioner v. Environmental Protection Agency, 
Respondent, Decided July 9, 2004.)
Responses by Mr. Rick McLeod, Executive Director,
Savannah River Site Community Reuse Organization

Questions Submitted by Representative Paul C. Broun, Chairman, 
                    Subcommittee on Investigations and Oversight

Q1.  Please describe concerns associated with constructing and 
operating a consolidated interim storage facility prior to the 
licensing of a permanent high-level waste repository. What assurances 
would be necessary from the Federal Government to satisfy those 
concerns and begin consideration of a consolidated storage facility?

A1.  First, our community leaders have studied the issues associated 
with nuclear waste storage for the past two years. The SRS Community 
Reuse Organization produced a White Paper in 2009 describing the 
impacts of waste storage and outlining the path for a community 
consensus position. A copy of the White Paper is attached.
    [The White Paper may be found in Appendix 2.]
    Secondly, in considering Consolidated Interim Storage, it is 
important to point out a couple of significant points: (1) Consolidated 
Interim Storage only applies to commercial spent fuel. We believe it is 
important that there is a clear distinction between commercial spent 
nuclear fuel and high-level defense waste. The two should be de-coupled 
and considered independently of each other. While many debate the 
disposal of commercial spent fuel as a ``states right'' issue, the 
disposal of high-level defense waste can only be regarded as a national 
issue. The high-level defense waste is our Nation's waste and it needs 
a national solution. We believe Yucca Mountain is that solution. (2) 
The storage of commercial spent fuel either separately or consolidated 
can be conducted safely. Safety is not the concern. We remain concerned 
about the definition of ``interim`` which, in discussing nuclear waste, 
can mean anything from 10 years to 500 years or more. ``Interim'' must 
be clearly and legally defined before communities such as ours can 
agree to host Consolidated Interim Storage. In the absence of such 
clear definition, we are in danger of becoming a ``de facto'' permanent 
repository for nuclear waste.
    In addition, as stated in our testimony, our five-county region in 
South Carolina and Georgia will not support any interim storage 
scenario unless a permanent solution in pursued at the same time. This 
means measurable progress toward a permanent repository for commercial 
spent fuel and high-level defense waste and/or a program to reprocess 
or recycle commercial used nuclear fuel.
    Community support also requires removal of a sufficient quantity of 
waste currently stored at DOE's Savannah River Site and the re-
commitment of processing used nuclear fuel currently stored at SRS in 
used fuel pools.
    These two conditions must be accompanied by ongoing health and 
safety monitoring, proper regulatory oversight at both the local and 
state level, and a legally binding commitment to a final disposition 
plan. All such considerations must be vetted in the local community in 
conjunction with State officials before any type of Consolidated 
Interim Storage can be considered.

Q2.  Do you believe the demand of the Secretary of Energy that the Blue 
Ribbon Commission exclude consideration of Yucca Mountain as the site 
for a permanent geological repository in its deliberations detracts 
from its ability to develop the best possible recommendations for 
nuclear waste management?

A2.  Our position on this is clear. Excluding Yucca Mountain definitely 
detracts from the Blue Ribbon Commission's ability to develop the best 
possible recommendations, In fact, we consider this to be the ``missing 
recommendation.''
    The BRC draft report recommends that prompt efforts be undertaken 
to develop, as quickly as possible, one or more permanent, deep 
geologic facilities for waste disposal, yet fails to mention Yucca 
Mountain.
    We continue to believe Yucca Mountain was--and is--the right answer 
for permanent nuclear waste disposal, and its completion should be 
vigorously pursued, especially for high-level defense waste. To 
blatantly and purposefully omit consideration of Yucca Mountain as an 
option is misguided and ignores three decades of intense research and 
billions in funding, which brought the Nation to the edge of a highly 
workable, ultimately safe solution for storing nuclear waste.
    In addition, it should be noted that the vitrified glass logs of 
high-level defense waste from the Defense Waste Processing Facility 
(DWPF) at the Savannah River Site were produced based on Waste 
Acceptance Criteria developed for Yucca Mountain. We have to wonder if 
some ``new'' permanent geologic repository will be able to accept this 
waste mixture. If not, where will this national waste stream go? This 
underscores the point that science--not politics--should govern the 
process for selecting a permanent repository for nuclear waste.

Q3.  How important is it for the Nuclear Regulatory Commission to 
finalize and release its comprehensive technical reviews of the site 
(known as the ``Safety Evaluation Reports'')? Are there any drawbacks 
from completing the technical review of Yucca Mountain?

A3.  We see no drawbacks whatsoever in the NRC completing its technical 
review of Yucca Mountain, The public needs to know that Yucca Mountain 
is safe, and the Safety Evaluation Report will be reassuring.
    This multi-discipline review involves dozens of trained 
professionals with expertise in numerous technical and scientific 
disciplines, including geochemistry, hydrology, climatology, structural 
geology, volcanology, seismology and health physics, as well as 
chemical, civil, mechanical, nuclear, mining, materials, and geological 
engineering.
    It offers a comprehensive review of all aspects of the repository's 
siting, construction, and operation. This report can become an 
important part of an overall education and awareness program necessary 
for public acceptance.

Q4.  In his testimony, Mr. Spencer testified that the BRC should 
address Yucca Mountain head-on, stating:

    ``The BRC should state what it believes should happen with Yucca 
Mountain based on the best science and evidence available. If its 
members believe Yucca should be shut down, it should state why and 
provide a recommendation for disengaging from Yucca. If, on the other 
hand, it finds that Yucca should be pursued, perhaps as one of a number 
of options, then the Commission should provide recommendations on how 
to move forward. Such a conclusion could reject the current Yucca 
program while proposing an alternative. Such an alternative could 
embody the recommendations of the BRC's consent-based approach where 
the people of Nevada are given control over the future of the Yucca 
facility.''

    Do you agree or disagree with this recommendation, and why?

A4.  Mr. Spencer is right in his view that Yucca Mountain should be 
included in the BRC recommendations, but he overlooks an important 
consideration. His recommendation fails to recognize that Yucca 
Mountain is not just an option for waste storage. It is the law of the 
land. As a Nation, we should be moving forward in accordance with the 
law established by Congress through the Nuclear Waste Policy Act unless 
and until that law is changed.
    It can only be changed by legislative initiative in Congress. It 
cannot be altered by the Blue Ribbon Commission, which can only advise 
and has no authorizing, regulatory, or legal mandate. We should not be 
waiting on the Blue Ribbon Commission in moving Yucca Mountain forward

Q5.  Can you describe in greater detail the opportunities associated 
with the development of a research and development center to be located 
at Savannah River Site's H Canyon?

A5.  Researchers at Savannah River National Laboratory (SRNL), along 
with H Canyon personnel, are currently conducting a comprehensive 
feasibility study to determine the benefits and challenges associated 
with establishing an R&D test bed for advanced detector technologies.
    The need for such a test bed has been expressed the National 
Nuclear Security Administration's (NNSA) Next Generation Safeguards 
Initiative (NGSI) and would serve as a way to transfer emerging 
safeguards technologies from the laboratory to an operational 
environment.
    This technology strengthens the U.S. safeguards program by opening 
the possibility for more efficient and cost-effective detection of 
nuclear materials, improving the timeliness of detection, minimizing 
uncertainty, and improving confidence in results.
    As identified in the NGSI program plan, there is a lack of fully 
operational facilities that allows for full-scale testing of new 
technologies. H Canyon has been identified as a potential location due 
to its unique standing as the Nation's only operational nuclear 
chemical separations plant.
    H Canyon offers several areas where full-scale testing could be 
conducted. Combined with nearby SRNL, the needed expertise for 
developing, deploying, testing, and evaluating advanced detector 
technologies is readily available.
    The concept would eventually open SRNL to other DOE National 
Laboratories, resulting in a comprehensive initiative for testing 
national and international safeguards-related equipment.

Q6.  What would be the impact on the Savannah River Site and 
surrounding communities should consideration of Yucca Mountain site be 
halted and the Nation embark on a new search for a nuclear waste 
repository? How would this impact Savannah River Site concerns about 
the cost of managing, guarding, monitoring, and other issues relating 
to existing nuclear material?

A6. There are numerous potential impacts.
    First and most significantly, there has been a substantial loss of 
trust and credibility. The Federal Government has broken faith with our 
community and with others across the country that trusted implicitly in 
the Department of Energy's commitment to complete Yucca Mountain as the 
Nation's preferred method of nuclear waste storage.
    The Federal Government has reneged on its promise to provide a 
permanent repository for defense nuclear waste and for commercial spent 
fuel from nuclear power plants. As a region, we have counted on this 
promise and on the government's assurances that our site and others 
would be a temporary home for nuclear waste.
    We relied even more heavily on this promise once the choice of 
Yucca Mountain became the law of the land through the Nuclear Waste 
Policy Act.
    Today, the Savannah River Site has approximately 3,000 canisters of 
stabilized legacy high-level waste from the Cold War stored onsite, and 
another 3,000 to 4,000 canisters will be generated in the process of 
stabilizing the remaining liquid radioactive waste now stored in aging 
tank farms at SRS. This stabilized high-level waste must be disposed in 
a federal repository, but until a federal repository is available, it 
will have to be stored at SRS.
    In addition, Savannah River Site is the receipt and storage site 
for aluminum-clad research reactor spent fuel from decommissioned 
research reactors worldwide. Based on approved operational plans, SRS 
will reprocess this fuel in H Canyon to recover the enriched uranium 
for use as fuel in nuclear reactors pending operational approval by DOE 
and budget approvals by Congress. The high-level waste resulting from 
processing the fuel will be stabilized along with other high-level 
waste at SRS and stored until a repository is available.
    Savannah River Site was also selected by DOE to provide interim 
storage for surplus non-pit plutonium in the United States. The 
plutonium originally located at Rocky Flats, Hanford, Los Alamos, and 
several weapons research laboratories will be consolidated at SRS. 
Approximately 60 percent of the plutonium by weight is scheduled to be 
converted to commercial reactor fuel in the Mixed Oxide Fuel 
Fabrication Facility (MOX).
    However, DOE planned to dispose of the remaining 40 percent in the 
federal repository by dissolving in H Canyon, incorporating plutonium 
into borosilicate glass in the Defense Waste Processing Facility with 
existing high-level liquid waste, and storing it in the Glass Waste 
Storage Buildings at SRS until a repository is available.
    If there is no repository, the costs for monitoring materials 
stored at SRS will continue for a longer period of time and will 
increase as years go by. In addition, SRS will be forced to build 
additional glass log storage buildings to accommodate material that 
should be going to the repository. There are currently two glass log 
storage buildings at SRS, and a third is being designed with more to 
follow. These facilities only have a design life of approximately 50 
years. A study on the consequences of long-term storage (100-plus 
years) has yet to be conducted, and therefore their suitability for 
long-term storage is unknown.
    While we recognize that DOE, the Nuclear Regulatory Commission, and 
the nuclear utilities are diligent in ensuring that these materials are 
stored securely, and we have no concerns about the ability to store 
these materials safely in the near term, the impacts of long-term 
interim storage, including continued safety, have not been adequately 
evaluated. This represents an additional cost required for community 
support.

Question Submitted by Representative Sandy Adams, Subcommittee on 
                    Investigations and Oversight

Q1.  ``Ratepayers in my State alone have contributed over $800 million 
to the Nuclear Waste Trust Fund to date. While the used fuel is 
currently being held safely on site by our utilities, doing so 
constitutes an additional economic burden. With the administration 
pulling the plug on Yucca Mountain for political, not scientific 
reasons, and no realistic alternative in place, why should my 
constituents continue to have to pay into the Waste Fund?''

A1.  The Nuclear Waste Fund was created to provide a permanent solution 
for nuclear waste disposaL We do NOT believe your constituents should 
continue to pay into the Nuclear Waste Fund, UNLESS those funds are 
used for that purpose or for specific, current storage needs. For 
example, they could be earmarked for safeguards, security and 
environmental protection at the existing storage sites which now dot 
the country.
    In addition to nuclear plant sites where commercial spent fuel is 
currently stored, these funds could also be utilized by communities who 
agree to host a Consolidated Interim Storage facility for commercial 
spent fuel.
    New legislation in the form of amendments to the Nuclear Waste 
Policy Act would be needed to allow funds to be used in this way.
    Otherwise, if payments to the Nuclear Waste Fund are not being used 
to provide permanent storage. as intended, the payments should cease.

Question Submitted by Representative Judy Biggert, Subcommittee on 
                    Energy and Environment

Q1.  A primary recommendation from the BRC is to establish a new 
``consent-based siting'' process that would require relevant State and 
local governments to accept a facility before it proceeds. The report, 
however, is silent on the question of consent by local communities 
where nuclear waste currently resides. If the BRC's recommendation is 
worthy of consideration, how can the Federal Government ensure 
``consent'' requirements are a two-way street? In other words, should 
all the communities around the country currently storing spent fuel be 
required to do so indefinitely without their consent?

A1.  We do NOT believe communities currently storing spent fuel around 
the country should be required to do so indefinitely without their 
expressed consent. First, storage of commercial spent fuel was--and 
is--a legal obligation of the Department of Energy, one that has 
important implications in health and safety, the economics of nuclear 
power as an energy source, and national security. DOE has not lived up 
to its obligatIons in this regard and, by default, has left the job to 
utilities and local communities across the Nation.
    Secondly, consent by local communities is an essential element of 
long-term success in storage of commercial spent fuel and high-level 
defense waste. Because of the stalemate that currently exists in 
progress toward a permanent solution, the matter of consent by local 
communities where nuclear waste currently resides has taken on added 
importance.
    A key to the ``two-way street'' assurance concerning consent 
requirements is education and engagement with DOE, congressional 
delegations, and the industry AS EARLY AS POSSIBLE in the decision-
making process.
    Local governments working alongside organizations like ours are the 
formal voice and institutional authority speaking on a community's 
behalf and pursuing community interests with Federal and State 
Governments. They also are uniquely positioned to negotiate economic 
benefits on behalf of the impacted community. It is imperative that any 
economic benefits reside at the local community level first, not merely 
directed from the State level down. We must keep in mind that this is 
where the waste will ultimately reside. whether that is interim or long 
term.

Question Submitted by Representative Randy Neugebauer, Subcommittee on 
                    Energy and Environment

Q1.  Most scientists agree that we need long-term storage of nuclear 
waste. Our experiences with Yucca Mountain highlight the political 
difficulties locally, Statewide, and Nationwide in accomplishing such 
an objective. How can we build local consensus anywhere in the country 
to accept long-term storage of nuclear waste?

A1.  Clearly, this is a major challenge--one not subject to glib, easy 
answers. For starters, to develop local consensus, potential host 
communities must get educated on nuclear issues and then educate their 
citizens. Outreach and education can include hosting meetings for the 
community at large with site managers, contractors or utilities; 
creating public information centers; and building websites and 
producing written materials that outline the pros and cons of the 
proposed initiative.
    Local communities and governments must help ensure there is a 
defined public participation process and appropriate government 
services and funding for key activities, including oversight 
infrastructure development, workforce development and emergency 
training and preparedness.
    The public participation process needs to be locally focused. 
Outside stakeholders (those not living in the community), while having 
a right to an opinion, must not be allowed to dictate or confuse the 
consensus process or decision. Many times their more vocal views are 
taken by DOE, congressional delegations, and the press above the voice 
of the local community.
    Local communities and governments also can play an important role 
in working with States and private companies to ensure that local 
values, concerns, and priorities are understood and taken into account 
in any proposed project and that appropriate incentives and benefits 
result. Some of these include:

    <bullet>  Infrastructure improvements, including highways, 
railroads, waterways, airports or other public projects;

    <bullet>  Environmental improvements, including the cleanup of 
existiny air, water or waste problems;

    <bullet>  Public school assistance programs;

    <bullet>  Higher education programs;

    <bullet>  Health care programs;

    <bullet>  Proposed co-location of other federal projects or 
existing federal expansions;

    <bullet>  General economic development programs;

    <bullet>  Transfer of ownership of federal properties;

    <bullet>  Tax subsidy or property value protection programs;

    <bullet>  Public recreation improvement projects;

    <bullet>  Direct financial assistance;

    <bullet>  Local employment or product purchasing agreements;

    <bullet>  Any other type of assurance, equity, or assistance 
desired.

    A basic and fundamentally important principle of this program is 
that a host jurisdiction has the opportunity--and the responsibility--
to define the benefits and conditions appropriate to its particular and 
unique needs.
    Finally. it is essential that communities have a defined oversight 
role, particularly with respect to safety. security, and emergency 
response training.
Responses by Dr. Mark Peters, Deputy Laboratory Director
for Programs, Argonne National Laboratory

Questions Submitted by Representative Paul C. Broun, Chairman, 
                    Subcommittee on Investigations and Oversight

Q1.  What areas of nuclear energy-related research, development and 
demonstration offer the most promise to make a significant change in 
the quantity of spent nuclear fuel produced and the manner in which it 
is handled?

A1.  The most promising research areas relate to the development and 
demonstration of safe, secure, and economic technologies for 
``closing'' the nuclear fuel cycle. The current nuclear fuel cycle in 
the United States is ``open,'' which means that fuel is used only once 
in a reactor, for about four years. The fuel then is removed from the 
reactor and stored at the plant site while it cools and its 
radioactivity decreases.
    The ``open'' fuel cycle yields wastes that still contain a 
substantial amount of untapped energy. At present, the fuel for our 
operating light water reactors (LWRs) is discharged after only about 
five percent of the uranium has been fissioned and another one or two 
percent has been converted to plutonium and ``minor actinides,'' such 
as neptunium, americium, and curium. If the residual uranium, 
plutonium, and minor actinides in used LWR fuel were recycled and 
reused, they could generate additional electricity. Recycling also 
would minimize the discharge of plutonium and minor actinides as waste. 
Because these constituents of used fuel remain radiologically toxic for 
thousands of years, recycling would increase the efficient use of our 
uranium resources while minimizing the creation of ultralong-lived 
radioactive waste requiring permanent deposition.
    Specific research priorities include:

    <bullet>  Development and demonstration of efficient processing 
techniques to extract/recover all long-lived constituents (plutonium 
and minor actinides) from used nuclear fuel. These techniques must be 
economical to implement and safeguard, must minimize creation of 
secondary wastes, and must produce high-quality feedstock for fuel re-
fabrication. Wastes generated during the processing and recycle should 
be compact, durable, and leach-resistant.

    <bullet>  Design and demonstration of economical and passively safe 
fast-spectrum reactors (including their fuels) for consuming long-lived 
constituents in used nuclear fuel.

    <bullet>  Development and validation of advanced modeling and 
simulation approaches for designing efficient recycling systems and 
facilities, enhancing assurance of their safety, and facilitating 
safeguards and protection of nuclear materials.

    Research also should be undertaken to improve the existing once-
through fuel cycle. Specific recommendations include:

    <bullet>  Development of LWR fuels that will achieve increased 
burnup, provide greater reliability and operational flexibility, offer 
enhanced ``accident tolerance,'' and assure long-term stability 
following discharge from the reactor.

    <bullet>  Verification of the stability and integrity of existing 
LWR fuels and their packaging (containers) after fuel discharge, during 
extended storage, and during transport following extended storage.

Q2.  In his testimony, Mr. Spencer testified that the BRC should 
address Yucca Mountain head-on, stating:

    ``The BRC should state what it believes should happen with Yucca 
Mountain based on the best science and evidence available. If its 
members believe Yucca should be shut down, it should state why and 
provide a recommendation for disengaging from Yucca. If, on the other 
hand, it finds that Yucca should be pursued, perhaps as one of a number 
of options, then the Commission should provide recommendations on how 
to move forward. Such a conclusion could reject the current Yucca 
program while proposing an alternative. Such an alternative could 
embody the recommendations of the BRC's consent-based approach where 
the people of Nevada are given control over the future of the Yucca 
facility.''

    Do you agree or disagree with this recommendation, and why?

A2.  The duties specified for the BRC in its Charter center on the 
consideration and assessment of a broad range of technological and 
policy alternatives for managing the back end of the nuclear fuel cycle 
in the United States. The Commission's intent, as well as its direction 
from the Administration, evidently focused on identification of 
workable alternatives to the Yucca Mountain Repository. In its draft 
report, the Commission offers only generic technical and policy options 
for nuclear waste management, with no specific recommended locations 
for interim storage or permanent disposal. In particular, the report 
neither includes nor excludes Yucca Mountain in its identification of 
options, and instead calls for a consent-based approach to siting 
nuclear waste management and disposal facilities.
    The BRC draft report does include some discussion of the Yucca 
Mountain program. Section 3.4.3 of the draft report summarizes the 
``Experience with the Yucca Mountain Repository Program,'' highlighting 
delays and difficulties that affected the program and discussing the 
erosion of public trust in the program, particularly in Nevada. 
Moreover, in p. 24 of the draft report, the Commission acknowledges 
that ``with key decisions by the courts and the NRC still pending, the 
future of the Yucca Mountain project remains uncertain.'' It also 
should be noted that the Yucca Mountain repository is a specific 
example of a mined geologic repository (in volcanic tuff), which is one 
of the generic disposal options identified in the draft report.
    As I stated during my testimony, I believe that completion and 
release of the Nuclear Regulatory Commission's Safety Evaluation 
Reports on Yucca Mountain would provide an important opportunity for 
lessons learned as we seek options for permanent disposition of new and 
legacy nuclear wastes. These reports, combined with the Yucca Mountain 
license application to the NRC, represent a substantial investment of 
both scientific endeavor and taxpayer funding, and I believe they will 
be valuable to the nuclear energy industry and to policymakers and 
regulators going forward.

Q3.  Having watched the situation unfold in Japan in the wake of their 
historic earthquake and tsunami, I think we can all agree that it is 
appropriate to study what happened at Fukushima Daiichi and apply any 
lessons learned to our fleet of American nuclear reactors. However, it 
is also clear that the Japanese regulatory model is a different one 
than ours. What can we learn from what happened in Japan, and what do 
we know about the safety and security of our own plants?

A3.  It is important to remember that the nuclear industry in the 
United States has an outstanding safety record, along with a history of 
improving its procedures and practices in response to safety incidents 
and accidents worldwide. However, the Fukushima accident highlights the 
need for continued vigilance and attentiveness to safety in the 
operation and regulatory oversight of nuclear power plants. As we learn 
more about the Fukushima Daiichi accident and its aftermath, the NRC 
and regulatory agencies in other nations should thoughtfully re-
evaluate safety requirements and verification of industry compliance.
    In the weeks following the Fukushima accident, nuclear plant 
operators in the United States and other nations re-examined and 
verified their preparedness to cope with emergencies, especially the 
type of station-blackout scenario that occurred at Fukushima after the 
Japanese earthquake and tsunami. Additionally, the NRC sent inspectors 
to every U.S. nuclear plant to review preparedness for natural and/or 
man-made disasters, especially those which could cause prolonged loss 
of offsite power. The NRC also established a Near-Term Task Force, 
which has issued a report on its initial recommendations to assure the 
safe operation and emergency preparedness of U.S. plants. The NRC 
currently is reviewing those initial recommendations and is planning a 
more intensive six-month study.
    Given the U.S. nuclear industry's decades-long track record of safe 
and reliable operation, it seems that the safety and security risks of 
continued operation of America's existing nuclear power plants appear 
to be relatively low, especially when compared with the safety and 
health risks caused by other means of baseload electricity generation. 
However, it should be noted that important design improvements have 
been made since the construction of America's current operating fleet. 
Wherever possible, next-generation nuclear plant designs replace 
``active'' systems, which are dependent on pumps, valves, and human 
operators, with ``passive'' systems that use natural forces, such as 
gravity and convection, to respond to malfunction. For example, in 
next-generation designs, the reactor may be engineered so that, if core 
temperature rises above normal levels, the efficiency of the fission 
reaction decreases and it slows down automatically. Control rods that 
stop the nuclear reaction can be suspended above the reactor and held 
in place with electricity, so that any interruption to the station's 
electrical power will automatically insert the rods into the reactor. 
These passive safety systems mean that if a plant loses power, as 
happened at the Fukushima Daiichi plant in Japan, the reactor does not 
require electricity to cool the core after shutdown. Incorporating 
these technologies in future construction of American nuclear power 
plants would provide additional safeguards against any possibility of a 
Fukushima-type disaster in the United States.
    The Fukushima accident also highlights the need for safe storage 
and management of used nuclear fuel. As the United States seeks 
workable policies and practices for short- and long-term management of 
nuclear wastes, we must carefully consider the need to find prompt, 
safe, and cost-effective means to limit risks associated with used fuel 
storage at plant sites, especially risks arising from inadequate 
cooling or proximity to operating reactors.


                               Appendix 2

                              ----------                              


                   Additional Material for the Record

     Report by the Majority Staff of the House Science, Space, and 
 Technology Committee: Yucca Mountain: The Administration's Impact on 
            U.S. Nuclear Waste Management Policy, June 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Documentation from Nye County

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       What's Next for Nuclear Waste? A New Strategy for the CSRA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Letter from Department of Energy Pertaining to

             Yucca Mountain Repository License Application

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       ``Federal Report: Nuclear Waste: Can Nevada Keep America's

             Sizzling Nuclear Waste Out of Its Backyard?''

                     Governing Magazine, April 1990

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Testimony of Martin G. Malsch,

        Special Deputy Attorney General for the State of Nevada

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            ``Nuclear Waste Program Faces Political Burial''

                        Science, 22 August 1986

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
